<html>
<title> - INNOVATIVE ENVIRONMENTAL TECHNOLOGIES</title>
<body><pre>[Senate Hearing 107-564]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-564
 
                 INNOVATIVE ENVIRONMENTAL TECHNOLOGIES

=======================================================================


                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                   EMERGING ENVIRONMENTAL TECHNOLOGY
                       AND NATIONAL ENERGY POLICY

                               __________

                        MAY 30, 2001--DURHAM, NH


                               __________


  Printed for the use of the Committee on Environment and Public Works








                           U.S. GOVERNMENT PRINTING OFFICE
80-649                            WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ARLEN SPECTER, Pennsylvania          HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page

                        MAY 30, 2001--DURHAM, NH
                           OPENING STATEMENT

Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     2

                               WITNESSES

Alix, Frank, CEO and president, Powerspan Corp...................     6
    Prepared statement...........................................    34
Andary, Casimer, director, Regulatory Programs, Alliance of 
  Automobile Manufacturers.......................................    24
    Prepared statement...........................................    60
Bayer, Judith Ann, director, Environmental Government Affairs, 
  United Technologies Corp.......................................     8
    Prepared statement...........................................    36
Eidlin, Richard, vice president and business development 
  director, Solar Works, Inc.....................................    12
    Prepared statement...........................................    50
Funk, David, Great Bay Stewards..................................    31
Goldstein, David B., Ph.D., Energy Program co-director, Natural 
  Resources Defense Council......................................    19
    Prepared statement...........................................    53
Hodsdon, John, Meredith, NH......................................    34
Itse, Hon. Daniel, New Hampshire State Representative............    32
Kelly, Tom, Ph.D., director, Office of Sustainability Programs, 
  University of New Hampshire, Durham, NH........................    21
    Prepared statement...........................................    56
Moses, John, CF Technologies.....................................    30
Sundberg, Donald, vice president for Research and Public Service, 
  University of New Hampshire....................................     1
Taylor, George, CEO and president, Ocean Power Technologies, Inc.    10
    Prepared statement...........................................    45
Wilson, Joshua...................................................    31

                          ADDITIONAL MATERIAL

Fact Sheets:
    Why Should Congress and the Administration Support a 
      Stationary Fuel Cell Tax Credit?...........................    43
    The Stationary Fuel Cell Incentive Program...................    44
Letter, Public Service of New Hampshire..........................    64
Statements:
    Bearden, T.E., Ph.D., LTC, U.S. Army (Retired), CEO, CTEC 
      Inc........................................................    87
    Chubb, Scott, Ph.D., physicist, Naval Research Laboratory....    85
    Gat, Roy, Ph.D., Advanced Electron Beams, Inc................    61
    Glanz, Filson H., professor emeritus of Electrical 
      Engineering, University of New Hampshire...................    62
    Greer, Steven M., M.D., former chairman, Department of 
      Emergency Medicine, Caldwell Memorial Hospital.............    68
    LaViolette, Paul A., Ph.D., former president, Starburst 
      Foundation Institute.......................................    81
    Lewis, Rone III, senior vice president, Ingersoll-Rand (IR), 
      president, of IR's Independent Power Sector................    63
    Loder, Theodore C. III, Ph.D., Institute for the Study of 
      Earth, Oceans, and Space, University of New Hampshire, 
      Durham, NH................................................. 65-68
    Mallove, Eugene, Ph.D., editor-in-chief and publisher, 
      Infinite Energy Magazine...................................    87
    Valone, Thomas, M.A., P.E., president, Integrity Research 
      Institute, Washington, DC.................................. 71-81


                 INNOVATIVE ENVIRONMENTAL TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, MAY 30, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                        Durham, NH.
    The committee met, pursuant to notice, at 2:15 p.m., at the 
Stafford Room, Memorial Union Building, University of New 
Hampshire, Durham, New Hampshire, Hon. Bob Smith (chairman of 
the committee) presiding.
    Present: Senator Smith.
    Senator Smith. If I could have order in the house, we will 
call the hearing to order and I apologize for the brief delay 
in getting here from over in Dover.
    I would like to call on Mr. Donald Sundberg, the vice 
president for Research and Public Service with UNH first for a 
few remarks.

 STATEMENT OF DONALD SUNDBERG, VICE PRESIDENT FOR RESEARCH AND 
          PUBLIC SERVICE, UNIVERSITY OF NEW HAMPSHIRE

    Mr. Sundberg. Thank you Senator Smith. It is a pleasure to 
have you here again. You are a welcome guest to the University 
of New Hampshire and you are a welcome resident of the State of 
New Hampshire. I want to extend to all of you in the room a 
warm welcome from the whole UNH community as you gather here 
for this Senate hearing. As part of the public service mission 
of the University of New Hampshire: we are a land grant, sea 
grant and space grant organization; we have a special need to 
serve the public at large, and hosting events like this one 
today is one of the ways we like to do this.
    Last year, in fact, we were fortunate enough to work with 
Senator Smith and his EPW staff to organize and orchestrate a 
symposium called Environment and Public Works Issues in New 
Hampshire. Then provided for a very effective forum to discuss 
and to debate air and water issues, transportation and super 
fund issues and natural resource and wildlife issues. I really 
hope that today's hearing will generate the same kind of energy 
and insightful discussions as we experienced last year.
    If I might, I'll need to take a moment to tell those of you 
in the room who don't know very much about UNH a bit about us. 
I know we have a number of visitors here today. We are, as I 
said, a land grant institution and so serve the State in that 
capacity. We are one of the two research institutions in the 
State and we have about 12,000 students here: about 10,500 
undergraduates and around 2,000 graduate students. We have 700 
faculty serving those students--note that I put the word on 
``service''--and a wonderful staff helping the faculty support 
the students and the State. We serve the teaching research and 
public service outreach needs of this State and surrounding 
region with a long-term commitment to sustainability issues and 
I want to thank Dr. Thomas Kelly and his staff--Tom directs our 
office of sustainability programs here at the University--for 
working to assist the Senator and his staff in putting on this 
hearing for you today. I suspect that today Tom, in his 
testimony, will mention some of his program such as climate 
education initiative, which is a strong program here and linked 
to our climate change research center, very strong program at 
the University of New Hampshire in talking about the issues of 
sustainability.
    So last, I know that Senator Smith attended this morning a 
demonstration of innovative water treatment technologies in the 
State and on that theme of innovation, I really hope this 
afternoon that you will continue the innovative thoughtfulness 
and insightfulness as it applies to energy and surrounding 
issues.
    So Senator, welcome to the University of New Hampshire, 
your staff, members of the audience I hope that you will have a 
very energetic and worthwhile discussion.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you very much Dr. Sundberg, I 
appreciate your comments and I just want to make a few brief 
remarks and a few housekeeping things and we will go right to 
the witnesses.
    First of all, I didn't anticipate when we scheduled this 
hearing that this would probably be the last hearing for a 
while that I would be chairing as the Environment and Public 
Works Committee Chairman, but you never know how things are 
going to work out--but, it's not going to do anything as far as 
my involvement on the issues that I care about. I will be just 
as involved as the Ranking Republican Member on the committee 
and working with Senator Jeffords for the good of New England, 
and certainly, New Hampshire.
    I want to thank the University of New Hampshire for hosting 
this event. I know it is a lot of work to do that and I am very 
grateful to you for it. I want to thank all of you for being 
here today, especially those who have come with the new 
technologies.
    When I became the chairman almost 2 years ago, I felt that 
I wanted to change the direction of how we develop our 
environmental policy. I wanted to go away from the stovepipe, 
top down regulatory regime and go to thinking outside the box a 
little bit and develop some new, innovative, flexible and 
effective weapons. In other words, market-based solutions where 
we can. I think you are going to hear a lot of market-based 
solutions today. I was trying to move toward a cooperative 
approach where we focus on results with more innovation and 
less regulation and that is what this hearing is all about.
    I am honored to be here at UNH to highlight the tremendous 
work of America's companies and frankly, the tremendous work of 
the University of New Hampshire, because they are leaders in a 
lot of innovative technology that doesn't relate to energy, but 
relates to other environmental issues as well as energy. As Dr. 
Sundberg said, we were just over at Somersworth with some water 
infrastructure innovations--but a clean environment in the 
future of our national energy security depends on their 
ingenuity. That is where the answers are going to come. We saw 
what happened in California, we haven't got a California 
problem, but we have felt the brunt of high heating costs and 
high gas prices so we know that much, that it can impact us in 
a negative manner. Our economy though is also tied to a 
national economy and it could take a very heavy hit if we do 
nothing, so we were asked by the leadership in the Senate to 
host a series of energy related hearings around the country and 
I was pleased to do my part.
    The solution to our problems must be comprehensive however. 
We need new energy production. We are not going to be focusing 
a lot on that today, views are focusing more on new technology, 
but we cannot ignore the fact that we need new energy 
production. We have to modernize and expand our antiquated 
delivery system for that energy and vastly increasing our 
conservation and energy efficiency efforts which to a large 
extent, we are going to focus on here today.
    If you all saw the vehicles outside, I spoke to Ford just 
on the way in and they have developed a hydrogen cell vehicle 
which he said is ready to go on the road in 2004. So all of us 
complainers about energy, we ought to start buying the hybrid 
and the hydrogen cars, and I told them when they get one that I 
can sit in, I am going buy. But, we need an energy policy 
before we develop into a major crisis and I am pleased that we 
are working on it to fix it. It is a short term problem, but 
it's also a long term problem. And the long term, you see the 
answers in those automobiles out there. The short term, you 
know, we still have to heat our homes and run those gas 
guzzlers that we have while we have them.
    I am pleased to be here today, because its important that 
Congress and the Nation understand what technologies are out 
there and what they are capable of. One of the frustrations 
that I felt in Congress over the years has been the fact that 
we react to everything rather than act proactively and here is 
an opportunity now to hear real leaders, people who have led in 
their respective disciplines and here is a chance to showcase 
what they have done. They are vital to our long term national 
interest and I think I recognize this and I think the 
President's plan recognizes this even though there will be some 
differences as to the energy plan of the President, in terms of 
details at least, there is an energy plan. In fact, 42 of the 
President's 105 recommendations in his energy policy are 
intended to modernize and increase conservation and 
environmental protection. That hasn't gotten a lot of play, but 
it is true. It is obvious that at this time it is necessary to 
call upon these breakthroughs to propel our Nation through this 
difficult strategy.
    [The prepared statement of Senator Smith follows:]
      Statement of Hon. Bob Smith, U.S. Senator from the State of 
                             New Hampshire
    Good afternoon and welcome to this hearing of the U.S. Senate 
Committee on Environment and Public Works. I would like to thank the 
University of New Hampshire for hosting this event, and I also want to 
thank all of you for coming here today to talk about clean, innovative 
technologies.
    When I became chairman of the Environment & Public Works Committee, 
I wanted to change the direction of how we develop our environmental 
policy. I wanted to narrow on approaches that move away from a stove-
pipe, top-down regulatory regime. We were in search of remedies that 
involved thinking ``outside the box.''
    The need for our Nation is to develop new, innovative, flexible and 
effective weapons against pollution. We need effective, market-based 
solutions; cooperative approaches that produce results; and more 
innovation and less regulation. That is what this hearing is all about.
    I am honored to be here at UNH to highlight the tremendous work and 
ingenuity of America's companies, many from New Hampshire, that have 
developed these technologies.
    A clean environment and the future of our national energy security 
depend on their ingenuity. While New Hampshire is a net exporter of 
electricity and does not face the energy crisis that has gripped 
California--we have felt the brunt of high heating costs in the winter 
and high gas prices in the summer. Our economy also is tied the 
national economy, which will take a heavy hit if we do nothing to 
address this situation.
    The solution to this problem must be a comprehensive effort 
including:
    New energy production,
    Modernizing and expanding our antiquated delivery system, and
    Vastly increasing our conservation and energy efficiency efforts.
    I believe that we must create an atmosphere that encourages 
innovation and will ensure safe, reliable energy. I commend President 
Bush for taking action and developing his National Energy Policy. After 
8 years of a total lack of leadership, or willingness to address this 
crisis that we knew was looming on the horizon, I am pleased we are 
finally going to do something to fix it.
    This comprehensive effort will require new, innovative and 
environmentally friendly technologies to meet our national energy needs 
and our desire for a clean, healthy environment. That is why I am 
holding this hearing today. It is important that the Congress and the 
Nation understand what technologies are out there and what they are 
capable of. I want to use this opportunity to showcase them especially 
those being developed right here in New Hampshire.
    Innovative technologies are vital to our long-term national 
interest. I recognize this, and the President's plan recognizes this. 
In fact, 42 of the President's 105 recommendations in his Energy Policy 
are intended to modernize and increase conservation and environmental 
protection efforts.
    It is obvious that at this time it is necessary to call upon these 
break-throughs to propel our country through this difficult energy 
situation. There has long been the assumption that we could not have a 
strong energy supply while maintaining a strong environmental policy. A 
common belief is that you must sacrifice the one in order to obtain the 
other.
    What I believe, and what we are going to see today, is that you can 
have both a reliable, affordable and adequate long-term energy supply 
and a clean, healthy environment.
    These technologies will free us from the false choice of energy or 
environment. The Energy Star program is an example of an innovative 
partnership designed to help consumers and businesses benefit from 
energy efficiency. The idea behind Energy Star was to get manufacturers 
to produce products that required less energy. Energy efficient 
products would be labeled and easily recognized, allowing consumers to 
purchase products they knew to be environment friendly while ultimately 
saving money by lower energy costs and preserving the quality of the 
product.
    Nationwide, Energy Star products save over $2 billion in energy 
costs. Here in New Hampshire, we have 73 companies and public entities 
participating in Energy Star. New Hampshire has 22 million square feet 
of building space that is currently committed to the Energy Star 
Program. In addition, because of existing Energy Star investments in 
New Hampshire:
    Nitrogen Oxide emissions will be reduced by 4.5 million lbs.
    Sulfur Dioxide emission will be reduced by 9 million lbs.
    Carbon Dioxide (CO<INF>2</INF>) emissions--Energy Star investments 
already made will prevent the release of over 2.5 billion pounds of 
Carbon; That is an equivalent to the reduction in Carbon that you would 
get from planting 348,000 acres worth of trees.
    Achieving success through innovation, not regulation.
    It is worth noting that two of the Energy Star labeled products are 
manufactured in New Hampshire. In addition to Energy Star, there have 
been many other efforts to increase energy efficiency.
    Something that I have been talking about now for some time is that 
of next-generation vehicles. Over the last few decades, we have done a 
good job in reducing our vehicle emissions. The cars and light trucks 
of today are 96 percent cleaner than their counterparts of 30 years 
ago. The vehicles of 2009 will be 80 percent cleaner than today's cars. 
But we need to take that to the Next Generation--I want to provide the 
incentives so that we can bring the Super-Clean vehicles to the 
mainstream. Again, this is an important part of the President's plan.
    I am very pleased that we have hybrid and fuel cell vehicles on 
display, but we also have a number of other technologies here today 
that will lead us into a cleaner future:
    Power Span, whose technology has the capability of revolutionizing 
the reduction of power plant emissions. This is a technology that I 
have been citing as I have been promoting my multi-emissions strategy, 
because it is an example of being able to increase our energy 
production, yet decrease our emissions.
    Solar Works is here to discuss their solar, and other clean energy 
technologies.
    United Technologies is here to talk about advances in fuel cells.
    Ocean Power is going to tell us how we can harness the energy of 
the seas.
    We must embrace these types of technologies. They are clean and 
plentiful--they are the future. They are a key part of any viable, 
long-term energy solution. I recognize this, and the President 
recognizes this.
    I am proud that I am able to showcase these innovative solutions to 
the Nation. Thank you all for coming here today and I anxiously await 
your testimonies and the opportunity to share them with my colleagues 
in the Senate.

    Senator Smith. Let me now just turn to a couple of details 
before I go to the panel. It is generally the committee's 
practice to limit oral remarks to 5 minutes. Every word of your 
statement will be made part of the record automatically, you 
can summarize if you would like or speak extemporaneously, 
however you like, but your full statement will be in the 
record. If time allows after both panels have finished, and I 
believe we will have that time, I will invite comments from the 
audience. Again, just let me say, I know people love to give 
speeches and if you want to submit a written statement for the 
record, you can do that. If you could just ask your question or 
make your comment in 1 minute, in other words, summarizing 
whatever it is you want to say, I will put your full statement 
in the record where you ask the question, the same as we do for 
the witnesses. I would appreciate it if everyone could be 
considerate of each other, because I know we have a number of 
people who want to speak.
    So, we are going to try to give each person a minute and if 
you are interested in making a statement, there is a red sheet, 
I think, back there on the handout table. Is that right? I do 
have to leave a little before 4 o'clock and I apologize for 
that, but if we still have questions, we will gather those 
questions even after I leave.
    On our first panel, I am pleased to have Frank--is that 
Alix?--Alix, all right, I had a 50 percent chance of being 
right--Frank Alix, the CEO and chairman of Powerspan 
Corporation; Judith Bayer, United Technologies; George Taylor, 
CEO and President of Ocean Power Technologies and Richard 
Eidlin of Solar Works. I had an opportunity to visit with 
Richard earlier this year and I am glad that he is here.
    Let me start with you Mr. Alix and just say that 
Powerspan--and they will be telling you about this themselves--
the reason why I am excited about it is that they produce 
technology that may see us reducing NO<INF>X</INF> and SO<INF>2</INF> 
emissions by as much as 70 percent and perhaps mercury as much 
as 80 percent. We are very excited about what they are doing, 
we are proud of them for being here in New Hampshire and we 
hope that we are going to be able to take a pilot project that 
they are working on in Ohio, where they are sending all that 
stuff over here our way, whereas reducing emissions there and 
bringing them back over here and working on a couple of plants 
right here in New Hampshire. So, we are pleased to have you 
here Frank, and we will hear from you now.

               STATEMENT OF FRANK ALIX, CEO AND 
                      CHAIRMAN, POWERSPAN

    Mr. Alix. Thank you Chairman Smith for the opportunity to 
share our perspective on innovative environmental technology. 
My name is Frank Alix, I am chairman and CEO of Powerspan.
    Powerspan is an emerging energy technology company 
headquartered in New Durham, NH. Our company was founded in 
1994 and has grown to employ 45 people, most in high-paying 
technical jobs. In order to fund technology development, the 
company has raised over $28 million to date from private, 
institutional and corporate investors.
    Over the past 3 years, Powerspan has focused its resources 
on the development and commercialization of a patented multi-
pollutant control technology for coal-fired electric generating 
plants called Electro-Catalytic Oxidation, or ECO. The ECO 
technology is designed to cost-effectively reduce emissions of 
sulfur dioxide, nitrogen oxides, mercury and fine particles all 
in a single, compact system. Several leading power generators 
are investors in the company or partners in ECO development. 
These include FirstEnergy, American Electric Power, Cinergy and 
Allegheny Energy.
    Powerspan has sucessfully tested this ECO technology in a 2 
megawatt slipstream of a coal-fired plant owned by FirstEnergy. 
During the test, ECO reduced emissions of NO<INF>X</INF> by 76 
percent, SO<INF>2</INF> by 44 percent, mercury by 81 percent 
and total particulate matter by 99.9 percent.
    The U.S. Department of Energy recently selected us for a $2 
million grant under a solicitation for promising mercury 
control technologies for coal-based power systems. In addition, 
lab testing of our next generation technology is showing 
nitrogen oxide removal of more than 90 percent and sulfur 
dioxide removal of more than 99 percent.
    Powerspan has begun installation of our first large 
commercial demonstration at a 50 megawatt slipstream at 
FirstEnergy's Eastlake Plant near Cleveland. The project is 
being co-funded by a $3.5 million grant from the Ohio Coal 
Development Office. Successful completion of this demo will 
lead to the availability of full scale systems in 2004. So much 
for the introduction.
    My comments are: as you consider the important role of 
innovative technology in further enhancing our environment, I 
would like to make the following points:
    1. Environmental technology development is driven almost 
exclusively by environmental regulations. Regulatory certainty 
and time are important factors that impact the degree to which 
environmental technology is deployed.
    2. The cost of achieving environmental compliance is 
usually significantly less than estimated at the time 
regulations are developed.
    3. Environmental regulations are not all created equal. 
Some are more likely to spur innovation than others.
    Let me briefly address each of these points.
    First, both electric generating utilities and the 
environmental technology community rely upon long-term 
certainty in environmental regulation. For the capital-
intensive electric generating industry, long-term regulatory 
certainty allows for the orderly improvement of generating 
assets without undue financial risk or the threat to the 
availability of electric supplies as we have seen in 
California. For the technology community, regulatory certainty 
provides the incentive to employ the resources to develop and 
commercialize new technology that will meet regulatory goals in 
the most cost-effective manner possible.
    In the process of crafting environmental legislation, the 
cost associated with the law's implementation is normally 
evaluated. These cost assessments are inevitably based upon 
what is known or commercially proven at the time. The objective 
of technology developers however, is to make what is known and 
commercially proven obsolete. This they do on a regular and 
dependable basis. Therefore, it is important to remember that 
given time, technology developers will ensure that 
environmental compliance costs are far less than predicted 
today.
    The ECO technology could provide the environmental benefits 
of reductions in a number of air emissions, including mercury, 
years ahead of a typical regulatory schedule and at a lower 
cost than conventional pollution control technologies. However, 
the existing regulatory requirements significantly limit the 
generating industry's compliance flexibility, thereby making 
the use of multi-pollutant approaches less viable.
    Under the current interpretation of best available control 
technology, or BACT, generating utilities could not use our ECO 
technology to help achieve NO<INF>X</INF> or SO<INF>2</INF> 
reductions, even if it were almost as effective as the best 
available technology and simultaneously achieved reduction of 
other pollutants such as mercury. Yet, if our ECO technology 
were deployed throughout the industry, far more emission 
reductions could be achieved than through selective BACT 
deployment. And the associated health and benefits would accrue 
to a much larger percentage of the public. This kind of 
regulatory inflexibility doesn't make economic sense and more 
important, doesn't make environmental sense. Therefore, I 
support the President's National Energy Policy call for multi-
pollutant legislation that will establish a flexible, market-
based program to significantly reduce the emissions of sulfur 
dioxide, nitrogen oxides and mercury from electric power 
generating plants. I believe that Congress should determine the 
appropriate reduction requirements and timeframe to phase in 
reductions and then allow industry to meet them in the most 
cost-effective manner possible. A command-and-control approach 
would only serve to drive up costs and curb innovation.
    In summary, I believe that increasing our energy supply and 
at the same time improving our environment is not only 
possible, but imperative for the future well-being of our 
society. Fortunately, our Nation is blessed with an innovative 
and entrepreneurial spirit that rises to such challenges. I 
believe political leaders must exercise a degree of faith in 
order to establish the environmental laws that look out over a 
decade or more to protect public health when compliance 
uncertainty may still exist. Given time and the right 
regulatory framework, the technology community will find an 
economical way to achieve the desired environmental benefit. 
History has demonstrated this time and again and there are many 
companies like Powerspan full of talented individuals that are 
dedicated to this goal.
    Thank you.
    Senator Smith. Thank you very much and we will come back to 
you with questions when we get through each panel member. I 
might say if there are members of the audience who have a 
question, you might be thinking about them right now.
    Judith Bayer, welcome. I have to tell you this, in talking 
to some of the automobile manufacturers about fuel cells, it's 
just so exciting to think that the wave of the future is in 
this technology. Not only in the mobile, but also in some of 
the stationary forces, so it is really exciting. I'm glad 
you're here. I had the opportunity to ride in a fuel celled 
bus, I saw the automobile out there, but I could fit in a bus a 
little easier----
    [Laughter.]
    Senator Smith [continuing]. It really was amazing. It went 
right up the hill, and on Capitol Hill with no problem, so we 
are really looking forward to this technology being here so we 
can all partake of it. Go ahead.

   STATEMENT OF JUDITH ANN BAYER, DIRECTOR OF ENVIRONMENTAL 
         GOVERNMENT AFFAIRS, UNITED TECHNOLOGIES CORP.

    Ms. Bayer. Thank you Mr. Chairman. I'm Judith Bayer, the 
director of Environmental Government Affairs for United 
Technologies Corporation. I appreciate the opportunity to 
testify today.
    UTC provides a broad range of high technology products and 
support services to the building systems and aerospace 
industries. We spend an average of $1 billion on R&D each year 
and have made a significant investment in bringing clean, 
energy efficient technologies, non-ozone depleting products to 
the global marketplace.
    I want to share some examples of existing innovative 
technologies from UTC's International Fuel Cells and Carrier 
divisions and suggest how we might maximize their benefits.
    Fuel cell technology is a reality today. UTC has been 
producing fuel cells for every U.S. manned space mission since 
1966. Fuel cells very simply combine hydrogen and oxygen to 
create electricity, water and heat. I brought with me today a 
fuel cell. This is a single fuel cell where the hydrogen enters 
on the left, the oxygen enters on the right and in the presence 
of a catalyst, produces electricity, water and heat.
    IFC is developing fuel cells for residential and light 
commercial applications and a model of our residential unit is 
in the back. These units will be commercially available in 
2003. Our zero emission fuel cell power plant for the Hyundai 
Sport Utility Vehicle was unveiled last fall and our prototype 
zero emission fuel cell buses are taking to the road this year.
    IFC's PC25 power plant system has a capacity of 200 
kilowatts and is the only commercially available fuel cell 
power plant in the world today.
    IFC's fuel cell technology has proven our ability to 
produce 1000 kilowatt hours of electricity with only an ounce 
of pollution; achieve 87 percent efficiency; obtain 99.9999 
percent reliability; reduce CO<INF>2</INF> emissions by 60 
percent; accumulate more than 4 million hours of operating 
experience at hospitals, schools, military installations and 
data processing centers, and perhaps most importantly in 
today's climate, operate on a variety of fuel sources thus 
reducing our dependence on imported oil. With all these 
benefits, you would think that every building in New Hampshire 
would have a fuel cell. The problem is the technology hasn't 
reached sufficient volume for the cost to be competitive. We 
have delivered over 220 of these systems around the world, but 
we have done that over a 10-year time period, which means we 
average 20 per year. Imagine how much your car would cost, or 
you computer would cost, if we only produced 20 per year.
    The Federal Government can help speed commercialization of 
fuel cell technology by granting tax credits and financial 
incentives, purchasing fuel cells for Federal facilities, 
removing regulatory barriers, funding a zero emission hydrogen 
fuel cell bus demonstration program and continuing its 
investment in hydrogen research and development.
    There are other technologies available today that also need 
Government assistance to reach their full potential. UTC's 
Carrier division continues to lead the air conditioning, 
heating and refrigeration industry in: phasing out ozone 
depleting substances well ahead of domestic and international 
mandates; increasing energy efficiency; reducing the use of raw 
materials and product weight; introducing air quality 
management features; and developing tools to evaluate a 
holistic building systems approach to indoor comfort cooling. 
Four million tons of CO<INF>2</INF> emissions could be saved, 
and enough power for 743,000 homes if older CFC commercial 
chillers were retired more quickly by simply changing the 
depreciation schedule for these units from the current 
staggering 39 years to a more reasonable 10-15 years.
    Carrier and others have pioneered technology that improves 
energy efficiency for residential air conditioning systems 
without using ozone depleting substances. We support a full 20 
percent increase in the Federal Energy Efficiency Standards for 
residential AC equipment. Incentives should be provided for 
purchasing equipment that delivers 13 SEER, which is the miles-
per-gallon equivalent for air conditioning units with added 
incentives if the equipment also uses non-ozone-depleting 
substances.
    We applaud you, Mr. Chairman, for introducing S. 207 to 
help reduce energy consumption in buildings and believe it 
creates a good opportunity for maximizing both energy 
efficiency and non-ozone depleting benefits.
    Carrier also has the ability to reduce residential peak 
load demand by 30 percent with its revolutionary, web-enabled 
smart thermostat technology. For every 100,000 homes that use 
this equipment, enough power is saved to power an additional 
100,000 homes. Federal rebates and consumer incentives would 
make this technology more readily available and more quickly 
deployed. Proper installation of residential AC systems could 
reduce energy consumption by as much as 35 percent.
    AC manufacturers and contractors have formed a national 
technician training and certification program called NATE--
North American Technician Excellence program. The Government 
could help raise public awareness of this program and encourage 
Federal facilities to purchase services only from NATE 
technicians.
    Carrier and International Fuel Cells have received awards 
from EPA recognizing their respective achievements in ozone and 
climate protection. Their products offer numerous environmental 
and other benefits that can only be fully maximized with 
appropriate Government policies, incentives and partnerships.
    We look forward to working with you Mr. Chairman and other 
interested stakeholders to make this possible.
    Thank you.
    Senator Smith. Thank you very much, Ms. Bayer.
    Our next witness is George Taylor. We had to scout around a 
little bit to find George, but my staff did a good job, because 
I have been talking to my staff for a long time about all that 
ocean out there and why can't we harness that, we are a 
peninsula Nation with a lot of ocean out there on both of our 
coastlines and if we could harness that energy, my goodness, 
what might happen.
    And lo and behold, we found somebody who is working on it. 
It is in the future, we know that, but maybe not too far. You 
will never get to the future if you don't start thinking about 
it today, so I am particularly excited about having you here, 
Dr. Taylor, please proceed.

  STATEMENT OF GEORGE TAYLOR, CEO AND PRESIDENT, OCEAN POWER 
                          TECHNOLOGIES

    Dr. Taylor. Thank you very much Mr. Chairman.
    My name is George Taylor and I am the president and CEO of 
Ocean Power Technologies--OPT. I am here today at the 
chairman's request to describe our company's new generation 
technology that utilizes the renewable energy in ocean waves to 
produce low-cost, pollution free electricity.
    OPT is a small, private company located near Princeton, NJ. 
Even though we only have 14 employees, we have been able to 
obtain significant commercial orders both nationally and 
internationally. We expect to do about $5 million in sales in 
the next 12 months and then to rapidly grow into a major 
company building on key strategic relationships which the 
company has forged over the last couple of years.
    The basic configuration of an OPT wave power station is 
shown in the drawing behind me. It consists of an array of OPT 
power buoys arranged in a rectangular format several miles 
offshore. As the ocean waves move through the field of power 
buoys, the mechanical energy in the waves is converted into 
electricity in each of the power buoys. The output from each 
power buoy is then fed in parallel into an underwater cable 
which brings the power ashore for connection into the power 
grid.
    Wave energy is the most concentrated form of renewable 
energy. It is widespread throughout the United States and other 
parts of the world and it is close to population centers. It is 
very predictable and dependable and can be fed into the power 
grid or stored. It is environmentally sound and non-polluting, 
with no exhaust gases, no noise and no visibility from the 
shore. It is scalable to high capacity power stations of 100 
megawatts or more. In fact, 100 square miles of ocean area off 
the coast of California, which is a very small fraction of the 
coastline, is estimated to be capable of producing all of 
California's electrical power.
    Furthermore, wave energy has an availability factor of 90 
percent compared to wind and solar availability factors of 20-
30 percent. OPT's wave energy generation system is based on the 
rising and falling of the waves which cause the buoy-like 
structure to move freely up and down. The resulting mechanical 
stroking is used to drive the electrical generator, the power 
from which is then transmitted ashore. The OPT device is a 
proprietary, smart system that uses an on-board computer and 
sensors to effectively convert the random wave energy into 
electrical power. In addition, the OPT system includes 
sophisticated techniques for automatically disconnecting the 
system in storm waves and then automatically reconnecting it 
when the waves return to normal operating conditions.
    The OPT power generation system has numerous environmental 
advantages. There is no fuel, there is complete absence of 
CO<INF>2</INF> emissions, radiation and particulate matter 
pollution. There is no noise pollution, nor is there any visual 
pollution. A field of semi-submerged buoys is typically 1-2 
miles offshore in 100 feet of water. Finally, there is no 
negative effect on marine life. In fact, our tests off the 
coast of New Jersey have shown that the buoy acts as an 
artificial reef and encourages the growth of marine life. 
Furthermore, a field of buoys actually reduces, by taking 
energy out of waves, the shoreline erosion.
    Most importantly, what are the costs? The total operating 
costs of generating power from an OPT wave power station is 
projected to cost between 3 and 4 cents per kilowatt hour for 
100 megawatt size power systems and 7-10 cents per kilowatt 
hour for 1 megawatt size plants. Detail comparison costs with 
other renewable and fossil fuel-based power systems are 
provided in the written testimony that we have submitted to the 
committee.
    We have tested the complete wave power system off the coast 
of New Jersey for 11 months, and based on this, we have 
received the first commercial contracts and these include a 1 
megawatt power station for a U.S. Navy base in Hawaii; a grid 
connected power station of up to 10 megawatts for a utility in 
Australia and a demonstration system for the State of New 
Jersey.
    The main product applications of the OPT power stations 
include primary power of 100 megawatts or more for grid power 
and distributed power generation, many secondary power 
applications and, of course, power for desalinization and 
production of hydrogen from sea water.
    OPT has received significant support and encouragement from 
the U.S. Government, in particular from the Office of Naval 
Research of the U.S. Navy under the Small Business Innovative 
Research Program and from the Defense Advanced Research Project 
Agency. Also, we appreciate the support of the congressional 
delegations of New Jersey and Hawaii.
    In conclusion, the OPT wave power system would appear to be 
one of the few, and maybe the only renewable power system that 
has the potential of producing low-cost--below 4 cents per 
kilowatt hour--a large scale 100 megawatt or more power station 
that cause no danger to the environment. OPT hopes that the 
U.S. budget for alternative energy will be increased and will 
include some funding for wave power.
    Finally, I would like to thank you Mr. Chairman, for your 
interest in this matter.
    Senator Smith. Thank you very much, Dr. Taylor.
    Richard Eidlin, I had the opportunity to visit your shop--
Wilmore? Wilkin--and you were very impressive and I wanted to 
have you here today to speak to the future of possibilities of 
solar. Welcome.

   STATEMENT OF RICHARD EIDLIN, VICE PRESIDENT FOR BUSINESS 
                    DEVELOPMENT, SOLAR WORKS

    Mr. Eidlin. Thank you very much Mr. Chairman. You will have 
to bear with my cold today. I went camping over the weekend and 
got rained on.
    Senator Smith. Well, pull that microphone right up close so 
it will make it a lot easier for you.
    Mr. Eidlin. My name is Richard Eidlin. I am the vice 
president for Business Development for Solar Works. Solar Works 
is a distributed generation company based in Montpelier that 
provides solar and other renewable energy systems to 
residential, commercial and institutional customers throughout 
the Northeastern part of the United States.
    I appreciate the opportunity to present some remarks this 
afternoon about the important role that solar electric 
photovoltaic technologies can play in addressing the Nation's 
energy needs.
    First, let me just mention a few things about Solar Works 
and the work we are involved in. The company was founded in 
1980. We are a privately-held firm that employs 17 individuals 
and we offer a wide range of standardized grid-intertied solar 
electric, domestic hot water, wind turbine and energy 
efficiency systems. We are also moving into the fuel cell 
industry as that market begins to mature. Within the solar 
industry, our company acts as a renewable energy systems 
integrator, in that we provide a complete set of technical 
hardware and programmatic strategies to clients including 
utilities, State energy offices, cooperatives and others. Solar 
Works acts as a catalyst that brings together manufacturers, 
energy service providers, policymakers and consumers to bring 
the technology to practical use. We maintain, as I indicated, 
our sales and service offices in eight Northeastern States from 
Maine to Maryland.
    Over the 21 years that our company has been in the 
renewable energy business, we have experienced several major 
shifts in public policy, technology development and market 
acceptance concerning solar electric technologies and today, 
unlike a decade ago, or even maybe 5 years ago, there is a 
vibrant market for solar technology in the United States. As we 
are fond of saying, ``there has never been a better time to 
create your own electricity.''
    A host of factors account for this. First off, solar 
electric and solar hot water technology is demonstrably more 
reliable and resilient than it was years ago. Concerns dating 
back to the 1970s about technological performance have 
absolutely no bearing on current discussions regarding the role 
of solar technologies. Solar electric systems have become 
standardized, they are UL-listed, they use National Electric 
Code compliant equipment and they require virtually no 
maintenance. Questions about solar domestic hot water systems 
have also been resolved in favor of fail-safe, cost-effective 
equipment. Paybacks have dropped dramatically, hot water 
systems are now in the 7- to 8-year range and solar electric 
systems are now in the 25 year range.
    The second observation concerns the market for renewable 
energy. Survey after survey indicates that the American public 
is highly supportive of clean, domestically generated energy 
technologies. The past 5 years have witnessed a significant 
shift in the market. Once largely the domain of off-grid 
applications, such as water pumping, telecommunication, 
vacation cabins and rural electrification projects, solar 
electric technologies are now becoming widely accepted and used 
for grid-tied homes, businesses and schools across the country.
    Homeowners and businesses are choosing solar energy systems 
for a number of key reasons. These include power quality and 
reliability; demand for clean, non-polluting energy; growing 
interest in generating electric power from centralized sources; 
escalating conventional energy costs; and power shortages 
including brown-outs and black-outs that were seen in 
California and may, unfortunately, see here in the Northeast in 
the summer.
    PV is the ideal distributed generation technology. It is 
well suited for any energy application. PV systems are highly 
mobile and flexible in nature. Technological advances and 
performance in design increasingly create a cost competitive 
energy source. Customers such as the U.S. Postal Service 
understand these inherent advantages that they have over backup 
fossil fuel generators. While a fossil fuel generator mainly 
sits idle and depreciates, a solar energy system, accompanied 
by battery, lowers monthly utility bills and can provide 24-
hour automatic, uninterruptible power supply. PVs can be easily 
sited, require comparatively little permitting and produce 99.9 
percent reliable power. PVs also provide an excellent hedge 
against almost certain energy inflation.
    With today's increased reliance on computers, 
telecommunication systems and other high performance electronic 
devices, any loss of power, or even power quality, can be very 
costly. We are finding that a great number of businesses and 
homeowners are concerned and choosing to install solar systems.
    PVs are also an excellent means of shedding load demand and 
avoiding summertime peak power cost, which last summer in some 
parts of the country soared to $600 a megawatt. PVs, because 
they are highly dispatchable, offer utilities and business the 
option of reducing congestion on the grid and moderating the 
demand for additional power plants and generating capacity. For 
homeowners, PVs--or photovoltaics--provide an assurance that 
the power will stay on in the event of a blackout due to a 
natural disaster or power scarcity.
    Recent studies of the large scale power failures during the 
winter of 1998 and 1999 in both the Northeast and Northwest 
strongly suggest that scaled PV installations placed along the 
grid could have prevented the blackouts from cascading from 
State to State. It is regretful that the Federal Government, 
during both the 1990s and today, has committed 
disproportionately limited resources to supporting the 
photovoltaics industry. In contrast, most of the action and 
progress has been made at the State level. Today, over 40 
States have enacted one or more requirements to actively 
encourage the broader use of renewable energy technologies. Net 
metering, State income tax credits, renewable portfolio 
standards, system benefit charges are only some of the ways 
that renewables are being encouraged at the State level by 
public utility commissions and legislatures. In six States 
alone--California, Illinois, Massachusetts, New Jersey, New 
York and Pennsylvania--almost $400 million a year is being 
collected from taxpayers through rate-payers, through electric 
restructuring to support renewable energy deployment. These 
funds will leverage about five times their value in retail 
market activity.
    The upshot of all this is that the domestic solar energy 
market will grow ten-fold in the next 5 years from 80 megawatts 
to almost 900 megawatts of installed capacity. According to the 
Energy Information Agency, photovoltaics will be the fastest 
growing generation technology in the United States over the 
next 20 years. Solar energy may still be a niche market 
compared to fossil fuel generated power, but it will be a 
multi-billion-dollar-a-year opportunity for those companies 
involved.
    There is a historic market opportunity emerging in the 
United States for renewable energy technologies. Demand for 
zero emission generation technology to combat global warming 
and air pollution is another important market driver. The 
current California power crisis is a good example of the 
inability, and in some cases, unwillingness, of utilities to 
build new central stations and transmission facilities. The 
answer to this lies in distributed generation systems that can 
be tucked neatly into homes, neighborhoods and businesses.
    Given these trends, it is of concern that the 
Administration's energy plan devotes limited attention toward 
the role of solar technologies. The substantial reductions in 
the Department of Energy's administrative and R&D budget for 
renewables is an unfortunate approach to balancing the budget. 
In addition, these policies are placing the domestic solar 
energy industry at a competitive disadvantage to their European 
and Japanese counterparts. Relative to investments that other 
advanced industrialized nations have made in supporting 
photovoltaics over the past decade, the U.S. Federal Government 
has directed modest resources.
    Let me return to the immediate issue of the 
Administration's proposed energy plan. Solar Works supports the 
proposed $2,000 income tax credit for residential systems. We 
also support pending legislation that would establish a 
national standard regarding the process by which solar electric 
systems are interconnected to the utility grid and we are also 
in favor of a renewable energy portfolio standard.
    We look forward to working with the Senate Committee on the 
Environment and Public Works in crafting policies that help to 
accelerate the commercialization of solar electric technologies 
and we appreciate very much the Senator's support in these 
activities.
    I just wanted to very quickly give you a sense--this is a 
solar electric panel. You may be aware of these, but basically, 
the sunlight hits this module, the sunlight is converted into 
electricity, boron and phosphorus are doped with a silicon, if 
you might remember from your chemistry classes many years ago, 
and that produces a photochemical reaction. This is a 21 watt 
module and the modules we work with range in size up to 300 
watts, which are more the size of 4x4s. This is one of the 
smaller panels available.
    Thank you.
    Senator Smith. Thank you very much, Mr. Eidlin.
    I am going to ask a question or two of the panel and then 
we will bring the next panel up and then we will open it up to 
the audience for both panels at the same time.
    Mr. Alix, the technology that you are talking about is 
fascinating when you put it into perspective in the sense that 
if you could reduce 2.5 billion pounds of carbon say 
nationally, that is the equivalent of planting 348,000 acres of 
trees in terms of the impact on the carbon release in the 
environment. So, I guess the question I would have is: What 
does this technology mean for coal-based generation? Does it 
tell us that the 250 years or so of coal that we still have, 
does it tell us that we can burn that coal with some 
anticipation of it being clean, or is that too far in the 
future to predict?
    Mr. Alix. I think its important to differentiate what we 
know from our technology and what we don't. There are 
pollutants that are immediate public health concerns from coal-
fired plants. Sulfur and nitrogen which lead to acid rain and 
ozone formation and metals such as mercury that get in the food 
chain and are also serious public health concerns, and finally, 
fine particles. Those are the four pollutants that we can 
remove at high percentage levels for a very reasonable cost and 
in a compact retrofit.
    I think the immediate public health concern around the 
vicinity of a plant could be drastically reduced. The one area 
that we don't address is quite clear, carbon and global 
warming, and I think that is a concern which needs to be 
addressed. Congress and this Administration will eventually 
grapple with that.
    That question of how long you can burn coal and/or gassify 
and remove the carbon is something that we need to answer down 
the road. Our technology addresses what are conventionally 
called ``criteria pollutants'' and then mercury and what are 
the immediate public health risks associated with living in the 
vicinity of plants or even down-wind from Midwestern plants.
    Senator Smith. You talk about command and control. One of 
the interesting things about technology is that it reduces 
mercury, at least in a preliminary result of about 80 percent, 
and we don't regulate mercury today. So, if that were to be the 
case, if your research turns out to be accurate, that has a 
tremendous impact on moving away from command control and more 
focusing on the technology to get it on to these plants.
    Mr. Alix. I think the day you can put on a small retrofit 
like ours and address really these four major pollutants, it 
changes the whole debate. There is no question that the cost 
would be significantly reduced and the retrofit problems go 
away as well.
    Senator Smith. At the national level, I have been working 
privately with many members of the industry and the environment 
over the last year-and-a-half, because I have been chairman, to 
work on a cap and trade bill where some plants could get some 
credits for retrofitting with this kind of technology which 
would--the positive spin-off would be reductions, 
NO<INF>X</INF>, SO<INF>X</INF>, mercury and carbon as well. So, 
it is very exciting technology and we are looking forward to 
it. When do you expect to get the results finally on your pilot 
project?
    Mr. Alix. Well, the pilot results are in. It's really the 
commercial unit that we are building out in Cleveland in about 
the spring of next year--about a year from now, we should have 
some great results.
    Senator Smith. All right. Don't be afraid to bring that 
over here and try that here in New Hampshire.
    Mr. Alix. We won't.
    Senator Smith. Ms. Bayer, obviously the thing that jumps 
out at you in your testimony is the fuel cell cost. You 
mentioned $4,500 per kilowatt obviously would be--I think--
what's the average, $1,500?
    Ms. Bayer. Right.
    Senator Smith. What is the future for getting those costs 
down?
    Ms. Bayer. Well, we have seen a dramatic improvement 
already in reduction of fuel cell costs. The space fuel cells 
that I mentioned in my oral testimony cost $600,000 per 
kilowatt, so over the past decade, we have gone from $600,000 
to $4,500. The goal is really to get these fuel cell units to a 
cost where they are competitive in the automotive applications. 
The target there is $50 per kilowatt by the year 2010 to make 
the fuel cell technology competitive with conventional 
technology. And, to get the technology into homes, cars, trucks 
and buses so that it becomes a real technology changer for our 
lifestyle and for our energy needs here in the United States.
    Senator Smith. So it is more of a mass production issue 
than a technological issue?
    Ms. Bayer. It is a series of issues. The reduction in costs 
that we have seen have been improvements in the technology, 
improvements in manufacturing processes as well as the 
potential for increased volume. When a supplier sees the 
potential for selling to the auto makers their technology with 
volumes in the millions, then they start to invest in plants, 
then they start to invest in the R&D and then they see a real 
potential payoff for those investments. That's what really will 
help drive the cost down and that is where we think in this 
transition period, the role of the Federal Government to offer 
those tax incentives and to offer grants will help accelerate 
that process.
    Senator Smith. Thank you.
    Dr. Taylor, when you look at your picture of the buoys, the 
first reaction when you look at it is, the energy concept 
sounds great, but you know, what about all the whales and the 
fish and the fishing boats and the nets and whatever else might 
be out there getting all tangled up in this and the eyesore? 
So, how big a footprint are we talking about here?
    Dr. Taylor. Well, a 100 megawatt power station would occupy 
about 1 square mile of surface area.
    Senator Smith. A couple of miles out?
    Dr. Taylor. A couple of miles out. Given the size of the 
ocean, the systems are not visible from the shore. They are 
slightly submerged, about 1 meter below the surface. We have 
gone through the permitting process off the coast of New Jersey 
with the Coast Guard and in Australia we have done it with the 
Maritime Authority over there. The first thing is to define 
where you are going to put it so that it is not in a shipping 
channel. Once you have achieved that particular goal, which is 
easy to achieve, because the shipping channels only take up a 
very small fraction of the ocean, then you put the appropriate 
navigation aids on the buoys which are a mast with lights and a 
radar reflector. The anchoring is very straightforward. It is a 
column that just goes straight down to the seabed. Fish and 
whales do not get confused by that type of thing. The basic 
technology that we are using to encapsulate our system is a 
buoy. Buoys have been in the water for 100 years or more, and 
if they are properly maintained, there is no problem. If a boat 
was to go astray and go into a field of buoys, the normal thing 
that happens is scraping of paint, the buoy pushes away from 
the boat and visa versa. There is very little chance that there 
would be any damage and, in fact, we have been able to get 
commercial insurance on our systems at very reasonable rates 
for both liability and damage to the system.
    Senator Smith. Without commenting on the aesthetics of it 
for a moment, what about the concept--it just seems to me a 
smaller footprint would be something like a wheel that you see 
in a hydroelectric plant along a river somewhere. Why would 
that not work? Why would that technology not work as opposed to 
all those buoys?
    Dr. Taylor. A large water wheel?
    Senator Smith. For example.
    Dr. Taylor. Well, the economics make more sense with our 
system. We have looked at other types of ways of harnessing 
water flow and wave energy, but the simple motion of the buoy 
which bobs up and down is the best. It doesn't fight the wave, 
it moves with the wave, therefore, you don't have to build 
enormous structures which are very expensive to withstand big 
storms. The system we have had in the water off the coast of 
New Jersey, experienced 12 meter waves--there was a summer 
hurricane that went through that area and the system survived 
quite well.
    Senator Smith. And you get more energy with the several 
smaller buoys than you would get from 2 or 3 larger buoys?
    Dr. Taylor. Well, that is a good question. Our current buoy 
size is designed to produce 20 kilowatts of power from each 
buoy. We are working on a 100 kilowatt size buoy which is 
physically larger and we ultimately expect to build a megawatt 
size buoy. But, the modular approach has advantages, because 
having a lot of buoys means that you can, from a maintenance 
viewpoint, take one buoy out of the water and refurbish it with 
very small decrease in the total amount of power coming out of 
the power station. Also, when you build an OPT power station, 
immediately you start putting the buoys in the water, you begin 
generating power and hence generating revenue. So, its not the 
normal period of waiting 3 or 4 years to build a power station. 
Thus, there are advantages by having a modular system. The 
ultimate size of each module we think is probably going to be a 
megawatt.
    Senator Smith. Thank you.
    Mr. Eidlin, for you I remember when I was out at your 
place, you seemed to have felt neglected somewhat by the 
Federal Government in terms of any help from them for you as 
plenty of research and development of energy, but not in solar.
    What specifically would you like to see from the Federal 
Government level to help you with producing more solar power in 
this country? Not you specifically, but generically in the 
country.
    Mr. Eidlin. I think, speaking on behalf of the industry, 
Senator, a few things come to mind.
    One, the national renewable energy labs. The particular lab 
in Golden, Colorado, and the other labs concerned with 
renewable energy technologies have been--the allocations for 
those labs have been cut in the proposed budget. That does not 
help the rapid commercialization of the technology, because 
much of the work that is undertaken in those labs then finds 
its way into commercial applications in the private sector.
    Second, the Administration's proposed budget cuts, by 
significant portion, if not zeros out, the international 
funding for renewable energy work for domestic companies to do 
work in India and South Africa. There is a very, very 
significant market overseas and we are losing market share, 
particularly to the Japanese companies and Europeans who have 
greater support.
    Third, the enactment of a Federal income tax credit would 
be quite significant. If that takes place, we would like to see 
it expedited so that we don't lose the short-term benefits of 
people waiting 2 years until such a tax credit is enacted.
    Senator Smith. If we did implement a cap and trade program, 
would it be acceptable to your industry if some forbearance 
were to be granted to say a coal utility--let's say we step 
back from this source review and return for that investing, 
instead of putting the money into resource review of fines or 
upgrading an older plant that we might like to take offline a 
few years--if those dollars could be invested into your 
industry, would that be something that you would tolerate as an 
industry?
    Mr. Eidlin. Yes, we would be very excited about that 
prospect and I know you are a champion of that as we discussed.
    Senator Smith. We are exploring it. We are looking at it as 
an option, yes.
    Mr. Eidlin. Combining solar electric systems with other 
technologies onsite at distribution facilities makes a great 
deal of sense. Essentially, as we have discussed, from our 
perspective this creates jobs as economic benefit and as 
environmental benefit. And, we think its a very strategic way 
to build the industry and also produce these parallel benefits 
that may be in contrast to planting trees in Costa Rica which 
is also important, but in order to further the industry, some 
larger scale projects, such as the ones you have been 
describing would make sense.
    Senator Smith. Well, let me see. Thank you to each and 
every one of you. I know in a couple of cases, you had to 
travel quite a way and I appreciate it. I am going to call the 
next panel up and I might just say to this panel, if you can 
stay, we would appreciate it and in case the audience has some 
questions, we will just have everybody come up in the end. If 
you can't and have to leave, that's OK too.
    Let me bring the next panel up.
    Dr. Tom Kelly, the director of the Office of Sustainability 
Programs at UNH; David Goldstein, the energy program director 
for the Natural Resources Defense Council; and Cass Andary, 
director of Mobile Source Affairs for the Alliance of 
Automobile Manufacturers.
    Same rules, approximately 5 minutes and your complete 
statements will be placed in the record and summarize them if 
you can.

   STATEMENT OF DAVID GOLDSTEIN, ENERGY PROGRAM CO-DIRECTOR, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Goldstein. Thank you very much Mr. Chairman. My name is 
David Goldstein. I am energy program co-director for the 
Natural Resources Defense Council. We are a national 
environmental organization with over 400,000 members.
    I want to begin by thanking you Mr. Chairman for convening 
this hearing on new technology and particularly energy 
efficiency. I would like to personally commend you on your 
leadership on S. 207 which, I believe will provide desperately 
the needed relief to our over-stressed electricity and gas 
grids in a timely manner and can be a big part of an energy 
solution to this country.
    Energy efficiency is a critical piece of national energy 
strategy, because it impacts people in the ways that they care 
about most.
    First, their energy bills; and second, protecting 
environmental quality. Energy efficiency directly improves the 
situation with respect to those key issues. NRDC believes, and 
we hope, Mr. Chairman, that you agree, that the primary purpose 
of the national energy policy should be to minimize the cost of 
providing energy services to a growing economy. That is cost to 
the pocketbook as well as cost to the environment.
    If that's the goal, energy efficiency means providing the 
same energy services for a lot less energy consumption and 
cost--which is going to mean reliance on technology, and 
particularly reliance on new technology. The opportunities are 
almost limitless.
    Since 1973, the American economy has reduced the amount of 
energy it takes to produce a dollar's worth of goods and 
services by 42 percent and that's without a comprehensive 
policy trying to do it. If we tried hard, we could go a lot 
farther than that even. But even with the results that we have, 
that makes energy efficiency the largest single source of new 
energy supplied for the Nation since 1973. Energy efficiency 
has been achieved primarily by three policies implemented at 
the State, regional and national level. Those have been: 
efficiency standards, which work best when they are 
performance-based rather than command and control; targeted 
incentives; and education and outreach. But these policies 
alone, even if they were pursued consistently, would not be 
enough. New innovative ideas are hard for consumers to find in 
the marketplace, almost by definition, and they cannot easily 
achieve market success by the kinds of programs that we have 
used in the past. That is why the incentives in your bill, Mr. 
Chairman, S. 207 are so critical.
    S. 207 addresses energy use in buildings. Buildings are an 
often overlooked large source of energy cost and energy demand. 
They account for about one-third of energy use and one-third of 
pollution and about one-half of energy costs, which is 
substantially more than automobiles. Energy use in buildings 
can be cut by half or more using technologies that are 
available today, at least to consumers who want to look for 
them.
    How can we get them into the market in a serious way so 
consumers don't have to look, but they are the standard 
product?
    We believe that S. 207 does this by providing national, 
uniform performance targets for building and equipment that 
will be in effect for a full 6 years. This is what 
manufacturers have asked for, and this is what has worked when 
utilities and Government have collaborated across the Nation to 
bring new technology into the marketplace. This bill builds on 
successful experience in utility and Government programs for 
refrigerators, clothes washers, fluorescent lighting systems 
and in energy efficiency codes for new buildings.
    Let me end with a couple of particular issues where S. 207 
is virtually the only game in town that can make a difference 
with critical energy problems. Those are the problems of 
electric reliability and high heating prices for natural gas 
and oil.
    New Hampshire, as well, not just the West, is facing the 
risk of blackouts and/or high electricity prices this summer. 
There are a number of ways that you can try to alleviate the 
problem on the demand side as well as the supply side, but most 
of those have lead times such that they are not going to help 
this summer and they are not going to help next summer.
    The things that can have an effect quickly are incentives 
for products that already exist, but are not mass-produced; 
because there, the lead time is just a factory taking something 
they know how to build and gearing up production. That is a 
matter of months, and not years.
    Targeted incentives for air conditioners, where, as the 
gentleman said, you can save 30 percent of peak power with 
products now available and the product turns over every 18 
years, that's one of the key areas, because air conditioning is 
30 percent of peak load typically.
    Efficient lighting systems, these are replaced every 10 
years or so when buildings are remodeled. The lead time for 
design and replacement is a matter of months and not years.
    Gas water heaters can be made much more energy efficient 
with, again, products that currently exist. All we need to do 
is make them mass produced rather than individually produced 
which has been the response to incentive programs in the past.
    So, in summary, quick acting incentives such as those in S. 
207 can help consumers both by giving them opportunities to 
reduce their own energy bills that aren't practically available 
right now and by changing the balance between supply and demand 
can reduce prices for everybody else.
    So, we believe your bill fills a critical gap in energy 
policy for uses affecting one-third of the Nation's energy.
    Thank you Mr. Chairman.
    Senator Smith. Thank you very much for your kind remarks.
    I will ask a couple of tough questions about my own bill in 
a minute. Things that I have heard.
    [Laughter].
    Senator Smith. Dr. Kelly.

  STATEMENT OF TOM KELLY, DIRECTOR, OFFICE OF SUSTAINABILITY, 
            UNIVERSITY OF NEW HAMPSHIRE, DURHAM, NH

    Dr. Kelly. That's fine, thank you.
    Good afternoon Senator and I greatly appreciate the 
opportunity to testify today. I do want to say a word of thanks 
to the members of my office and staff who have worked so hard 
with your staff as well too, to put the meeting together today.
    You may recall I last spoke to you last fall in a meeting 
in New Hampshire with the focus on biotechnology and 
agriculture. I want to say that today as then, I speak to you 
not as an expert on any particular technology, but as an 
educator charged with integrating sustainability, the 
principles and practices of sustainability into all aspects of 
the University and I think education is a critical piece of 
this discussion and I am very honored to be part of it.
    I would like to being with a scenario if I could. The year 
is 2030, world population stands at 12 million with wide gaps 
between rich and poor countries and populations within 
countries.
    Senator Smith. Billion?
    Mr. Kelly. Billion--sorry did I say million? I meant 
billion.
    Senator Smith. I wish it were million.
    Mr. Kelly. The 20th assessment of the Intergovernmental 
Panel on Climate Change, an international scientific effort 
involving thousands of scientists from around the world, has 
established 93 percent certainty that human activities are 
driving rapid climate change. The U.S. Senate, which has not 
yet instituted any significant campaign finance reform, has 
called for more studies saying it needed 100 percent certainty 
before taking any action.
    Senator Smith. We are real good at calling studies, I 
think.
    Mr. Kelly. U.S. national security is under constant threat 
due to its ongoing role in militarization of the Middle East 
linked to oil dependency as well as failure to support genuine 
human rights of all people in the region and the United States 
continues to import close to up to 60 percent of its energy 
fuels.
    A national asthma epidemic linked to ozone pollution and 
other air quality problems has deepened as has public health 
risks from the vector-borne infectious disease such as West 
Nile Virus that are linked to ecological disruption resulting 
from sprawl and pronounced climate variability.
    In 2030, the U.S. Senate Environment and Public Works 
Committee is holding a hearing on Innovative Environmental 
Technology----
    Senator Smith. And Bob Smith is the chairman----
    [Laughter.]
    Mr. Kelly. The committee is chaired by New Hampshire's new 
Senator Sununu.
    [Laughter.]
    Senator Smith. OK, if it's 2030, that's OK.
    Mr. Kelly [continuing]. Grandson of former Governor John 
Sununu and I should say parenthetically, the first generation 
of the Sununu family ever to be elected to the U.S. Senate.
    [Laughter.]
    Mr. Kelly. The hearing is being held at the University of 
New Hampshire, which has now been privatized though it has 
retained the name for branding purposes. UNH classes run until 
5 p.m., while in the evenings the campus is used as a gambling 
casino----
    [Laughter.]
    Mr. Kelly [continuing]. To finance energy costs and K-12 
education. The purpose of the hearing is to look at energy 
technologies that promise to sell the country's energy 
dependency and related environmental and economic challenges. 
The featured technologies include solar, wind and wave.
    An undergraduate student, majoring in American History is 
attending the hearing and asks the committee chairperson, ``How 
is it possible that we are still talking about the promise of 
these technologies rather than their accomplishments? We had 
these same discussions in the 1970s and again in the first 
decade of this century and we are still subsidizing fossil fuel 
and nuclear power.''
    Senator, the premise of my argument today is that the key 
link between technological potential and sustainability is 
education and governments or legislation. If we as educators, 
and you as legislators do your job, then we can indeed be 
looking back from the year 2030 on a shift to a solar or zero 
emission economy defined by a genuine entrepreneurial spirit 
emerging from a culture of democratic decisionmaking that all 
took place in the first decade of the 21st century.
    From a perspective as an educator of environmental 
technology, we must shift the focus of our deliberations from 
consumer choice, efficiency, business and the economy to 
citizen participation, justice, governments and the polity. The 
economy is a subset of the polity, not the other way around.
    It is important to remember that the most powerful 
effective force for sustaining the environmental foundation of 
human health and well-being in the epic of the oil shocks was 
not business technology or the economy. The national 
environmental policy acts, clean air act, clean water acts 
among many others, resulted from engaged citizenship, not 
consumer choice. And this engaged citizenship was concern at 
the knowledge of science and its moral application. Twenty-five 
years later, we have the luxury of questioning the continued 
effectiveness of such legislation, but only because it was 
successful.
    I want to offer some concrete examples of how education and 
legislation can work together to ensure that schools and 
university campuses are brimming with alternatives to reckless 
consumption levels of nonrenewable energy. Such a learning 
environment will advance the goal of balancing economic 
viability with ecological health and human well-being for 
current and future generations through innovative educational 
initiatives related to energy and technology.
    A few quick points on education. One of the fundamental 
jobs of education is to develop a historical consciousness or 
sense of history in all learners. The civic importance of this 
aspect of education's job is etched in stone on the face of the 
National Archives: ``What is Past is Prologue.'' There are at 
least two ways to interpret this phrase. One is practical 
advice that individuals and institutions will act in the future 
as they have in the past. As an educator, I also view it as the 
kind of warning and expression of hope given to us by the 
philosopher George Santayana who said ``those who ignore the 
past are condemned to repeat it.'' Santayana's guidance is full 
of possibilities because it proceeds from the premise that 
human beings have the ability to learn, which means the ability 
to distinguish good from evil and right from wrong in pursuit 
of the common good and to act on those judgments.
    The fruit of the efforts of 1970s in renewable energy are 
well documented and it is important to review carefully that 
history unless we want to be here in 2030 asking the same 
questions.
    A sense of history for sustainability includes people and 
places. We had an event right here on our campus and in this 
town of Durham some 25 years ago, known as the ``Battle of 
Durham.'' Because of engaged citizens, again, not satisfied 
consumers, we today enjoy the Great Bay Estuary, one of the 
most unique estuarine habitats in the world that provides 
invaluable ecological services and a serene beauty that defines 
our sense of place. Were it not for the efforts of those 
citizens, we might have had one of the world's largest oil 
refineries rather than a preserve, protected with the help of 
Federal legislation.
    But, notwithstanding that victory and the wonderful legacy 
of the Great Bay Estuary, there is a great deal of work left to 
do. If UNH in Durham and New Hampshire and other communities 
fill the temptable appetite for nonrenewable energy, then the 
body of Durham will have turned out to be a form of ``not in my 
back yard.''
    The University of New Hampshire established our office in 
1997 to work with all parts of the university, which we are 
doing to help ensure that graduates in all fields have the 
knowledge and skills to advance sustainability in their 
professional and civic lives. Project areas include initiatives 
in climate education; biodiversity education; food and society 
and culture and sustainability.
    Climate Education Initiative, which relates most directly 
to today's hearing, includes projects addressing global change, 
transportation, energy, sustainable building design and 
construction. I won't go into the details of those because I 
know that I am running a little bit over.
    I do want to point out one activity which I have appended 
to my written submission and that is, we have just completed, a 
week ago, as part of a partnership of a Portsmouth-based, non-
profit Clean Air Cool Planet, the University of New Hampshire 
Durham campus greenhouse gas emission inventory, it's the first 
of its kind in the Nation and it will be shared with 
universities and communities around New Hampshire and the 
region. It will also serve as the basis for policy to develop 
emissions reductions.
    I began the testimony with the assumption that the key link 
between technology potential and sustainability is education 
and government. Based on our work here, I would like to offer 
some specific examples of initiatives on this campus that could 
be supported through legislation that would make a significant 
contribution to our educational mission. These examples 
integrate innovative environmental technology into a learning 
environment where direct experience can be gained by students, 
faculty and all members of the university community. I will 
just quickly go through a couple of examples.
    One, UNH is looking at the possibility of a co-generation 
plan and it would be an ideal opportunity to put in a 1 
megawatt fuel cell along gas turbines so that students from 
engineering economics, as well as undergraduate policy 
students, could compare and contrast and research the benefits 
of that technology.
    A community alternative energy assessment is another 
project that we would like to see move forward that will 
identify high impact opportunities for employing a wide range 
of technologies to enhance energy efficiency. Examples include: 
co-generation, methane digesters, ice storage, fuel cells and 
geothermal among others. Special consideration will be given to 
passive and active solar applications to address the structural 
disincentives that continue to retard the development of this 
crucial energy source for sustainability.
    We have figured a way of transportation, looking at 
alternative fuel vehicles, buses, a fleet upgrade of our 
university fleet and alternative fuel vehicle cars for a car 
sharing program.
    Related to agriculture, we also are looking at methane 
digester as a way to manage the nutrient loads that can also be 
used for study by engineering and other students.
    One other idea that we have talked about is how we can 
provide more support to a school building program and integrate 
sustainable building design and construction standards and 
knowledge into schools--and some point in which we could do 
that through a filter or some other kind of mechanism would be 
quite important.
    In conclusion, I would like to emphasize that technological 
potential and particular technologies are only part of the 
solution to the problem we face. Our role as educators is to 
ensure that the full knowledge we have and develop of our 
concrete and complex world is applied to the judgments and 
actions we take in all areas of public life.
    Again, I wold like to express my thanks Senator for the 
opportunity to contribute to this discussion. Thank you.
    Senator Smith. Well thank you very much for your testimony. 
A little suggestion, it might be fun to put the first part of 
that in a time capsule and see how it turns out. Hopefully, you 
are not related to Nostradamus and you will be wrong on some of 
those things.
    Mr. Andary.

 STATEMENT OF CASIMER ANDARY, DIRECTOR, MOBILE SOURCE AFFAIRS, 
              ALLIANCE OF AUTOMOBILE MANUFACTURERS

    Mr. Andary. Good afternoon. My name is Cass Andary. I am 
director of Regulatory Programs at the Alliance of Automobile 
Manufacturers. The Alliance is a trade association of 13 
automobile manufacturers representing over 90 percent of the 
U.S. vehicle sales.
    The auto industry in the United States is proud not only of 
its contributions to advanced technology, but also to its 
contributions to the U.S. economy. In a recent report, 
researchers associated with the University of Michigan 
concluded that the automotive industry produces a higher level 
of output in the United States than any other single industry. 
Notably, U.S. motor vehicle output represented 3.7 percent of 
the U.S. gross domestic product in 1999. Many of the jobs 
provided by the industry are high skilled jobs paying well 
above industry average. The average job in the automotive 
manufacturing sector was compensated at a level 73 percent 
higher than the average U.S. job.
    In New Hampshire, more than 4 percent of the State's 
workforce is employed in either the automobile industry or in a 
job dependent on the auto industry. The automotive industry 
directly employs 4,400 workers and when related jobs and spin-
off is included, a total of 27,300 New Hampshire jobs are 
dependent on the auto industry. The auto industry generates 
$900 million in wages and benefits, including the spin-off 
employment in New Hampshire.
    Member companies of the Alliance have invested billions of 
dollars in research and development. These companies are 
working to bring cutting-edge technologies, alternative fuels, 
advanced lean-burn engines, hybrid electric, battery electric 
and fuel cell vehicles to the marketplace.
    The challenges to bringing the cars of the future to 
consumers are significant. The cost of advanced technology 
vehicles is considerably higher than the same vehicles powered 
by conventional combustion engines and consumers want 
technologies that they understand and that provide the comfort, 
safety and convenience to which they have grown accustomed.
    Let me talk a bit about the new types of vehicles that the 
industry is busy working on today. The industry has long been 
active in exploring alternative fuels. Manufacturers make 
vehicles available that run on compressed natural gas, liquid 
propane gas and others that run on gasoline, a mixture of fuel 
containing 85 percent ethanol or some combination of gasoline 
and ethanol.
    Advanced lean-burn engines, including direct-injection 
gasoline and diesel engines are being developed. These engines 
hold out the promise of providing a dramatic increase in fuel 
economy while emitting very low levels of hydrocarbon, CO and 
CO<INF>2</INF>. While somewhat higher levels of NO<INF>X</INF> 
and particulate matter have historically presented a 
technological challenge for lean-burn engines, advancements in 
engine design and exhaust gas aftertreatment can be expected in 
the near future. It should be noted that to realize the full 
benefit of these technologies, the availability of low sulfur 
fuels is necessary.
    A new technology that has recently appeared on the market 
is the hybrid-electric vehicle. Both Toyota and Honda have a 
vehicle selling today, and Ford, GM and Daimler/Chrysler have 
vehicles read to introduce in the next few years. This 
technology combines both a traditional engine with electric 
motors and a small battery pack giving the vehicle two sources 
of power. Sophisticated computer control logic shuts off the 
engine when possible, letting the vehicle run an electric motor 
and then restarts the engine when needed.
    We have also invested a tremendous amount of time and money 
in battery-powered electric vehicles. Battery-electric vehicles 
are not mainstream vehicles that would replace today's 
gasoline-fueled vehicle, but there may be market niches where 
some of the smaller battery electric vehicles can be sold.
    The entire industry is working feverishly to develop 
commercially viable vehicles powered by fuel cells. Fuel cells 
have been used in the space program since the 1960s. The 
industry is working hard to reduce the cost of the fuel cell 
while improving its performance so there can be an alternative 
to the traditional gasoline fueled engine we have today. 
Hydrogen powered fuel cells offer the promise of a zero 
emission vehicle that can also meet all other customer needs 
and expectations. Many manufacturers are part of the California 
Fuel Cell Partnership, along with key suppliers, the California 
Air Resources Board, Department of Energy and Department of 
Transportation. This partnership is working hard to 
commercialize fuel cell vehicles and the necessary fueling 
infrastructure.
    This industry is committed to continuing to push technology 
even further year by year, constantly improving the product 
while continuing to meet the transportation needs of the 
public. We believe further that pursuing these goals should 
lead to consideration of more broadly defined programs. All 
energy users and producers should be integrated in a 
comprehensive national energy strategy to achieve fuel savings 
with economic efficiency.
    In addition, we believe that the costs of more expensive 
technologies are a hurdle to market acceptance. In order to 
expand the use of these advanced technologies, tax credits and 
incentives for advanced technology vehicles, including vehicles 
which demonstrate significantly higher efficiencies are 
necessary. Such incentives will speed acceptance and promote 
market forces that will make advanced technologies less cost 
prohibitive.
    Finally, we observe that as all industries, both capital 
and human resources are finite, and are most efficiently 
deployed in response to market forces. Commitment schedules for 
capital spending, vehicle model renewals and powertrain 
longevity can range from 5 to 10-plus years. Over the past 10 
years, the industry has demonstrated that when resources can be 
shifted from continual incremental regulatory compliance 
pressures, the industry can and will undertake major research 
and development programs aimed at significant long-term energy 
efficiency. Clear examples are the development of hybrid 
electric powertrains and the continuing investment in the fuel 
cell systems.
    The Alliance firmly believes that the advanced technology 
vehicles that are reaching the marketplace, or are under 
development, offer the greatest promise for the future. These 
are or will be clean, highly fuel efficient vehicles, but many 
consumers will be understandably hesitant to try these new and 
more expensive technologies. Incentives that encourage 
consumers to purchase advanced technology vehicles can help 
accelerate the number of fuel efficient vehicles on our roads, 
without sacrificing the safety, comfort, utility, carrying 
capacity and performance that consumers want.
    Thank you for the opportunity to speak today.
    Senator Smith. Thank you Mr. Andary.
    Just a quick question to each of you and then we will open 
it up.
    When you think of the fuel efficiency--let's just go to a 
hydrogen vehicle--skip the hybrid and go to the hydrogen for a 
moment as a fuel cell vehicle. The efficiency there is so 
incredible, do we have a technological problem here or a market 
problem?
    Mr. Andary. I think we probably have a little bit of both.
    Senator Smith. Not for the hybrid though, but for the 
hydrogen.
    Mr. Andary. First off, there isn't infrastructure in place 
to deliver the hydrogen, I don't believe.
    Senator Smith. So we need more education?
    Mr. Andary. Some. We need infrastructure, we need the 
capacity to build, there are a whole host of things besides the 
market forces that will want to make people buy those cars.
    Senator Smith. See, I think it is an educational problem as 
well and I think that is where schools and universities 
throughout the country can play a big role in it. Because, 
there is clearly an infrastructure lacking for this so we need 
to talk about it. I don't pretend to be an expert on this, 
there are many people who know more about it than I do right 
here on this stage, but as I have spent the last year-and-a-
half looking into this, you realize that the ramifications are 
so huge. Every time I talk about it, and as one who is a 
conservative Republican who is not supposed to care about these 
issues, I find it very interesting because one always says 
``Well, it's not just a consumption problem.'' But when you 
have the opportunity to make these kinds of inroads into the 
consumption of the fuel that we use, the results are dramatic. 
When you look at the emissions and you look at the energy 
consumption and where we get that energy--and a lot has been 
made of my position on the Arctic National Wildlife Refuge--
however, the need for the Arctic Wildlife Refuge oil goes away 
completely and then some by a long shot if you produce these 
automobiles. So, I think we just have to recognize you can't 
expect the automobile manufacturers to put cars out on the road 
that nobody is going to buy. But what we can do, is start 
through the education process to get people to understand that 
at least at the hybrid level, we can produce hybrid cars much 
like a golf cart. I mean, it's the same concept as you take the 
foot off the pedal in a golf cart and you stop, the engine 
shuts off and that's what you do a lot when you are sitting in 
traffic, so why burn gasoline?
    So, I think it is an infrastructure issue and I think we 
need to do more and I intend to do as much as I can, which is 
why we have hearings like this that get all over the country so 
we can draw attention to it.
    Let me ask you Dr. Kelly, you mentioned some of these 
initiatives. Speaking of infrastructure, would we be able to 
have this kind of technology here on campus? Would UNH 
acquiesce to letting students study these programs? Would we 
have the infrastructure here to produce students who would come 
out and go into these technologies?
    Mr. Kelly. I think there is no question that UNH would 
welcome.
    Senator Smith. I meant, when I say UNH, I mean colleges in 
general.
    Mr. Kelly. Well, I think the question of higher education 
reform is very critical to this. By example, there was an 
interesting story recently in the Boston Globe about 
architecture and award winning architects that are designing 
buildings in the Boston area and Harvard University among 
others. It was saying that they really wanted to send a message 
that they were not conservative and not business as usual by 
having this architect build a very non-traditional building, 
but they didn't say anything about how they structure their 
departments. They didn't say anything about their own energy 
practices. They didn't say anything about undergraduate 
education and the liberal arts foundation that is required to 
reason your way as a citizen through these issues.
    So, I think at UNH we have got a commitment to that and we 
are underway. I think there are various levels of commitment 
across the university landscape, but they are very conservative 
institutions and change comes slowly and hard.
    Senator Smith. I think that's always the way. I mean, when 
the kids graduate from the colleges and high schools, is there 
employment out there and which comes first? So it is a tough 
issue. But, I think it's one we should focus on. Because, I 
think as part of an energy policy, one of the things that is 
very frustrating to me as a legislator, not a technical expert, 
but one that has to act or react to pass good legislation, you 
have the short-term problem of fuel shortage or a power 
problem, whatever it may be, or high costs. That is a short-
term problem and when you start talking about hydrogen cars or 
solar energy taking care of all the needs, whatever, then it 
doesn't cut it with the person sitting there paying three bucks 
at the pump or breathing too many fumes. So, we have to have a 
two-pronged approach here. And that's why we are trying to get 
that debate started.
    I hope that when the energy policy that the President has 
put out is finally adopted and appropriate changes are made 
that we do just that. That it is a two-pronged approach and 
that deals with today as well as tomorrow.
    Mr. Kelly. Just one follow-up comment. One way that we can 
bring the short-term and the long-term together I think is, as 
I indicated in my testimony, if we look at alternative fuel 
vehicles, introduce them into the community in a car sharing 
program, then we are looking at the kinds of institutional 
practices or approaches that really get at the problems we 
have. If we simply replace one for one each single occupancy 
vehicle that is currently burning gasoline with electric or 
hybrid cars, we still have the congestion, we still have the 
sprawl which drives land-use changes which undermine our 
community sustainability. So, I think putting that technology 
in the context of transportation to man management for example, 
can be a power educational approach.
    Senator Smith. I think you are right about that. One final 
point that I have neglected to mention was that there is an 
interesting statistic regarding cars and trucks. Cars and 
trucks are 96 percent cleaner than their counterparts of 30 
years ago and the vehicles of 2009 will be 80 percent cleaner 
than today's cars. So, the magnitude of what we are talking 
about here is huge and I think we need to start talking about 
infrastructure so we don't put the cart ahead of the horse.
    Mr. Goldstein, you were kind enough to talk about my 
legislation and I appreciate it. There is some criticism saying 
that this is very complicated and you know, how are we going to 
implement all these tax credits and tax incentives to put 
insulation in or do this or do that. Is it really that 
complicated?
    Mr. Goldstein. No, it's actually very easy, Mr. Chairman. I 
spent a lot of time working with you staff and committee staff 
on getting the technical details right, which means doing 
something that already has a track record of having worked. So, 
you try something and it doesn't work and you make it a little 
bit more complicated and maybe it works a little bit better. We 
have taken the finished product from that and asked the 
Department of Energy to model their procedures for qualifying 
for the tax incentives on the things that have worked in 
California and Florida and other States here in New England and 
they are very easy to do.
    One of the roots of this bill was some work that the 
previous Administration had done where the Treasury Department 
was commenting on some of that Administration's plans and their 
comments were to the extent of this is not very workable the 
way you've got it. We were able to work with the Treasury folks 
who were in charge of IRS to make sure that those kinks were 
beaten out of it and come up with something that's going to be 
very simple for the taxpayer and the energy consultants to 
provide third party verification to work with.
    Senator Smith. Where the rubber really hits the road though 
on this whole policy of energy is just where the break-off is--
if Armageddon is tomorrow, or next year, or 10 years from now 
in terms that we are all going to suffocate to death from 
carbon monoxide or whatever, or heat ourselves to death. The 
thing is, I find generally--generally, not always--but when you 
are talking to the group who are very much in favor of 
renewable energy and conservation, they tend to be exclusive 
and not interested in nuclear power or any other options: clean 
coal, whatever else you want to talk about. I guess the same is 
true with the other side, you will get those who are: more 
power, more oil, more gas, more coal, more nuclear and that 
other stuff is a bunch of nonsense. It seems to me that it has 
to be in the middle somewhere and if we only knew what the 
future holds in terms of how much time we had, how much time do 
we have before we need to move totally away from these carbon 
emissions, it would be a lot easier. But, from a legislator's 
point of view, it's tough, I mean, you just don't know. There 
is a lot of science that we just don't know. So, that's what we 
are faced with. But, I am really delighted that we are debating 
energy and an environmental policy throughout the country now, 
because they go hand in hand. So, I am excited about that.
    Could I just have a show of hands of anybody who wants to 
ask a question. That would help me a little bit in terms of--
one, two, three--OK, four or five people, good. I have a couple 
of names on here, somebody just take the ones I have and if the 
other panel would like to come up and Chris Hessler can give 
you the mike. But the other panel can maybe come up here and if 
we got some chairs here, I can stand up and let you all sit 
here.
    Don Gray.
    Mr. Gray. I can just give you a written question.
    Senator Smith. OK, great.
    How about John Moses? John? Just direct your question to 
whoever you would like to ask it to and keep it brief.

            STATEMENT OF JOHN MOSES, CF TECHNOLOGIES

    Mr. Moses. Good afternoon, Senator. Actually, I just would 
like to take the opportunity to thank you for being able to 
come here and make a few comments. I would just like to direct 
some comments to you.
    I am John Moses. I am with CF Technologies. We are 
developers of critical fluid technology. It's technology based 
on the use of carbon dioxide and other gases under pressure. It 
is environmentally clean solvents.
    Among the energy and environmentally-related uses of the 
technology we have developed: an oil absorbent recycling, 
windshield polymer recycling, chemical agent destruction and 
decontamination, Dynapel cleanup, oil drill cuttings cleanup, 
and we hope to demonstrate in New Hampshire.
    We hope to demonstrate that Dynapel clean-up technology 
here in New Hampshire later this summer. It is technology that 
we developed with our international labs. Our oil absorbent 
recycling technology has the potential to keep 100 million 
gallons of waste oils out of landfills and at the same time to 
put that oil back into lubricants and fuels. The application 
was commercialized 3 years ago, it grows slowly, has about 600 
customers for one plant that is in the Midwest. Right now it's 
operating at a rate where it's recycling about 50,000 gallons 
of oil per year, just really a drop in the bucket of those 100 
million gallons.
    We would like to see technologies like these go commercial 
faster. We think the Federal Government can help. We believe 
some of these applications that I have said, as well as there 
are many other applications of innovative technologies for 
energy and the environment that can have a positive impact on 
this country's energy and environment. As some of the others 
have already stated, there need to be reductions in the 
economic market and regulatory barriers to introducing new 
technologies. And, when you're putting in new technologies, new 
markets, new products and trying to compete with high volume 
products, it's typically difficult. The economic barriers are 
there and certainly incentives such as tax credits in the early 
stages would speed up the acceptance of new technology. Also, 
to help with the acceptance, if the Government used the 
technologies themselves: for example, the Department of Defense 
is a huge energy user. That would certainly help. We look 
forward to participating in things like the environmental 
technology verification programs and expect that that will help 
with regulatory issues and things like that. Thank you again 
Senator.
    Senator Smith. Look, thank you very much Mr. Moses for your 
remarks. While whoever the next questioner is that comes up, I 
would just say that one of the things that is different now 
that has not been the case in the past several decades, is that 
we are, at least now and hopefully it will continue, running 
surpluses at the Federal Government level. However you feel 
about the tax cuts or whatever, the debt is being reduced, the 
tax dollars are coming back to the people, but also we now have 
money, or will have in the very, very near future as we move 
out into the out years here to deal with some of these 
environmental needs: infrastructure, water and sewer. For 
example: infrastructure, which is a huge problem, probably a 
trillion dollar problem in America today and not to mention all 
these technologies and almost everyone mentioned some 
Government help, perhaps in the form of tax credits or 
whatever, and I think it's doable now. I think we need to sell 
it, you know, we do pick winners and losers when we do it, and 
that's the bad part but--and I think that's what Solar's point 
is--that they have been the loser in terms of getting the tax 
help that others have gotten. So, we need an education process 
here to put some of these dollars, as we put them back, bring 
them back to you, we can bring them back in the form of 
environmental help which is what we are doing here with UNH. 
With a lot of the things that they are doing a great job in 
research and putting students right out in the field, 
especially some of these water and air issues. So, it's been a 
great partnership.
    Is there another question over there?
    Yes sir, if you would just identify yourself for the 
record, please.

          STATEMENT OF DAVID FUNK, GREAT BAY STEWARDS

    Mr. Funk. I am David Funk with The Great Bay Stewards.
    Dr. Kelly, you referred to a sustainable school design 
program. Why shouldn't this sort of thinking be extended to the 
design of all public buildings?
    Mr. Kelly. I'm sorry?
    Mr. Funk. Public buildings.
    Mr. Kelly. The reason it shouldn't, the idea there was to 
try to make the educational link so that universities would be 
linked with K-12 schools and to incorporate the sustainable 
design and practices and then make that part of the curriculum, 
which is what we are trying to do here at UNH. So, that was the 
only reason that I limited that idea to schools. You are 
absolutely right, it could apply to all public buildings.
    Senator Smith. Any further questions?

                   STATEMENT OF JOSHUA WILSON

    Mr. Wilson. Well, I want to thank you for hosting this and 
I am afraid I am going to have to put you on the spot, Senator.
    Senator Smith. I have been there before.
    Mr. Wilson. Good. I am really confused about the Bush 
Administration's energy plan and something that Mr. Eidlin said 
and I think he was very polite about it. It was that the 
National Renewable Energy Lab has been disfunded and I would 
like both of you to answer this question if possible. I would 
like to know why the funding has been removed from this in a 
time when we obviously need to be exploring alternative energy. 
So, if you could explain. Oh, I'm sorry, my name is Joshua 
Wilson for the record.
    Senator Smith. Did you want to respond Richard or did you 
want me to? Go ahead.
    Mr. Eidlin. I don't think I really have a clear explanation 
for why that is being cut. Renewable Energy Lab's budget is 
very modest, I think it's $17 to $25 million, it was. So, it's 
an extremely insignificant amount of money in the scope of 
Federal R&D for any energy technologies. So, I can't really 
give you a good explanation for why it's cut, but it certainly 
has, in the past, made significant contributions to technology 
development and commercialization.
    Senator Smith. I might just say in the budget that has been 
sent here by the Administration, it has been cut, but the 
budget hasn't passed yet so it's always the way--it's the 
President's budget--whoever the President is, there are always 
things in there that the Congress disagrees with in priority. 
But, I hear your question and I am going to take that 
information back and look into it.
    I think what happens with these kinds of things is that we 
see, again I use the terms winners and losers, but that's 
pretty much what it is. It just basically is in the mind of the 
eyes of the beholder, you know, what's important and what isn't 
and that's where it gets tough. That's why I'm hoping that we 
can see more dollars directed--frankly, I'm an R&D guy, always 
have been. I think that when you eat your seed corn, you're 
never going to grow any corn and I don't care what you are 
talking about, you talk about defense, you can talk about 
environment, technology, whatever it is, you should not--every 
time we have tight budgets we cut R&D money. They always 
criticize the R&D accounts, because for every--well I don't 
know, maybe somebody knows the numbers, but for every let's 
just say 100 things you try to do successfully, you do one or 
two successfully and the rest looks like wasted money, but when 
in fact, it's research and it's valuable research.
    I always use the cancer example. We haven't found a cure 
for cancer yet, but I certainly wouldn't want to stop funding 
cancer research because we haven't found a cure. In fact, we 
ought to be upping that account as well if you want my personal 
opinion on that one.
    So I am optimistic that that program may not be cut, but we 
will see. I can't make a commitment, because I am only one 
person. In fact, the way things have been going in Washington, 
I probably shouldn't make any commitments, but anyway, I'll 
take a look at that program specifically because you brought it 
up.
    Mr. Hessler. Senator, I think we have two more questions. 
One on this side and one on that side.
    Senator Smith. I would like to end it at that if possible 
and if you do have written questions and would like to submit 
them, I would be more than happy to take those questions.

         STATEMENT OF HON. DANIEL ITSE, NEW HAMPSHIRE 
                      STATE REPRESENTATIVE

    Mr. Itse. Thank you Mr. Chairman. For the record my name is 
Dan Itse, I am a State Representative and president of 
Christopherson Engineering. I have questions for Judith Bayer 
and Mr. Eidlin, because their technologies excite me as a 
technologist and they have near-term application. And, for a 
reference point, for personal reasons, we have a 12,000 KW 
power system at our house.
    Ms. Bayer, you stated that right now the cost of a fuel 
cell is about $4,500 per kilowatt and that it operates in 
hydrogen. A lot of New Hampshire can't even get natural gas. 
How far away do you feel propane fuel is for a fuel cell? When 
do you think it could meet the $1,000 per KW cost that is 
comparable to a reciprocating engine?
    Second for Mr. Eidlin, what is the capital install cost for 
a solar system for comparison?
    Ms. Bayer. In answer to your first question, as far as 
natural gas and propane, we currently run most of our PC 25 
systems on natural gas. We also have the capability to run them 
on propane. So, the residential units that you are seeing for 
example, if you had a remote cabin somewhere and you wanted to 
run it off of propane because natural gas wasn't available, 
that's one of the designed features that is one of the areas 
that we think there is some real potential for the early 
adopters of this technology. You can run a fuel cell off of any 
hydrocarbon, mostly because you don't have hydrogen available 
in its' pure form. We run them off of, as I said, natural gas, 
propane. We have run them off of methane from anaerobic 
digester gas systems. We have run them off methane from 
landfills and we have also run them--we have the technology to 
run them on pure hydrogen. We have a facility in an 
installation in Germany where there is hydrogen available at a 
chemical plant and they use that directly in the system. If you 
had hydrogen available, you could eliminate what we call the 
fuel processing steps in the process and go directly to the 
zero emission power generating stations that we all envision in 
the future.
    As to your question as to when we will reach the magic 
$1,000 level, that really depends on volume. It depends on how 
quickly the market accepts the technology and how quickly the 
volume builds so that we can get those costs down. We would 
hope for the residential units that we could bring those costs 
down by the year 2005 and in that range.
    Mr. Eidlin. The per kilowatt cost of a solar today is about 
22 cents. In New Hampshire, we pay 14 or 15 cents per kilowatt. 
In some places in the country, they pay more than that. So it 
is comparatively more expensive in most cases than conventional 
fossil fuel, but if one takes into account the exogenous 
externalities of air pollution, delivery costs, etc., one will 
find likely that it's a very similar cost. In similar 
applications, solar technologies are cheaper than conventional 
fossil fuel. A good example of that is a system we installed on 
Block Island in Rhode Island for the U.S. Postal Service where, 
because they were reliant on unreliable diesel generators and 
they were bringing their power from the mainland, they were 
paying about 31 cents per kilowatt hour. So they made a 
strategic choice to save themselves a lot of money and they 
also got a reliable power source so that their equipment, their 
mail processing equipment, cash registers and other items 
weren't having to be replaced every 2 years. So, the system we 
have in our house in Amherst is about a 3,000 watt system and 
we say it's affordable, we never say it's expensive. So it was 
affordable to the tune of in the low $20,000 range. But again, 
I just point out that because of net metering, you can sell 
power back to the utility in many States at the retail cost, so 
on a day like today, our meter was spinning backwards for--
probably from 9 o'clock in the morning until mid-afternoon, 
which improves economics.
    Senator Smith. Final question.

            STATEMENT OF JOHN HODSDON, MEREDITH, NH

    Mr. Hodsdon. Thank you Senator Smith. John Hodsdon from 
Meredith, NH, a farmer.
    I have a question for Mr. Andary. Thirty years ago, we were 
all told that gas turbine automobiles were the cars of the 
future, because of the high efficiency and low pollution. What 
happened in that and is there a lesson from what happened that 
we should be considering now?
    Mr. Andary. I would like to know who told you that. Gas 
turbines are--although I believe in the last 30 years there has 
been a lot of work done on the burner technology. They use a 
lot of air and in order to reduce emissions, you need to run 
the vehicles basically at stoichiometric unless you have some 
very advanced technologies to go along with that. So, if you do 
the mathematics, for every pound of fuel that you burn, you 
have to have 14 pounds of air, or thereabouts. That makes a lot 
of unburned fuel, carbon monoxide, a lot of mass of those 
pollutants. As a result, you end up with something that's not 
very fuel efficient, especially in non-steady States where you 
have city traffic, stop and go. It works all right for 
airplanes because the power generation is there, but not so 
much for cars.
    Does that answer your question?
    Mr. Hodsdon. What about other new technologies like those 
we heard about today?
    Mr. Andary. I think that the industry has learned from that 
and there is an investment. We do a lot more work into those 
new technologies now before we release them to the market.
    Senator Smith. Thank you. Thank you very much.
    Let me also say thank you to the University of New 
Hampshire for their splendid cooperation here.
    [Applause].
    Also to thank all of the witnesses and also those who 
displayed their technology. If you haven't had a chance to look 
both inside and outside, it's well worth seeing.
    If anyone has a written question or comment that they would 
like to be made part of the record, if you would get it to us 
by the end of the week, I will see to it that it goes into the 
record. You can fax it to us or you can e-mail it to us by the 
close of business on Friday. I will get it into the record and 
you can be famous.
    Thank you again. I do know one thing, I think that maybe 60 
years from now, Dr. Kelly when they look back on this hearing, 
I'll bet you that most, if not all of the technologies that we 
talked about will be in full use and maybe they might even be 
outdated by then, who knows?
    Thank you all.
    [Whereupon, at 4 p.m., the hearing was adjourned.]
    [Additional statements submitted for the record follow:]
   Statement of Frank Alix, Chairman and Chief Executive Officer of 
                            Powerspan Corp.
    Chairman Smith and distinguished Members of the Senate Committee on 
Environment and Public Works, thank you for the opportunity to share 
Powerspan's perspective on innovative environmental technology and 
energy policy.
    My name is Francis R. Alix and I am Chairman and Chief Executive 
Officer of Powerspan Corp.
    Powerspan is an emerging energy technology company headquartered in 
New Durham, New Hampshire. Our company was founded in 1994 and has 
grown to employ 45 people, most in high paying technical jobs. In order 
to fund technology development, the company has raised over $28 million 
to date from private, institutional, and corporate investors.
    Over the past 3 years, Powerspan has focused its resources on the 
development and commercialization of a patented multi-pollutant control 
technology for coal-fired electric generating plants called Electro-
Catalytic Oxidation<SUP>TM</SUP>, or ECO. The ECO technology is 
designed to cost-effectively reduce emissions of sulfur dioxide 
(SO<INF>2</INF>), nitrogen oxides (NO<INF>x</INF>), mercury (Hg), and 
fine particles (PM<INF>2.5</INF>) in a single, compact system. Several 
leading power generators are investors in the company or partners in 
ECO development. These include FirstEnergy, American Electric Power, 
Cinergy and Allegheny Energy.
    Powerspan has successfully tested the ECO technology in a 2-
megawatt slipstream of a coal-fired plant owned by FirstEnergy. During 
this test, ECO reduced emissions of:
    <bullet> Nitrogen oxides by 76 percent
    <bullet> Sulfur dioxide by 44 percent
    <bullet> Mercury by 81 percent
    <bullet> Total particulate matter by 99.9 percent
    The U.S. Department of Energy recently selected Powerspan for 
funding under a solicitation for promising mercury control technologies 
for coal-based power systems. In addition, lab testing of our second-
generation ECO technology has demonstrated nitrogen oxide removal of 
more than 90 percent, and sulfur dioxide removal of more than 99 
percent.
    Powerspan has begun installation of the first commercial ECO 
demonstration in a 50-megawatt slipstream at FirstEnergy's Eastlake 
Plant near Cleveland, Ohio. The project is being co-funded by a $3.5 
million grant from the Ohio Coal Development Office within the Ohio 
Department of Development. Successful completion of this demonstration 
in 2002 will lead to the availability of full-scale commercial ECO 
systems beginning in 2004.
    As you consider the important role that innovative technology can 
play in further enhancing the environment, I would like to make the 
following points:
    1. Environmental technology development is driven almost 
exclusively by environmental regulations. Regulatory certainty and time 
are important factors that impact the degree of environmental 
technology deployment.
    2. The cost of achieving environmental compliance is usually 
significantly less than estimated at the time regulations are 
developed.
    3. Environmental regulations are not all created equal. Some are 
more likely to spur innovation than others.
    Let me briefly address each of these points.
    <bullet> Both the electric generating industry and the 
environmental technology community rely upon long-term certainty in 
environmental regulation. For the capital-intensive electric generating 
industry, long-term regulatory certainty allows for the orderly 
improvement of generating assets without undue financial risk or threat 
to the availability of electricity supplies. For the technology 
community, regulatory certainty provides the incentive and time to 
deploy resources to develop and commercialize new technology that will 
meet the regulatory goals in the most cost effective manner possible.
    <bullet> In the process of crafting environmental legislation, the 
cost associated with the law's implementation is normally evaluated. 
These cost assessments are inevitably based upon what is known or 
commercially proven at the time. The objective of technology 
developers, however, is to make what is known and commercially proven 
obsolete. This they do on a regular and dependable basis. Therefore, it 
is important to remember that, given time, technology developers will 
ensure that environmental compliance costs are far less than predicted 
today.
    <bullet> The ECO technology could provide the environmental 
benefits of reductions in a number of air emissions, including mercury, 
years ahead of a typical regulatory schedule, and at a lower cost than 
conventional pollution control technologies. However, the existing 
regulatory requirements significantly limit the generating industry's 
compliance flexibility, thereby making the use of multi-pollutant 
approaches less viable.
    Under the current interpretation of best available control 
technology--or BACT--generating utilities could not use ECO technology 
to help achieve NO<INF>x</INF> or SO<INF>2</INF> reductions, even if it 
were almost as effective as the best available technology, and 
simultaneously achieved reduction of other pollutants such as mercury. 
Yet, if ECO technology were deployed throughout the industry, far more 
emission reductions could be achieved than through selective BACT 
deployment. And the associated health benefits would accrue to a larger 
percentage of the public. This kind of regulatory inflexibility doesn't 
make economic sense and, more important, doesn't make environmental 
sense.
    Therefore, I support the President's National Energy Policy call 
for multi-pollutant legislation that will establish a flexible, market-
based program to significantly reduce emissions of sulfur dioxide, 
nitrogen oxides, and mercury from electric power generating plants. I 
believe that Congress should determine the appropriate reduction 
requirements and timeframe to phase in reductions, and then allow 
industry to meet them in the most cost-effective manner possible. A 
command-and-control approach would only serve to drive up costs and 
curb innovation.
    Although Powerspan is proud to have achieved our success to date 
without government funding, I also support the continued emphasis of 
Congress and the President on research and development funding for 
clean energy technology.
    In summary, I believe that increasing our energy supply, and at the 
same time, improving our environment is not only possible, but also 
imperative for the future well being of our society. Fortunately, our 
Nation is blessed with an innovative and entrepreneurial spirit that 
will rise to such challenges. I believe political leaders must exercise 
a degree of faith in order to establish the environmental laws that 
look out over a decade or more to protect public health, when 
compliance uncertainty may exist. Given time and the right regulatory 
framework, the technology community will find an economical way to 
achieve the desired environmental benefits. History has demonstrated 
this time and again. And there are many companies like Powerspan full 
of talented individuals that are dedicated to this goal.
    Thank you.
                               __________
   Statement of Judith Ann Bayer Director, Environmental Government 
                Affairs, United Technologies Corporation
    Good afternoon. My name is Judith Bayer. I'm the Director of 
Environmental Government Affairs for United Technologies Corporation 
(UTC). UTC is based in Hartford, Connecticut and provides a broad range 
of high-technology products and support services to the building 
systems and aerospace industries. Our products include Carrier air 
conditioners, Otis elevators and escalators, Pratt & Whitney jet 
engines, Sikorsky helicopters, Hamilton Sundstrand aerospace systems 
and fuel cells by International Fuel Cells.
    UTC spends an average of $1 billion per year on research and 
development. Our corporate environment, health and safety policy 
includes commitments to: conserve natural resources in the design, 
manufacture, use and disposal of products and the delivery of services 
and develop technologies and methods to assure safe workplaces and to 
protect the environment worldwide. UTC has invested heavily in bringing 
clean, energy efficient technology to the global marketplace, and we 
need to continue to work closely with government policymakers to 
maximize the benefits of these innovative technologies.
    While UTC's diverse portfolio offers a number of examples of clean, 
energy efficient technologies, I will focus today on technologies and 
products from our International Fuel Cell (IFC) and Carrier units. I 
will describe some of our fuel cell and air conditioning products and 
activities, their applications and benefits. In addition, my testimony 
will provide some suggestions regarding government actions that will 
help to maximize these benefits and improve air quality, protect the 
ozone layer, avoid man-made greenhouse gas emissions, reduce dependence 
on foreign oil, provide reliable power as well as reduce electric 
utility peak load demand.
                         fuel cell description
    Fuel cells are the cleanest fossil-fuel generating technology 
available today. They use an electro chemical process to convert 
chemical energy directly from natural gas or other hydrogen rich fuel 
sources, into electricity and hot water at a very high level of 
efficiency.
                         reality of fuel cells
    Fuel cells are not a futuristic dream. More than 250 U.S. 
astronauts have depended on UTC's fuel cell products to provide all the 
electrical power and drinking water used in every manned U.S. space 
mission. Each space shuttle mission carries three IFC 12 kW fuel cell 
units and we have accumulated more than 81,000 hours of fuel cell 
operating experience in the most demanding environment of all--outer 
space.
    Closer to home, IFC has produced and sold more than 220 fuel cell 
systems in 15 countries on four continents. We're the only company in 
the world with a commercial fuel cell product available today. It's 
known as the PC25s and it produces 200 kWs of power and 900,000 BTUs of 
heat. Each unit provides enough power for roughly 150 homes. The 
worldwide fleet of PC25s has accumulated more than 4 million hours of 
operating experience with proven reliability. The PC25 system requires 
only routine maintenance and has a life of 40,000 hours or 5 years.
                         environmental benefits
    Since fuel cells operate without combustion, they are virtually 
pollution free. In addition they produce significantly lower levels of 
carbon dioxide emissions--the primary man-made greenhouse gas 
contributing to climate change. For example, while the average fossil 
fuel generating station produces as much as 25 pounds of pollutants to 
generate 1,000 kilowatt-hours of electricity, the PC25 power plant 
produces less than an ounce.
    The existing fleet of PC25s has already prevented nearly 800 
million pounds of CO<INF>2</INF> emissions and more than 14.5 million 
pounds of NO<INF>x</INF> and SO<INF>x</INF> compared with typical U.S. 
combustion-based power plants. The U.S. Environmental Protection Agency 
recognized IFC last year with a Climate Protection Award in recognition 
of these accomplishments.
                       efficient source of power
    Fuel cells are inherently more efficient than combustion-based 
systems. In the ``electricity-only'' mode of operation, IFC's PC25 unit 
achieves approximately 40 percent efficiency. When the waste heat from 
the fuel cell is utilized, an efficiency of 87 percent can be achieved. 
In addition, fuel cells can be installed at the point of use, thus 
eliminating transmission line losses that can run as high as 15 
percent.
                         minimal impact on grid
    Fuel cells can provide power at the point of use, thereby 
alleviating the load on the existing transmission and distribution 
infrastructure, and eliminating or minimizing the need for additional 
investment in the current transmission and distribution network.
                            energy security
    The use of fuel cells helps to diversify the energy market and 
reduce reliance on imported oil. Fuel cells can operate with a variety 
of fuel sources, but most commonly use natural gas.
                    continuous source of base power
    Unlike other environmentally favorable solutions, fuel cells can be 
used as a continuous source of base power--independent of time-of-day 
or weather--for critical facilities and power requirements.
                             ideal neighbor
    Its compact size, quiet operation and near-zero emissions allow a 
fuel cell system such as the PC25 to be sited easily in communities and 
neighborhoods. Unlike many other forms of power generation, fuel cell 
power plants are good neighbors. For example, two PC25s are located 
inside the Conde Nast skyscraper at Four Times Square in New York City.
                         distributed generation
    Fuel cell power plants offer a solution when power is needed 
onsite, or when distribution line upgrades become cost-prohibitive and/
or environmentally unattractive. For example, a PC25 installed at the 
Central Park Police Station in New York City provides all the power for 
the facility in an onsite installation. In this case, it would have 
been too expensive to dig up Central Park and install an additional 
power line, so the fuel cell became the ideal solution for an operation 
that required a dedicated, reliable power supply and flexible siting.
                            emergency power
    Several hospitals in the United States, including Department of 
Defense facilities, rely on PC25 systems to provide on-line emergency 
power.
    In Rhode Island, for example, a PC25 system provides power for the 
South County Hospital. The installation supplies base load electrical 
and thermal energy to the hospital where it helps ensure clean, 
reliable power for sensitive medical equipment and systems such as CAT 
scanners, monitors, analyzers, and laboratory test equipment. If there 
is a grid outage, the PC25 automatically operates as an independent 
system, continuing to power critical loads at the hospital. Heat from 
the installation provides energy for space heating, increasing the fuel 
cell's overall efficiency.
                              grid support
    The largest commercial fuel cell system in the world is currently 
operating at a U.S. Postal Service facility in Anchorage, Alaska. The 
system provides one megawatt of clean, reliable fuel cell power by 
joining five PC25 units. In this installation, the units operate in 
parallel to the grid and are owned and operated by the local utility. 
The system is seen as a single one-megawatt generation asset and is 
dispatched by the utility through its standard dispatch system. The 
system is designed so the fuel cells can either provide power to the 
U.S. Postal Service mail-processing center or provide power back to the 
grid. In case the grid fails, a near instantaneous switching system 
automatically disconnects the grid and allows the fuel cells to provide 
uninterrupted power.
                         assured reliable power
    As our society increases its reliance on sophisticated computer 
systems, very short power interruptions can have profound economic 
consequences. In 1996 the Electric Power Research Institute reported 
that U.S. businesses lose $29 billion annually from computer failures 
due to power outages and lost productivity.
    PC25 power plants are currently delivering assured power at 
critical power sites such as military installations, hospitals, data 
processing centers, a U.S. Postal Service mail processing center and 
sites where sensitive manufacturing processes take place. One of IFC's 
installations at the First National Bank of Omaha where four fuel cells 
are the major component of an integrated assured power system, is 
meeting customer requirements for 99.9999 percent reliability. This 
translates into a power interruption of 1 minute every 6 years.
                       partial load/co-generation
    The Conde Nast Building at Four Times Square in New York City is a 
``green building'' with two PC25 power plants installed inside to 
provide 5 percent of the building's electrical needs. If there is a 
blackout, the systems are capable of operating independent of the 
utility grid to maintain power to critical mechanical components and 
external landmark signage on the facade of the building. The waste heat 
from the unit is used to run the air conditioning and the power plants 
provide critical backup power in case the grid fails.
                            renewable energy
    When fueled by anaerobic digester gases or biogas from wastewater 
treatment facilities, fuel cells are a source of renewable power. IFC 
and the U.S. Environmental Protection Agency (EPA) collaborated in the 
early 1990s on a greenhouse gas mitigation program that continues to 
bear fruit today. Initial efforts targeted landfills and the 
development of gas cleanup systems that enable fuel cells to use waste 
methane to generate electricity and resulted in the issuance of several 
patents jointly held by EPA and IFC. These systems prevent methane--a 
potent greenhouse gas--from being released into the environment and 
avert the use of fossil fuels as the fuel source.
    Follow-on work has focused on anaerobic digester off-gases (ADGs) 
from wastewater treatment facilities. This technology has been 
implemented successfully at PC25 installations in Yonkers, New York; 
Calabasas, California; Boston, Massachusetts, and Portland, Oregon as 
well as Cologne, Germany and Tokyo, Japan.
              flexible and broad application of fuel cells
    The examples noted above demonstrate the flexibility of fuel cell 
technology and its appeal to many different customers with a wide range 
of requirements. But it gets better. Fuel cell technology and its 
associated benefits, which have broad application in the commercial/
industrial sector, is also being developed for homes, small businesses, 
cars, trucks and buses.
         residential and light commercial fuel cell application
    IFC is currently pursuing residential and light commercial fuel 
cell applications for homes and businesses. These units will use next-
generation proton exchange membrane (PEM) fuel cell technology. We are 
drawing on our experience in both commercial and mobile fuel cell 
programs to develop a 5-kilowatt PEM fuel cell system suitable for 
homes and small commercial buildings. IFC is teaming up with its 
sister, UTC unit Carrier Corporation, the world's largest maker of air 
conditioners, as well as Toshiba Corporation and Buderus Heiztechnik on 
this effort.
    We are currently testing our residential power plants and plan to 
have residential fuel cells units commercially available in 2003. We 
have a residential fuel cell model with us today in the exhibit area.
                 transportation fuel cell applications
    In the transportation arena, IFC is aggressively developing quiet, 
highly efficient ambient-pressure PEM fuel cells and gasoline 
reformation technology for automobiles, heavy-duty trucks and bus 
applications. Fuel reforming technology allows fuel cells to operate on 
pump gasoline.
    IFC is currently working with major automobile manufacturers, 
including BMW and Hyundai and with the U.S. Department of Energy on 
development and demonstration programs for automobiles.
    Last year, for example, IFC replaced the internal combustion engine 
in a Hyundai Santa Fe Sport Utility Vehicle with its zero emission 
Series 300 75-kilowatt hydrogen powered fuel cell. This vehicle was 
featured at the grand opening ceremony of the California Fuel Cell 
Partnership on November 1, 2000. Pure water vapor is the only by-
product of this fuel cell power system. Hyundai and IFC has put two 
fuel cell powered Santa Fe's into driving service in California and 
expect to provide another four in 2002-2003.
    The IFC vehicle power plant is quiet and efficient. It's unique 
because it uses a near ambient pressure system, which substantially 
increases its efficiency. By eliminating the high-pressure requirements 
of other fuel cells, IFC has created a system with fewer parts, which 
translates into lower costs for the consumer. To date, we have 
demonstrated the following capabilities with the IFC/Hyundai Santa Fe 
fuel cell vehicle:
    Starts in less than 30 seconds;
    Performs with undetectable noise levels;
    Operates without any operator intervention;
    Achieves maximum power output of 75 kW and a top speed of 72 mph;
    Fills the vehicle's fuel tank with hydrogen to a pressure of 
roughly 3,000 psi in less than 3 minutes; and
    Avoids any loss of passenger or cargo space.
    In addition, we've also developed fuel cell auxiliary power units 
(APUs) that can power all the electronic components of a car thus 
removing this heavy power demand from the engine. In 1999, BMW 
demonstrated at the Frankfurt Auto Show a Series-7 vehicle featuring a 
5-kilowatt hydrogen IFC fuel cell that powered the onboard electrical 
systems and air conditioning. During the 2-week exhibition, we used the 
APU to run the car's lights and radio continuously without the engine 
running.
    For buses, IFC has teamed with Thor Industries, the largest mid-
size bus builder in North America and Irisbus, one of the largest 
European bus manufacturers, to build fuel cell powered zero emission 
transit buses. These prototype vehicles will take to the road this 
year.
                              constraints
    The cost of fuel cells has been reduced dramatically in the past 
decade. The space shuttle application had a price tag of $600,000 per 
kW. Commercial stationary units being installed today cost $4,500 per 
kW, but fuel cells are still not competitive with existing technology 
which costs about $1,500 per kW. Fuel cell production volumes are low, 
which increases their costs. Increased volume is needed to bring the 
purchase cost down and accelerate commercialization of this clean, 
reliable, efficient source of power so its benefits can be more widely 
enjoyed.
                           government actions
    There are a number of things the Federal Government can do to help 
accelerate the commercialization of fuel cell technology. These include 
providing financial incentives, eliminating regulatory barriers, and 
funding Government purchases and demonstration programs.
                          financial incentives
    UTC/IFC is leading an industry effort to secure a 5-year, $1,000 
per kW tax credit for homeowners and business property owners who 
purchase stationary fuel cells. This initiative has gained support from 
major fuel cell manufacturers, suppliers and related organizations as 
explained in Attachment A.
    In addition, these same organizations have endorsed continuation 
and expansion of the existing DOD/DOE buydown grant program for public 
sector and non-profit organization investment in fuel cell technology. 
An $18 million fiscal year 2002 DOD appropriation is being sought for 
this initiative as indicated in Attachment B.
    These efforts will make the units more affordable and increase 
volume. With higher production volume, costs can be reduced, thus 
accelerating market acceptance and deployment.
    We also support tax credits and financial incentives for fuel cell 
vehicles.
                          regulatory barriers
    We believe the Federal Government must address several regulatory 
barriers to fuel cell distributed generation technology. UTC recommends 
that the Federal Government:
    Adopt a common technical standard for interconnection of small 
power generation devices to the USD utility system based on the 
Institute for Electrical and Electronic Engineers' (IEEE) 1547 
recommendation.
    Minimize the competitive impact of exit fees and stand-by charges.
    Standardize user fees for Independent Power Producers (IPPS) in the 
same geographic region.
    Require States to ensure that the ``buy'' and ``sell'' rates of 
power are the same for any given time of day or year.
                          government purchases
    The U.S. Government is the single largest energy consumer in the 
world. Its vast purchasing power can be put to use in the procurement 
and deployment of clean, efficient, reliable fuel cell systems. We 
suggest a 3-year Federal program to install one hundred 200 kW size 
units or 20 megawatts of fuel cell power at key Federal facilities.
    Priority should be given to facilities in non-attainment areas as 
defined by the Clean Air Act of 1990 as well as those that have 
sophisticated and sensitive computer or electronic operations; where 
high-quality, reliable, assured power supply is required; where remote 
locations makes off-grid power generation essential; where security 
concerns require reliable, assured power; and at critical manufacturing 
facilities that support DOD or DOE missions.
    In making purchasing decisions, the Federal Government uses a life 
cycle cost benefit analysis. Unfortunately, this calculation does not 
consider the environmental benefits of technologies such as fuel cells, 
nor does it place a cost on lost productivity due to unreliable power 
supplies. We recommend that the Government's economic analytical tools 
be revised to include these important factors in the decisionmaking 
process.
                         demonstration programs
    The Federal Government already has played a significant role as a 
user of fuel cell technology in NASA's space program as well as at DOD 
where 29 fuel cells were purchased in the early 1990s to demonstrate 
the performance characteristics of the technology. Since the Government 
will undoubtedly also be a key future customer for the technology, it 
is important for it to continue to support and participate in fuel cell 
demonstration programs.
    A fuel cell bus demonstration program would be particularly 
beneficial. Diesel emissions from transit and shuttle buses are 
particularly significant since they affect large concentrations of 
people in urban and suburban areas, military bases and airports. Diesel 
school buses are of particular concern because of the potential impact 
on the health of vulnerable children.
    Transit, shuttle and military buses return to a central location 
each night. Early deployment of hydrogen powered fuel cell buses offers 
a strategic path to establishing a hydrogen infrastructure that later 
can be utilized by personal vehicles and light trucks for significant 
environmental benefit.
    While prototype fuel cell buses have been developed, a program to 
demonstrate this technology in real operating conditions, improve the 
durability and performance characteristics and create opportunities for 
replication across the country is needed. We support a 3-year $40 
million comprehensive program including a minimum of $10 million in 
fiscal year 2002 funding for a zero emission ambient pressure fuel cell 
bus demonstration program.
                          enabling technology
    Fuel cell systems such as the PC25 require a fuel-processing step 
to derive hydrogen from hydrocarbon feedstocks such as natural gas. If 
hydrogen were available directly, this step could be eliminated and a 
zero emission power generating system made possible. We need to 
continue to support the development of hydrogen production, 
distribution and storage infrastructure to support the deployment of 
zero emission stationary and mobile fuel cell applications. UTC/IFC 
therefore supports the reauthorization of the Hydrogen Future Act and a 
minimum of $26.8 million for fiscal year 2002 funding for DOE hydrogen 
research, development and demonstration and an additional $15 million 
for integration of fuel cells and hydrogen production systems into 
Federal and State facilities for stationary and transportation 
applications.
                            carrier overview
    Carrier is the world's largest manufacturer of air conditioning, 
heating and refrigeration systems. The company believes that with 
market leadership comes the responsibility for environmental 
leadership. Carrier led the global air conditioning and refrigeration 
industry in the phaseout of ozone depleting refrigerants well ahead of 
international and domestic mandates. And while pioneering the 
technologies to enable this transition to non-ozone depleting products, 
Carrier has also increased energy efficiency, minimized materials and 
product weight, introduced new air quality management features and 
developed the tools to evaluate a holistic building systems approach to 
indoor comfort cooling.
    The heating, air conditioning and refrigeration industry has made 
significant improvements over the past two decades in technologies that 
benefit the environment. And while these technologies are readily 
available for consumers today, barriers to full deployment do exist, 
preventing the realization of maximum environmental benefit.
       environmental technologies for commercial air conditioning
    In the commercial air conditioning market, major advancements have 
been achieved in large building chiller technology. Not only does 
Carrier manufacture non-ozone-depleting chillers throughout the world; 
these same products are, on average, 20 percent more efficient than 
their counterparts of 20 years ago, with 10-15 percent less weight for 
the same capacity. This has reduced raw materials like steel and the 
intensive energy required to produce it. In fact, we believe the 
industry is saving 16 million pounds of steel each year, or enough to 
build 7,000 cars.
    Despite these breakthroughs, more than 44,000 old, inefficient, 
CFC-based ozone-depleting chillers remain in operation in the United 
States. If these chillers were replaced with today's products, roughly 
seven billion-kilowatt hours per year would be saved, enough to power 
740,000 homes on an annual basis, saving four million tons of carbon 
emissions at power plants. We believe these old CFC chillers would be 
replaced more rapidly if it weren't for the U.S. tax code, which allows 
building owners to depreciate chillers over a staggering 39-year 
period! If this term were reduced to 15 or 20 years, the advanced 
chiller technologies would become more prevalent in the marketplace to 
the benefit of the environment.
      environmental technologies for residential air conditioning
    Equal advancements have been made in residential systems within the 
last decade. Carrier introduced the Nation's first non-ozone depleting 
residential central air conditioning system, called Puron, in 1996--a 
full 14 years prior to the deadline mandated by the Clean Air Act. And 
while we're proud to have been the first, we congratulate the three 
other major manufacturers that have followed suit so far.
    Carrier also leads the residential market with the highest rated 
efficiencies and supports a full 20 percent increase in the Federal 
minimum energy efficiency standard. But Carrier also believes that 
Federal and State governments can do more to deploy high efficiency 
products rapidly through tax incentives and we congratulate Senator 
Smith for introducing S. 207 which we view as a good framework for tax 
incentives, especially if the levels start at 13 SEER.
    But as Federal and State governments examine tax credits, we would 
like to point out that opportunities exist to maximize these incentives 
for additional environmental benefit, like ozone protection, along with 
energy efficiency. Not too long ago, there was a tradeoff between 
efficiency and ozone protection. Most residential systems sold today 
operate with an ozone-depleting refrigerant scheduled for phaseout in 
new products in 2010. The amount of this refrigerant required for 
higher efficiency systems, like 13 SEER, is 40 percent greater than 
standard 10 SEER systems. Fortunately, Carrier pioneered the technology 
that other manufacturers have followed to avoid this ``Hobson's 
choice'' of efficiency or ozone protection. Clearly and thankfully we 
can have both, and we urge any tax incentive plan to maximize the 
environmental benefits of efficiency combined with ozone protection.
                      demand management technology
    To address electric utility demand-management initiatives, Carrier 
was the first in its industry to develop a web-enabled smart thermostat 
that will interface between a homeowner's air conditioning system and 
the local utility. This technology can reduce residential peak load 
demand by 30 percent, frequently without the consumer's awareness.
    In essence, the thermostat allows the utility to ``purchase'' peak 
load demand from the homeowner by offering electrical rate discounts 
for setting-back the thermostat a few degrees. Carrier's smart 
thermostats, called ComfortChoice, have already been deployed by 
utilities in New York, Connecticut and Washington. For every 100,000 
homes installed with this technology, 150 megawatts of peak power can 
be saved, which is enough to power 100,000 additional homes for 1 year. 
At an average of $375 per installation (labor and material) plus 
utility software costs and monthly communication fees, the cost of 
deploying these smart thermostats has been the principal barrier to 
more widespread use, which utilities and State policymakers are 
starting to address through rebates and other incentives.
                training to ensure environmental benefit
    Another safeguard that ensures maximum environmental benefit is the 
proper installation of products. Manufacturers can design and sell the 
most energy efficient systems, but if third party contractors do not 
install the system properly, the environmental benefit will be lost. 
Fortunately, thousands of these systems are installed properly each day 
by qualified technicians, but no one doubts that additional training 
will yield greater environmental benefit. According to the Consortium 
for Energy Efficiency, proper residential system installations could 
reduce energy consumption by as much as 35 percent. With over 300,000 
installation technicians in the country, the opportunity for additional 
training is great.
    That is why the air conditioning manufacturers and contractors have 
teamed up to form a national technician training and certification 
program called NATE--North American Technician Excellence. This program 
has trained a total of 10,000 technicians since its creation. The 
Federal Government can support NATE in two meaningful ways: (1) provide 
resources to raise public awareness of the program, and (2) encourage 
Federal facilities to ensure that they purchase service only from NATE 
technicians. Support of NATE will help ensure that the best 
environmental technologies that exist today are properly deployed so 
that they yield their intended benefits.
                      research for future benefits
    Finally, the Federal Government can help develop the next 
generation of environmental technologies for air conditioning and 
refrigeration systems by continuing to fund the ``Research for the 
Twenty-first Century'' program also known as ``21-CR.'' This 
collaborative program pools the financial resources of the Federal 
Government, State governments and private enterprise to conduct pre-
competitive research on energy efficiency, indoor environmental 
quality, refrigerants and others. We urge the Congress continue 
supporting this valuable program with a $4 million appropriation for 
fiscal year 2002.
                             utc commitment
    UTC products have useful lives that can be measured in decades. 
That's one of the reasons our corporate environment, health and safety 
policy statement requires conservation of natural resources in the 
design, manufacture, use and disposal of products and delivery of 
services. It also mandates that we make safety and environmental 
considerations priorities in new product development and investment 
decisions.
    UTC products offer the potential for significant energy savings as 
well as improved environmental quality. Working with government and end 
users of our equipment we can ensure that these benefits are optimized 
and accelerated. We look forward to working with Congress, the 
Administration and other stakeholders to achieve these goals.
    I would be happy to answer any questions you might have.
                                 ______
                                 
 Why Should Congress and the Administration Support a Stationary Fuel 
                            Cell Tax Credit?
                                overview
    A fuel cell is a device that uses any hydrogen-rich fuel to 
generate electricity and thermal energy through an electrochemical 
process at high efficiency and near zero emissions. Fuel cell 
developers, component suppliers, utilities and other parties with an 
interest in clean distributed generation technology are working 
together to enact tax credit legislation that will accelerate 
commercialization of a wide range of fuel cell technologies.
                           credit description
    The $1000 per kilowatt credit will be applicable for purchasers of 
all types and sizes of stationary fuel cell systems. It will be 
available for five years, January 1, 2002-December 31, 2006, at which 
point fuel cell manufacturers should be able to produce a product at 
market entry cost. The credit does not specify input fuels, 
applications or system sizes so a diverse group of customers can take 
short-term advantage of the credit to deploy a wide range of fuel cell 
equipment.
                why is a fuel cell tax credit necessary?
    A credit will allow access to fuel cells by more customers NOW when 
there is a grave need for reliable power in many parts of the country.
    A credit will speed market introduction of fuel cell systems.
    A credit will create an incentive for prospective customers, thus 
increasing volume and reducing manufacturing costs. As with any new 
technology, price per unit decreases as volume of production increases.
    A credit will speed the development of a manufacturing base of 
component and sub-system suppliers.
    benefits of speeding market introduction through tax legislation
    Because fuel cell systems operate without combustion, they are one 
of the cleanest means of generating electricity.
    While energy efficiency varies among the different fuel cell 
technologies, fuel cells are one of the most energy efficient means of 
converting fossil and renewable fuels into electricity developed to 
date.
    Fuel cell systems can provide very reliable, uninterruptible power. 
For example, fuel cells in an integrated power supply system can 
deliver ``six nines'' or 99.9999 percent reliability. Thus, fuel cells 
are very attractive for applications that are highly sensitive to power 
grid transmission problems such as distortions or power interruptions.
    As a distributed generation technology, fuel cells address the 
immediate need for secure and adequate energy supplies, while reducing 
grid demand and increasing grid flexibility.
    Installation of fuel cell systems provides consumer choice in fuel 
selection and permits siting in remote locations that are ``off grid.''
    Fuel cell systems can be used by electric utilities to fill load 
pockets when and where new large-scale power plants are impractical or 
cannot be sited.
    Fuel cell systems, as a distributed generation resource, avoid 
costly and environmentally problematic installation of transmission and 
distribution systems.
                                  cost
    The five-year budgetary impact of the credit is less than $500 
million.
   Key Elements of a Fuel Cell Tax Credit for Stationary Applications
                                overview
    The goal of the stationary fuel cell tax credit is to create an 
incentive for the purchase of fuel cells for residential and commercial 
use. The prompt deployment of such equipment will generate 
environmental benefits, provide a reliable source of power for 
homeowners and businesses, reduce our Nation's dependence on foreign 
oil supplies, help commercialize clean technology, enhance U.S. 
technology leadership and create economic benefits for the Nation.
    Fuel cell tax credit proposals should be designed to benefit a wide 
range of potential fuel cell customers and manufacturers. They should 
therefore be all-inclusive without discriminating between different 
kilowatt sized units, type of technology, application, fuel source or 
other criteria. Efforts should be made to keep the proposals as simple 
as possible to aid in effective implementation. In addition, the 
proposals should strike a balance between ensuring the level of tax 
credit provided represents a meaningful incentive that will stimulate 
purchase and deployment of the technology while minimizing the 
budgetary impact.
    The following are specific elements suggested for consideration and 
inclusion:
                                coverage
    U.S. business and residential taxpayers that purchase fuel cell 
systems for stationary commercial and residential applications should 
be eligible for the credit.
                            basis for credit
    The credit should be based on a ``per kilowatt'' approach with no 
distinction made for the size of unit.
                            access to credit
    No allocation of credit should be made to specific categories of 
fuel cells on an annual or total basis.
                              fuel source
    No premium or penalty should be imposed based on the fuel source.
             definition of stationary fuel cell power plant
    The term ``fuel cell power plant'' should be defined as ``an 
integrated system comprised of a fuel cell stack assembly, and 
associated balance of plant components that converts a fuel into 
electricity using electrochemical means.''
                             co-generation
    No co-generation requirement should be imposed since not all fuel 
cell technologies offer an effective option for co-generation.
                               efficiency
    No efficiency criteria should be imposed. Fuel cell systems in the 
early stages of development, such as residential sized units, cannot 
predict the efficiency level at this time. Establishing arbitrary 
efficiency criteria could exclude early models for this important 
application, which are exactly the units that require incentives. 
Efficiency levels will vary based on whether proton exchange membrane, 
phosphoric acid, solid oxide or molten carbonate fuel cell technology 
is used. Designing fuel cell systems to maximize efficiency may require 
tradeoffs resulting in more complicated, higher cost, less fuel 
flexible and less durable units.
                             floor/ceiling
    No minimum or maximum kilowatt size criteria should be imposed.
                            amount of credit
    $1,000 per kW for all qualifying fuel cell power plants. A five-
year program with a $500 million budgetary impact is proposed.
                                duration
    1/1/02-12/31/06.
                                 ______
                                 
               The Stationary Fuel Cell Incentive Program
                               background
    The Departments of Defense (DoD) and Energy (DOE) have 
cooperatively supported the development and commercialization of 
domestic stationary fuel cell systems since 1996. In 1995 Congress 
appropriated funds for the DoD Office of the Assistant Secretary for 
Economic Security for a competitive, costshared, near-term Climate 
Change Fuel Cell Program (H.R. 103-747).
    The Program grants funds to fuel cell power plant buyers to reduce 
the high initial cost of early production systems, providing up to 
$1,000 per kilowatt of power plant capacity not to exceed one-third of 
total program costs, inclusive of capital cost, installation and pre-
commercial operation. For the program's six years, the grant program 
significantly aided commercialization of the first generation of fuel 
cell systems as intended by the Congress.
                        benefits of the program
    The fuel cell grant program has expedited market introduction of 
early fuel cell systems. Production quantities are low and first time 
costs (e.g. engineering, manufacturing facilities, tooling) are high, 
yielding high early unit capital costs. The grant program has 
facilitated an increase in manufacturing quantities thereby reducing 
unit cost and enabling early adopters to participate in demonstrations 
and field trials. Lastly, federal participation in fuel cell 
demonstrations and field trials has encouraged, in some cases, 
supplemental support from state agencies or electric utilities, further 
reducing costs. In virtually all cases, fuel cell projects would not be 
possible without the grant program support.
                            requested action
    Eighteen million dollars in fiscal year 2002 funding is being 
sought for the fuel cell grant program at $1,000 per kW capacity. This 
level of funding is needed to support the growing number of fuel cell 
technologies and manufacturers that are bringing new fuel cell products 
to market. The criteria used to select applications for a program grant 
should be identical to that used in the last year of the program's 
operation.
    The key criteria include, but are not limited to: demonstration by 
applicant of a commitment to purchase and use fuel cell power plants 
with a rated capacity of at least 1 kW; power plants purchased before 
September 2000 are not eligible; grants awarded consistent with the 
amount of funding available; applicants must comply with all National 
Environmental Policy Act and other applicable regulatory requirements; 
signed contract within 60 calendar days of being notified of award 
required; first payment to applicant (70 percent) made after applicant 
submits a signed factory or site acceptance test form; second payment 
(30 percent) dispersed after receipt of acceptable report covering a 
year of fuel cell operation; applicants cannot be fuel cell vendors, 
manufacturers or developers; priority given to projects using DoD 
installations; all fuel cell technologies are eligible; no restrictions 
on fuel type; applicant's fuel cell vendor must offer commercial 
warranty for one calendar year of operation; and, it is desirable to 
select for award a group of projects representing diverse sizes, 
applications, fuels and locations.
                      anticipated program benefits
    Presently there are several fuel cell technologies completing 
advanced development and nearing commercial readiness. Over a dozen 
U.S. fuel cell manufacturers will field products that qualify for 
program grants. The fuel cell grant program has enjoyed bipartisan 
Congressional support for many years. Continuation of this initiative 
will benefit the nation by accelerating deployment of environmentally 
benign, reliable, distributed generation technologies to provide needed 
new electricity capacity.
                               __________
      Statement of George Taylor, CEO and President, Ocean Power 
                           Technologies, Inc.
    Ocean Power Technologies, Inc. (``OPT'') is an energy technology 
company supplying intelligent wave power electrical generation systems 
to utilities, independent power producers and the public sector. OPT is 
capitalizing on the increasing demand for low cost electricity, the 
need for distributed generation and the awareness of new 
environmentally sensitive power generation technologies. OPT is 
offering its customers a tested, leading edge, proprietary product 
which generates electricity in a reliable, non-polluting and cost-
effective way.
opt has developed and tested the first commercial wave power generation 
                           system in the usa
    OPT's product is a scalable wave energy conversion system which is 
based on the integration of patented technologies in the areas of 
hydrodynamics, electronics, conversion mechanics and computer control 
systems. It has been designed and tested to solve the problems usually 
associated with harvesting wave energy: uneconomical scale, variable 
wave regimes and a severe environment.
    OPT believes that its wave power generation system is unique in 
that:
    <bullet> The system is a modular buoy-based product in which the 
modules are relatively small and hence relatively inexpensive to build 
and install compared to large wave energy generation systems
    <bullet> Regular low cost maintenance will permit a lifetime in 
excess of 30 years since the system is constructed from rugged buoys, 
marine quality hydraulics and proven conventional moorings and 
anchoring and underwater transmission power cable
    <bullet> The modular nature of the system allows for simple 
installation and easy scale-up, as well as immediate revenues streams, 
as the power buoys are incrementally brought on-line
    <bullet> The cost of electricity produced by the system ranges 
between 3-4 cents/kWh for primary power and 7-10 cents/kWh for 
secondary power applications
    OPT's system trials include multiple tests in the U.S. Navy's wave 
tank facility near Washington, DC, as well as operation of a unit off 
the coast of New Jersey for 11 months. Over that period, the ocean 
system produced power in varying conditions, and survived several major 
storms and a hurricane with waves as high as 10 meters. Based on the 
successful testing of the system, the Company has come to be regarded 
by independent experts as the world leader in buoy-based wave power 
generation devices.
 opt commands strong cost advantages relative to competing sources of 
                         electricity generation
    The cost of generating power from an OPT wave power station is 
projected to be 3-4 cents/kWh for 100 MW systems and 7-10 cents/kWh for 
1 MW plants.
    While the capital cost of OPT's system is relatively more expensive 
at the secondary power level, the cost is competitive at the large 
scale 100 MW level compared to traditional fossil fueled systems.

                Comparison of Operating Cost (cents/kWh)
------------------------------------------------------------------------
                                     Secondary Power     Primary Power
                                          (1 MW)            (100 MW)
------------------------------------------------------------------------
OPT System........................               7-10                3-4
Fossil Fuel.......................                N/A                3-5
Wind..............................                 10                5-6
Diesel............................             12-100                N/A
Photovoltaic (Solar)..............              25-50              10-15
------------------------------------------------------------------------

                       capital cost of opt system

                       Comparison of Capital Cost
                              (Dollars/kW)
------------------------------------------------------------------------
                                               1 MW           100 MW
------------------------------------------------------------------------
Coal Plant..............................             N/A     1,500-3,500
Fuel Cells..............................           5,000             N/A
Microturbines...........................             Low             N/A
Wind/Solar..............................           8,000           4,000
Other Wave Systems......................          45,000             N/A
OPT.....................................          *6,200         **2,300
------------------------------------------------------------------------
*20 unit cluster of 50kW units
**500 unit cluster of 200kW units
Note: This data is based on OPT projections of detailed costs for 100 MW
  systems. Coal-based power plant costs are based on operating cost
  information from various utilities analysts, and Resource Data
  International, Inc.

      the opt system delivers lower cost per kwh over its lifetime
    While OPT's power plant equipment is at a somewhat higher projected 
purchase price per kilowatt than existing conventional power plant, the 
total cost per kilowatt hour over the lifetime of the plant is much 
lower (see Table below). This is because the OPT Power Systems require 
no fuel, and maintenance operations are lower in cost (based on 
standard buoy maintenance procedures promulgated by the U.S. Coast 
Guard).

                                  Wave Energy Compared to Wind and Solar Energy
----------------------------------------------------------------------------------------------------------------
                                                                               Availability
               Type                   Energy Density        Predictability       (percent)     Potential Sites
----------------------------------------------------------------------------------------------------------------
Wave Energy......................  High................  Predictable in most         80-90   Virtually
                                                          sites.                              unlimited.
Wind Energy......................  Low.................  Unpredictable--excep        20-30   Very limited.
                                                          t in limited number
                                                          of sites.
Solar Energy (Photovoltaic)......  Low.................  Unpredictable-except        20-30   Medium number.
                                                          for medium number
                                                          of sites.
----------------------------------------------------------------------------------------------------------------
Source: Independent analysts, U.S. Department of Energy, and various periodicals.

       opt has successfully signed its first commercial contracts
    After successfully testing the complete wave power system, OPT has 
received its first commercial contracts for wave power generation 
systems from the U.S. Navy, an electric utility in Australia and the 
State of New Jersey.
                  opt's wave power generation systems
    <bullet> High energy density for production of primary electric 
power
    <bullet> Essentially unlimited quantities of renewable energy close 
to centers of population and industry. Since OPT's power generation 
systems use no fuel, there are no costs of transport, storage, handling 
or the uncertainties of fuel pricing.
    <bullet> Predictable, high duty cycle power generation which can be 
fed into the power grid or stored
    <bullet> Efficient at low and variable speed operation suited for 
natural energy sources.
    <bullet> Highly modular system enabling lower costs, reduced 
construction and commissioning period, and ease of expansion or 
reduction of power capacities. Conventional power stations must be 
built on a large scale to be economical, making them vulnerable to 
failure and difficult to maintain. Furthermore, the modular, scaleable 
nature of OPT's systems enables the power capacity planned to avoid 
resource commitment until it is justified by actual demand.
    <bullet> Also ideally suited for powering salt water desalination 
and hydrogen generation plants
    <bullet> Non-polluting and safe energy--no toxic gases, acids or 
greenhouse effect and no waste disposal problem
    <bullet> For conventional power plants, the ``footprint'' of the 
plant superstructure, surrounding grounds and additional facilities 
such as fuel unloading areas, waste settling ponds, etc. can occupy up 
to two square miles of expensive real estate for a 100 MW site. A 
comparable OPT power plant would occupy approximately the same area of 
effectively free ocean surface out of sight from the shore.
    <bullet> Conventional power plants are based on a small number of 
large generators. Unscheduled maintenance and equipment down-time can 
significantly diminish capacity output and negatively impact costs. 
OPT's power generation systems are based on a large number of small 
generators and the effect of equipment down time or unscheduled 
maintenance on single units has a minimal effect on capacity output.

                                   OPT Power Wave Station Physical Parameters
                                    (Based on nominal 2.0 meter wave height)
----------------------------------------------------------------------------------------------------------------
                                                                                     Min./Max.       Offshore
             Station Capacity Megawatts               Quantity OPT     Surface      Ocean Depth   Distance Miles
                                                     Units Deployed   Area Acres      Feet**         (Typical)
----------------------------------------------------------------------------------------------------------------
1..................................................              20            5         100-300         0.5-5.0
5..................................................              50           25         100-300         0.5-5.0
10.................................................             100           50         100-300         0.5-5.0
50.................................................             200          240         100-300         0.5-5.0
100................................................             500          480         100-300        0.5-5.0
----------------------------------------------------------------------------------------------------------------
Note: 640 acres equals 1 square mile.
** Power output is reduced in ocean depths of less than 100 feet. Mooring costs increase significantly for
  depths greater than 300 feet.

                            opt's technology
OPT is the world's leader of wave energy generation systems
    <bullet> Wave energy is the most concentrated form of renewable 
energy

          LWidespread throughout the world
          LClose to population centers
          LPredictable and dependable
          LNon-polluting: no exhaust gases, no noise, no visibility 
        from shore
          LScalable to high capacity power stations (100MW+)
          L100 square miles of ocean area off coast of California is 
        estimated capable of producing all of California's electrical 
        power
    <bullet> Availability factor of 90 percent, with wind and solar 
availability factor of 30-40 percent
    <bullet> OPT's system captures wave energy in a simple and cost-
effective manner
          LModular design makes system flexible, reliable, durable and 
        easy to scale
          LProprietary system
          LInnovative design allows for easy installation and 
        maintenance
    OPT's wave energy generation system is based on a ``smart'', 
modified ocean-going buoy designed to capture and convert wave energy 
into a controlled mechanical force which drives the OPT electrical 
generator.
    <bullet> The rising and falling of the waves causes the buoy-like 
structure to move freely up and down. The resultant mechanical stroking 
is used to drive the electric generator
    <bullet> The generated AC power is converted into high voltage DC 
and is transmitted ashore via an underwater power cable
    <bullet> The OPT device is a proprietary, ``smart'' system as the 
buoy sensors continuously monitor the performance of the various 
subsystems and the ocean environment, so as to efficiently convert the 
random wave energy into useful electrical power
    <bullet> In addition, the OPT system includes sophisticated 
techniques for automatically disconnecting the system in very large 
waves, and automatically reconnecting when the waves return to normal 
regime.

[GRAPHIC] [TIFF OMITTED] 80649.001


[GRAPHIC] [TIFF OMITTED] 80649.002


                               modularity
    <bullet> Power Module

         Generator and Electronics

    <bullet> OPT Power Unit
          Buoy-like structure containing power modules, hydraulics

    <bullet> OPT Power Station
    (a) Array of power units, electrically coupled
    (b) Increase or decrease capacity as demand requires
    (c) Fast installation and commissioning
       environmental advantages of opt's power generation systems
    <bullet> No fuel--absence of CO<INF>2</INF> emissions, radiation 
and particulate matter pollution.
    <bullet> No waste or disposal requirements, and no danger of 
spillage or other environmental damage.
    <bullet> No noise pollution.
    <bullet> No visual pollution.
    <bullet> No negative impact on marine life. In fact, can encourage 
growth of marine life.
    <bullet> Reduces shoreline erosion.
                    expandability of the technology
    <bullet> Modular system allows for eventual expansion to power 
stations with capacities of 100 + MW
    <bullet> 100 square miles of sea area off California coast could 
produce all of California electricity
                          product applications
    <bullet> Primary Power Plants--Grid power and distributed power 
generation
    <bullet> Secondary Power Systems--remote locations, mini-grid 
installations, offshore platforms
    <bullet> Desalination Plants
    <bullet> Water Treatment Plants
    <bullet> Natural Resource Processing/Refinement Plants
    <bullet> Hydrogen Production
    <bullet> Autonomous Underwater Vehicles
    <bullet> Remote Sensing
    <bullet> Navigation Aids
                 support from united states government
    <bullet> Office of Naval Research, U.S. Navy

          SBIR Program

    <bullet> DARPA--U.S. Department of Defense

          BAA Program
          STTR Program

    Support from the congressional Delegations of New Jersey and 
Hawaii.

[GRAPHIC] [TIFF OMITTED] 80649.003


             Statement of Richard Eidlin, Solar Works, Inc.
    Good afternoon. My name is Richard Eidlin. I am the Vice President 
and Business Development Director for Solar Works, Inc., a distributed 
generation services company that provides solar and other renewable 
energy systems to residential, commercial and institutional customers 
throughout the Northeast.
    I appreciate the opportunity to offer some thoughts at today's 
hearing regarding the important role that solar electric photovoltaic 
technologies can play in addressing the Nation's energy needs. First, 
allow me to describe the types of activities that Solar Works is 
involved with.
    Founded in 1980, Solar Works offers a wide range of standardized, 
grid-intertied solar electric, domestic hot water, wind turbine and 
energy efficiency systems. As the technology matures and market 
develops, we will also begin providing residential fuel cell units. 
Within the solar industry, Solar Works acts as a renewable energy 
``system integrator,'' in that we provide a complete set of technical, 
hardware, and programmatic strategies to clients. In this role, Solar 
Works serves as the catalyst that brings together manufacturers, energy 
service providers, policymakers and consumers. While maintaining its 
historic role as a ``systems integrator'', Solar Works is evolving to 
become a comprehensive renewable energy services firm, active in 
commercializing technologies and developing market-based programs for 
utilities, State agencies, cooperatives and housing developers 
interested in promoting solar electric and solar hot water systems.
    Headquartered in Montpelier, Vermont, Solar Works maintains sales 
and service offices in eight additional Northeastern States; 
Connecticut, Maine, Maryland, Massachusetts, New Hampshire, New Jersey, 
New York and Rhode Island. Over the last 5 years, in response to the 
maturing domestic market for renewable technologies, Solar Works has 
developed its capabilities to design and deliver complete marketing and 
installation programs on a State or regional basis. We presently run 
five major market development programs for utilities, State agencies, 
or national manufacturers, including companies like AstroPower. As we 
observe the on-going discussions in Washington regarding energy policy, 
I would like to offer a few observations.
    Over the 21 years, Solar Works has been in the renewable energy 
business, we have experienced several major shifts in public policy, 
technology development and market acceptance. Today, unlike a decade 
ago, there is a vibrant market for solar technologies in the United 
States. As we are fond of saying, ``There has never been a better time 
to create your own electricity.''
    A host of factors account for this. First off, solar electric and 
solar hot water technology is demonstrably more reliable and resilient. 
Concerns dating back to the 1970s have no bearing on current 
discussions regarding the role for solar technologies. Solar electric 
photovoltaic systems have become standardized, with UL-listed, National 
Electric Code compliant equipment, which requires virtually no 
maintenance. Questions about solar domestic hot water systems' 
reliability have also been resolved in favor of fail-safe cost-
effective equipment. Technological improvements have brought the 
payback for a hot water system down to 8 to 10 years, and 20 plus years 
for solar electric systems.
    The second observation concerns the market for renewable energy. 
Survey after survey indicates that the American public is highly 
supportive of clean, domestically generated energy technologies. The 
past 5 years have witnessed a significant shift in the market. Once 
largely the domain of off-grid applications, such as water pumping, 
telecommunications, vacation cabins and/or rural electrification 
projects, PV is now becoming more widely accepted and used for grid-
tied homes, businesses and schools across the country.
    Homeowners and businesses are choosing solar energy systems for a 
number of key reasons:
    (1) power quality and reliability, (2) demand for clean, non-
polluting energy, (3) growing interest in generating electric power 
from a decentralized source, (4) escalating conventional energy costs, 
(5) power shortages, including brown-outs and blackouts.
    PV is the ideal distributed generation technology, well suited for 
almost any energy application. PV systems are highly modular and 
flexible in nature. Recent technological advances in performance and 
design are creating an increasingly cost-competitive energy source. 
Customers such as the U.S. Postal Service understand these inherent 
advantages that solar generation has over back-up fossil fuel 
generators. While a fossil fuel generator mainly sits idle and 
depreciates, a solar system lowers monthly utility bills and can 
provide 24-hour automatic uninterruptible power supply PV's can be 
easily sited, require comparatively little permitting, and produce 99.9 
percent reliable power for any application. PV's also provide an 
excellent hedge against almost certain energy inflation.
    With today's increased reliance on computers, telecommunication 
systems, and high performance electronic devices, any loss of power or 
even power quality can be very costly. Solar assisted Uninterruptible 
Power Supply systems (with batteries) offer a cost-effective, safe and 
reliable means of providing emergency backup power to homes and 
businesses alike.
    PV's are also an excellent means of shedding load demands and 
avoiding summertime peak power costs, which last summer in some parts 
of the country soared to more than $600 a megawatt. PV's offer 
utilities and businesses the option of reducing congestion on the grid 
and moderating the demand for additional power plants and generating 
capacity. For homeowners, PV's provide an assurance that the power will 
stay on in the event of a blackout due to a natural disaster or power 
scarcity.
    Recent studies of the large-scale power failures during the winter 
of 1998-1999 in both the Northeast and Northwest strongly suggest that 
scaled PV installations placed at strategic places along the power grid 
would have prevented the blackout from cascading from State to State. 
Homeowners and businesses, due to net metering rules can now also 
``sell'' power back to the utility at times when their solar electric 
systems are producing more power than the home or building requires. 
This provision, along with others is helping to drive the market for 
solar technologies.
    It is regretful that the Federal Government during both the 1990s 
and today, has committed disproportionately limited resources to 
supporting the photovoltaics industry. In contrast, over 40 States have 
enacted one or more requirements to actively encourage the broader use 
of renewable energy sources. Net Metering, State income tax credits, 
renewable portfolio standards, and system benefit charges are some of 
the many ways renewables are being encouraged at the State level by 
public utility commissions and legislatures. In six States alone, (CA, 
IL, MA, NJ, NY, PA) over $375 million is being collected annually from 
ratepayers through electric industry restructuring programs to support 
renewable energy development. These funds will leverage about five 
times their value in retail market activity, or about $1.5 billion a 
year.
    The upshot of all this is that the domestic solar energy market 
will grow ten-fold in the next 5 years, from 80 megawatts to 820 
megawatts of installed capacity. According to the Energy Information 
Agency, photovoltaics will be the fastest growing generation technology 
in the United States over the next 20 years. Solar energy will still be 
a niche market compared to fossil fuel generated power, but it will be 
a multi-billion-dollar-a-year opportunity for those few companies that 
have the infrastructure to support its tremendous growth.
    There is a historic market opportunity emerging in the United 
States for renewable energy technologies. An extraordinary convergence 
of market forces is transforming a small, niche industry into a multi-
billion dollar one, almost overnight. Electric industry restructuring 
is literally jump-starting the market by offering customer choice and 
millions of dollars of financial incentives for renewable generation. 
Demand for zero-emission generation technology to combat global warming 
and air pollution is another important market driver.
    The current California power crises is a good example of the 
inability and unwillingness of utilities to build new central station 
generation and transmission facilities. The answer to this lies in 
distributed generation systems that can be tucked into homes, 
neighborhoods, and businesses. Photovoltaics are the ultimate 
distributed technology that runs on pure sunshine. Declining costs of 
photovoltaic modules and renewable energy incentives enacted by all 
levels of government are creating an exponentially expanding market.
    Given these trends, it is of concern, that the Administration's 
energy plan devotes limited attention toward the role of solar 
technologies. The substantial reductions in the Department of Energy 
administrative and RD&D budget for renewables is a shortsighted 
approach to balancing the budget. In addition, these policies are 
placing the domestic American solar energy industry at a competitive 
disadvantage to their European and Japanese counterparts. Relative to 
investments that other advanced industrialized nations have made in 
supporting PV's over the past decade, the U.S. Federal Government has 
directed exceptionally modest resources to building a domestic 
industry.
    Let me return to the immediate issue of the Administration's 
proposed energy plan. While Solar Works supports the proposed $2,000 
income tax credit for residential energy tax credits, we are not in 
favor of doing this at the expense of drilling for oil in the Arctic. 
What is needed instead is a greater reliance on a wide range of 
renewable technologies, including fuel cells, hydro and wind. We also 
support pending legislation that would establish a national standard 
regarding the process by which PV systems are interconnected to the 
utility grid, as well as proposals to create a Federal renewable energy 
portfolio standard.
    Here in New Hampshire as elsewhere in the Northeast, Solar Works 
has been working to expand the market for solar technologies. Over the 
past 2\1/2\ years, we have installed over 40 solar electric and solar 
hot water systems on homes, environmental centers and public buildings 
throughout the State. Our Solar on Schools Program has resulted in 19 
PV systems being installed on public as well as private schools, 
including the 1 kW solar system located on top of the University of New 
Hampshire's Memorial Union Building.
    Solar Works looks forward to working with the Senate Committee on 
Environment and Public Works in crafting policies that help to 
accelerate the commercialization of solar electric technologies. Thank 
you for your interest.
                               __________
  Statement of David B. Goldstein, Ph.D., Energy Program Co-Director, 
                   Natural Resources Defense Council
    Mr. Chairman and Members of the Committee: My name is David B. 
Goldstein and I am energy program Co-Director for the Natural Resources 
Defense Council, a national environmental organization with over 
400,000 members. I wish to thank you, Mr. Chairman, and Members of the 
committee, for convening this hearing on energy efficiency and new 
technology in a national energy policy and for inviting me to speak. I 
also want to commend the Chairman for his leadership on S. 207, which 
would provide desperately needed relief to our overstressed electricity 
and natural gas grids.
    Energy efficiency is a critical piece of any national energy 
strategy because of the impacts that energy use has on two things that 
everyone cares about: the environment and their pocketbooks. Energy use 
accounts for the overwhelming bulk of air pollution problems--problems 
that are linked to over 60,000 excess deaths per year due to direct 
causes such as cardiopulmonary disease. Energy production also 
contributes to water pollution and loss of environmental values such as 
wildlife protection and recreation.
    Energy also costs a lot of money, as virtually all consumers and 
businesses have become aware over the past year. Even before the recent 
jumps in energy price, our Nation's energy bill exceeded half a 
trillion dollars a year\1\--or 6 percent of GDP. This is much higher 
than is the case in other industrialized countries, so energy is a 
competitive drag on the U.S. economy as well as harming household 
budgets and reducing the bottom line of energy-consuming businesses.
---------------------------------------------------------------------------
    \1\ Energy Information Administration's ``Energy Overview'' data 
for 1997 show $567 billion spent nationwide for energy, while GDP was 
about $8.5 billion.
---------------------------------------------------------------------------
    NRDC believes, and we hope members of the committee agree, that the 
overwhelming purpose of national energy policy should be to minimize 
the costs of energy services--both direct costs to consumers and costs 
to the environment--while providing reliably for the energy service 
needs of the growing economy.
    Energy services are qualities like warm buildings in the winter, 
good lighting in buildings, access to where people want to go in a 
comfortable manner, and production of consumer and industrial goods. 
The sole purpose of energy use is to provide energy services--no one 
enjoys energy use for its own sake.
    Energy efficiency means providing the same or better energy 
services for less energy consumption and cost. Optimum levels of energy 
efficiency maximize consumers' and businesses' well being. In theory, 
the market encourages everyone to optimize energy efficiency. But in 
practice, an overwhelming array of market failures and market barriers 
has prevented the economically attractive level of energy efficiency 
from occurring naturally: after nearly 30 years of analysis of all 
sectors in the economy, there is virtually no evidence of any use of 
energy ever having been optimized without policy intervention.
    How far can we go with energy efficiency? Prior to 1973, energy use 
was growing in parallel with economic output (GDP). Many analysts 
predicted that this trend would inevitably persist in the future, and 
numerous forecasts of future energy needs were made based on this 
premise. In fact, due to energy policy activities at the State, 
regional, and Federal levels, and with some small boost from energy 
price spikes, energy use per unit of economic output began to decrease 
after 1973, and is now 42 percent lower than it was at the first energy 
crisis. About three quarters of this decline is attributable to energy 
efficiency improvements.\2\
---------------------------------------------------------------------------
    \2\ American Council for an Energy Efficient Economy, Fact Sheet on 
Energy Efficiency Progress and Potential, 2001.
---------------------------------------------------------------------------
    Additional improvements in energy efficiency beyond the national 
average occurred in States where strong policy efforts were expended. 
In California, electricity intensity, which was already 28 percent 
below national average in 1975, had declined further to 46 percent 
below by 1998.\3\ Had this not occurred, California's power crisis of 
the past two summers would have been far worse.
---------------------------------------------------------------------------
    \3\ Source: A.H. Rosenfeld. Testimony Before California State 
Committee on Environmental Quality.
---------------------------------------------------------------------------
    One of the best examples of how innovative policies have reduced 
demand for energy is in refrigerators. In the mid-1970s, the 
refrigerator was the largest single user of electricity in the home, 
and aggregate use of electricity for home refrigerators was growing at 
an annual rate of 9.5 percent.
    If this growth rate had continued up to the present, as DOE and 
most utilities and their State regulators were expecting at the time, 
peak demand by refrigerators today would be about 150,000 MW, that's 
about one-fourth of today's electric capacity for the Nation.
    Instead, as a result of State and Federal energy policies, 
including research and development, economic incentives, and six 
iterations of efficiency standards, the actual level of peak demand 
will be about 15,000 MW when the refrigerator stock turns over. The 
difference between actual demand and forecast exceeds the capacity of 
all U.S. nuclear power. Figure 1 shows the trend of growth and then 
decline in energy use per refrigerator after World War II.\4\
---------------------------------------------------------------------------
    \4\ Exponential extrapolation of past trends was not an unrealistic 
assumption from either of two perspectives. First, in the mid-1970s, 
when the turnaround from growth to decline in energy consumption for 
refrigerators began, virtually every utility in the country, backed by 
their regulatory agencies and Department of Energy forecasters, was 
assuming that overall residential electricity use would continue to 
grow at about the same 9.5 percent rate as it had grown during the 
prior decades. The total growth in electricity consumption for 
refrigerators, considering increasing sales of the product, was also 
about 9.5 percent. Suggesting that this rate would come down in the 
future, as the author did, was highly controversial.
    Second, of the 6.1 percent annual growth in energy consumption per 
refrigerator, one-third of the increase was due to decreases in 
efficiency, apparently from cost-cutting, rather than from growth in 
size or features as shown in Figure 1 (both of which have tended to 
plateau since the 1970s).

[GRAPHIC] [TIFF OMITTED] 80649.004


    The most effective policies that have been implemented to improve 
energy efficiency are:
    <bullet> Efficiency standards for major users of energy, such as 
buildings, appliances, equipment, and automobiles.
    <bullet> Targeted incentives for more efficient technologies based 
on performance. These incentives have been administered primarily by 
utilities, although the State of Oregon has run a successful tax 
incentive program as well.
    <bullet> Education and outreach on energy efficiency, although 
educational programs have worked best when performed in the context of 
financial incentive programs.
    But these policies alone will not allow the Nation to reach a goal 
of minimizing the cost of energy services. Standards provide a floor 
for energy efficiency--they require manufacturers to use efficiency 
technologies that are well known and well understood and therefore can 
be employed by everyone. Incentive programs can encourage more 
significant improvements in energy efficiency, but they typically have 
been limited by the range of technologies that are already available on 
the marketplace. New innovative ideas that are hard for consumers to 
find or that have yet to be introduced by manufacturers cannot easily 
be acquired by incentives established on a State-by-State or regional 
level.
    Advanced levels of energy efficiency can only be achieved by making 
it worthwhile for manufacturers, vendors, retailers, and consumers all 
to benefit from the introduction of a new technology.
    That's why the incentives in your bill, Mr. Chairman, S. 207, are 
so critical to a comprehensive national energy policy. These types of 
incentives, provided through the tax system, offer a key missing piece 
of the solution to the problem of harnessing American ingenuity to 
improve energy efficiency.
    S. 207 provides tax incentives for energy efficiency in buildings. 
Buildings are an often-overlooked source of energy waste. They consume 
over a third of U.S. energy use and account for about a third of total 
air pollution in the United States--almost twice as much as cars. 
Energy use in buildings can be cut in half or better using cost-
effective technologies that are available to those consumers that are 
willing to look hard.
    But in practice most of those technologies simply are not options 
for energy users, whether consumers or businesses, because they are too 
hard to find. Economic incentives can cause the entire chain of 
production and consumption, from the manufacturer to the contractor or 
vendor to the consumer, to accept new technologies rapidly. In the few 
cases where utility programs have been consistent enough across the 
country and long-lasting enough, new products have been introduced that 
have become or will become the most common product in the marketplace, 
with reductions in energy use of 30 percent-60 percent.
    Examples include:
    <bullet> Refrigerators, where, as discussed previously, new 
products that are available this year consume less than a quarter of 
the energy of their smaller and less feature-laden counterparts 30 
years ago. The last step forward, fading 30 percent resulted from a 
coordinated incentive program, the Super Efficient Refrigerator Program 
(SERP), which was sponsored by utilities.
    <bullet> Clothes washers, where some 10 percent of the market now 
provides cleaner clothes at reduction in energy use of 60 percent or 
more. This gain in efficiency resulted from a program organized by the 
Consortium for Energy Efficiency (CEE) and supported by Energy Star. 
New standards adopted by DOE--and supported by the manufacturers--will 
bring all of the market to this level by 2007.
    <bullet> Fluorescent lighting systems, where new technologies that 
also will be required by manufacturer-supported Federal standards will 
reduce lighting energy consumption by 30 percent compared to mid-1970s 
practice while improving the performance of the lighting system.
    The policies embodied in S. 207 are built on success stories like 
these.
    Manufacturers have pointed out that in order to introduce new 
technologies that cost more and that are perceived to be risky, they 
need the assurance that the same product can be sold throughout the 
country and that the financial incentives will be available for enough 
time to make it worth investing in production. S. 207 does this by 
providing nationally uniform performance targets for buildings and 
equipment that will be eligible for tax incentives for 6 full years.
    When the public interest community first began discussions with 
your staff, Senator Smith, and with committee staff, over a year ago, 
we felt that the approach that has been embodied into S. 207 was simply 
good economic and environmental policy: a Government action that could 
promote economic growth and protect the environment at the same time. 
Subsequently, we have seen how this bill could be the major part of a 
solution to some very real economic and environmental problems 
associated with energy that have emerged over the past 2 years.
    Let's start with the problem of electric reliability. Not only in 
California and the West, but here in New Hampshire as well, we are 
facing the risk of electrical blackouts and/or excessively high 
electricity prices this summer and next. Regions that are confronting 
these problems are trying to move forward aggressively both on energy 
efficiency programs and on power plant construction. But the lead times 
for most actions on the supply side are far too long to provide a 
solution. And demand-side approaches attempted on a State-by-State 
level are much less effective than coordinated national activities.
    Here, S. 207 could be a critical piece of a national solution. Air 
conditioners, for example, represent about 30 percent of summertime 
peak electric loads. Air conditioners that use a third less power can 
be purchased today, but they are not produced in large enough 
quantities to make a difference to peak load. If incentives are made 
available, manufacturers could begin to mass-produce these products in 
a matter of months, not years. Mass production and increased 
competition for tax incentives will drive prices sharply lower, so the 
incentives will be self-sustaining in the long-term. And with 5 million 
air conditioners being sold every year, a sudden increase in energy 
efficiency could have a significant effect in balancing electricity 
supply and demand even after less than a year.
    Another peak power efficiency measure with a very short lead time 
is installing energy-efficient lighting systems--either new or 
retrofit--in commercial buildings. Some 15 percent of electrical peak 
power results from lighting in commercial buildings. Efficient 
installations, such as those NRDC designed and installed in our own 
four offices, can cut peak power demand by over two-thirds while 
improving lighting quality. Lighting systems are designed and installed 
with a lead time of months, so incentives for efficient lightings as 
provided in S. 207 could begin to mitigate electric reliability 
problems as soon as next summer.
    The second major new problem is the skyrocketing cost of natural 
gas, which caused heating bills throughout the country to increase last 
winter. Improved energy efficiency can cut gas use for the major uses--
heating and water heating--by 30 percent-50 percent. Much of this 
potential could be achieved in the short term, because water heaters 
need replacement about every 10 years, and are the second largest user 
of natural gas in a typical household (and largest gas user in 
households living in efficient homes or in warm areas).
    These types of quick-acting incentives help consumers in two 
different ways: first, they provide new choices that are not now 
available in practice for families and businesses that want to cut 
their own energy costs while obtaining tax relief. But they also help 
the non-participants, because reduced demand cuts prices for everyone.
    A comprehensive energy policy aimed at minimizing the cost and 
environmental impacts of providing energy services for a growing 
economy should, we believe, be a consensus goal. While we do not yet 
know what the full set of measures that would be contained in a 
national energy plan based on least-cost are, and thus, do not yet know 
the full range of policy measures that would be needed to achieve such 
a vision, it is evident that energy efficiency will play a more 
important role in the next 30 years as it has in the past 30, when it 
was the Nation's largest source of new energy.
    We also know that today's energy efficiency policies, relying 
primarily on efficiency regulations at the State and Federal levels and 
on regionally based economic incentives, are not sufficient to achieve 
the least-cost goal. At least one missing piece of the policy mix is 
the provision of long-term, nationally uniform incentives for quantum 
leaps forward in technology.
    The Smith Bill, S. 207, fills this gap for energy uses exceeding a 
third of the Nation's entire energy consumption, and an even higher 
fraction of its energy bill.
                               __________
   Statement of Tom Kelly, Ph.D., Director, Office of Sustainability 
                 Programs, University of New Hampshire
    I would like to thank you and your staff for the opportunity to 
testify at today's hearing. I last had the opportunity to speak to you 
on the general subject of technology and the environment at a 
roundtable on biotechnology and agriculture here in New Hampshire last 
fall. Today, as then, I speak to you not as an expert on technology of 
any type, but as an educator charged with integrating sustainability 
into all aspects of the University of New Hampshire. My testimony 
reflects the assumption that the key link between technological 
potential and sustainability is education and governance, or 
legislation.
    The role of sustainability at UNH is to collaborate with the rest 
of the university to ensure that all graduates develop the moral 
character and skills to advance sustainability in their civic and 
professional lives. At one level we think of sustainability as the 
balancing of economic viability with ecological health and human well 
being. But at a more fundamental level, we build our program on the 
premise that sustainability is about that which sustains us as human 
beings situated in a concrete and complex world where culture and 
nature are inseparable. In this view of sustainability, a strong sense 
of community identity and purpose grounded in a reasoned conception of 
``the good life'' are on equal footing with clean air and water and 
healthy, productive soils.
    I would like to offer an educator's perspective on the focus of 
today's hearing, innovative environmental technology, and respectfully 
suggest some specific legislative actions in support of innovative 
educational initiatives related to energy and technology. These 
examples envision university campuses brimming with alternatives to 
reckless consumption levels of non-renewable energy. Such a learning 
environment will advance the goal of balancing economic viability with 
ecological health and human well being for current and future 
generations through innovative educational initiatives related to 
energy and technology. These examples also reflect an institutional 
view of society in which the public good can only be achieved if each 
institution does its job: government governs, education educates.
    One of the fundamental jobs of education is to develop a historical 
consciousness or sense of history in all learners. The civic importance 
of this aspect of education's job is etched in stone on the face of the 
National Archives: ``What is past is Prologue.'' There are at least two 
ways to interpret this phrase. One is practical advice that individuals 
and institutions will act in the future as they have in the past. As an 
educator, I also view it as the kind of warning and expression of hope 
given to us by the philosopher George Santayana: ``those who ignore the 
past are condemned to repeat it.'' Santayana's guidance is full of 
possibilities because it proceeds from the premise that human beings 
have the ability to learn, which means the ability to distinguish good 
from evil and right from wrong in pursuit of the common good, and to 
act on those judgments.
    Now how does this bear on today's hearing? We all recognize that 
this is not the first time that we as a Nation have focused our 
attention on the need to consume less energy and the role of technology 
in achieving that goal. The oil shocks of the 1970s gave rise to a 
remarkable effort to harmonize the resources of government, education 
and a genuine entrepreneurial spirit in the area of renewable energy. 
Indeed, many of the technologies represented at today's hearing were 
the focus of intense experimentation in research and development as 
well as small-scale applications at that time. But as writers on this 
period of our history have noted, ``faith [in grassroots efforts to 
advance renewable energy] without capital was handicapped.'' 
Recognition of that political fact eventually led to the establishment 
of the Federal Solar Energy Research Institute (SERI). But the fact 
that we are here 25 years later still talking about the promise rather 
than the accomplishments of these technologies indicates that something 
went wrong. The fate of those efforts is well documented and is 
important to review carefully unless we want to be here in 2025 asking 
the same questions.
    A review of the history of those efforts teaches that technological 
potential to advance the public good can be blocked by economic 
interests working through the political process; or perhaps more 
starkly stated, by greed corrupting governance. This is hardly a 
provocative statement in our current culture of cynicism about 
politics, but it is and should be educationally provocative and should 
therefore excite a sense of urgency and resolve to ensure that 
education is doing its job.
    So where do we begin? From an educational perspective we begin with 
priorities and the way we frame the challenges we face and the means we 
employ to address them. With respect to innovative environmental 
technology we must shift the focus from consumers choice, efficiency, 
business and the economy to citizen participation, justice, governance 
and the polity. The economy is a subset of the polity, not the other 
way around. It is important to remember that the most powerful and 
effective force for sustaining the environmental foundation of human 
health and well being in the epoch of the oil shocks was not business, 
technology or the economy. The National Environmental Policy Act and 
the Clean Air and Clean Water Acts among many others resulted from 
engaged citizenship, not consumer choice; and this engaged citizenship 
was concerned with the knowledge of science and its moral application. 
Twenty-Five years later we have the luxury of questioning the continued 
effectiveness of such legislation, but only because it was successful.
    We also begin at home, which for the University of New Hampshire 
means our Durham Campus. Some 25 years ago an event known as the battle 
of Durham took place amidst the energy shocks. As in the case of 
Federal environmental legislation, it is because of engaged citizens, 
not satisfied consumers, that we today enjoy the Great Bay Estuary, one 
of the most unique estuarine habitats in the world that provides 
invaluable ecological services and a serene beauty that defines our 
sense of place. Were it not for the efforts of those citizens, we might 
have had one of the world's largest oil refineries rather than a 
Reserve protected with the help of Federal legislation. The Office of 
Sustainability Programs is working with many others on this campus and 
in the town of Durham to bring that story to life for all current and 
future members of this community.
    But notwithstanding that victory and the wonderful legacy of the 
Great Bay Estuary, there is a great deal of work left to do: as noted 
above, today's hearing is picking up a conversation that was 
interrupted by a lapse in education and governance over the last 25 
years. Toward that end, the University of New Hampshire established the 
Office of Sustainability Programs (OSP) in 1997 to develop a 
university-wide education program and projects that integrate 
sustainability practices across all facets of the university including 
teaching, research and public service.
    OSP collaborates with faculty, administrators, staff and students 
to link the emerging principles, science and institutional practices of 
sustainability to student and professional development. OSP sponsored 
projects link curriculum and research development, campus environmental 
practices and partnerships with local, regional and international 
communities. Project areas include initiatives in climate education; 
biodiversity education; food and society; and, culture and 
sustainability.
    The Climate Education Initiative, which relates most directly to 
today's hearing, includes projects addressing global change, 
transportation, energy and sustainable building design and construction 
standards. A sampling of current programs includes:
    <bullet> A unique general education course on Global Environmental 
Change in collaboration with UNH's Climate Change Research Center at 
the Institute for the Study of Earth, Oceans, and Space. Faculty and 
staff from across the university as well as external stakeholders are 
involved in teaching students about the complexities of global change. 
After studying the latest trends and findings in climate and earth 
system science, students undertake the ``search for sustainability'' in 
which they link science and public policy through negotiating 
greenhouse gas reduction policies at UNH in order to meet the goals of 
the Kyoto Protocol;
    <bullet> Developing a Transportation Demand Management Program 
(TDM) for the University in coordination with surrounding towns and 
agencies in the Seacoast region. The proposed TDM reduces air pollution 
and greenhouse gas emissions linked to global climate change by 
increasing access and mobility through public transportation and other 
alternative modes while reducing the number of single occupancy 
vehicles on campus and parking subsidies. Alternative modes include 
bicycle and pedestrian infrastructure such as the UNH Yellow Bike 
Cooperative, car and van pooling, as well as scheduling, affordable 
housing and telecommuting;
    <bullet> A Sustainable Building, Design and Construction Standards 
initiative that builds on existing university resources to support 
research, pilot projects professional development, and university 
standards. In addition to direct application on campus, the knowledge 
generated by this project is being shared with New Hampshire schools, 
State offices and professional associations;
    <bullet> The museum-quality ``Promise of the Sun,'' an interactive 
educational exhibit in UNH's Memorial Union Building that links a 
demonstration solar array on the roof of the student union to a 
panoramic exploration of the cultural, technological and political 
aspects of energy choices. The exhibit involves faculty from across the 
university representing disciplines such as mechanical engineering, 
classics, art history, history, environmental policy and space science 
and is seen by thousands of visitors daily.
    <bullet> Just last week we completed the first of its kind in the 
Nation greenhouse gas inventory for our campus. Through a partnership 
with the Portsmouth, New Hampshire-based non-profit Clean Air Cool 
Planet (CACP) we develop a methodology to complete an inventory of our 
campus emissions each year from 1990-2000. That methodology is already 
being shared with other campuses across the New England Region through 
our CACP collaboration. With the completion of the inventory, we now 
have the basis for setting emission targets and timelines and to 
develop and implement a strategic plan to meet those targets. This 
effort will involve all members of the UNH community under our Climate 
Education Initiative and will touch all parts of the university.
    I began this testimony with the assumption that the key link 
between technological potential and sustainability is education and 
governance. Based upon our work at UNH, I would like to offer some 
specific and practical examples of initiatives on this campus that 
could be supported through legislation that would make a significant 
contribution to our educational mission and therefore to the public 
good in the area of energy and environment. These examples integrate 
innovative environmental technology into the learning environment where 
direct experience can be gained by students, faculty, and all members 
of the university community. By linking these demonstration projects to 
teaching, research and public service activities, innovative 
technologies are placed in their political context where the public 
good can be protected and nurtured.
    1. Demonstration Fuel Cell/Gas Turbine Co-generation Project ($10 
million).--Support for the incremental cost of incorporating a 1 MW 
Fuel Cell into the university's proposed gas-turbine co-generation 
power plant. This demonstration project will support comparative study 
by undergraduate and graduate students in engineering, economics and 
public policy of the sustainability of Fuel Cell and Gas Turbine co-
generation technologies. Studies will also include capture and reuse 
strategies of the water byproduct of the Fuel Cell technology. Total 
cost of the 1 MW Fuel Cell and 9 MW Gas Turbine co-generation plant is 
$21 million.
    2. Community Alternative Energy Assessment ($300,000).--Support for 
a campus-wide alternative energy assessment that will identify high 
impact opportunities for employing a wide range of technologies to 
enhance energy efficiency. Examples include: co-generation, methane 
digesters, ice storage, fuel cells, and geo-thermal among others. 
Special consideration will be given to passive and active solar 
applications to address the structural disincentives that continue to 
retard the development of this crucial renewable energy source for 
sustainability. The assessment would serve as the next phase of a 
Climate Education Initiative greenhouse gas reduction program that has 
recently complete an inventory of UNH's greenhouse gas emissions each 
year from 1990-2000. In addition to identifying energy efficiency 
projects, the Community Alternative Energy Assessment will as a tool 
for development of a strategic plan to achieve emission reductions 
targets.
    3. Alternative Fuel Shuttle Vehicles ($150,000).--As part of its 
Transportation Demand Management Program, UNH will incorporate 3 small 
to medium size alternative fuel transit buses carrying 14-18 passengers 
into its shuttle system. The shuttles will transport community members 
and visitors from remote parking and the surrounding community as part 
of its shuttle system. In addition to educating riders about energy 
efficiency opportunities of alternative fuel vehicles, the shuttle 
system will reduce campus congestion and air contamination and provide 
students with case studies for analyzing the energy and air quality 
benefits of this new technology.
    4. Phase I Vehicle Fleet Upgrade Project ($1 million).--As part of 
its Climate Education Initiative, UNH would like to upgrade at least 50 
percent of its fleet to alternatively fueled vehicles over the next 5-
10 years. UNH has 248 vehicles in its fleet. Phase I target of this 
effort is to have 50 alternative fuel vehicles by 2005. This fleet 
upgrade would provide undergraduate and graduate students with case 
studies for analyzing the energy and air quality benefits of this new 
technology.
    5. Alternative Fuel Vehicles for Car Sharing Program ($75,000).--As 
part of its Transportation Demand Management (TDM) Program UNH will 
develop an alternative fuel car sharing program for the campus 
community. The proposed program would begin with 3 vehicles and would 
accomplish at lest three important objectives: (1) it would provide 
visibility as well as direct experience with alternative fuel vehicles 
for a wide range of faculty, staff and students; (2) the car share 
program would support TDM policy goals of reducing single occupancy 
vehicle trips to campus by ensuring the availability of emergency 
transportation and other unanticipated travel for faculty, staff and 
students that do not have cars on campus and (3) allow a wide range of 
faculty, staff and students to experience car sharing program's 
demonstrated ability to reduce individual demand for driving without a 
perceived loss of mobility.
    6. Sustainable School Design Institute ($5 million/$1 mill per year 
x5).--As part of the UNH Office of Sustainability Programs, the 
Sustainable School Design Institute will bring together leading 
professionals from the fields of architecture, engineering, 
occupational and public health, materials science, ecology and 
education to conduct research, teaching and outreach to the New 
Hampshire and New England communities, professional associations and 
businesses to ensure that our schools embody the best of sustainable 
design to provide healthy, productive learning environments.
    7. Methane Digester for Agricultural Energy Needs ($1 million).--
Demonstration project of converting dairy herd manure to methane gas as 
a fuel for power use that can reduce odor pollution and facilitate 
nutrient cycling and reduce dry matter for compost use. This technology 
will also facilitate research for concentrated liquid to be further 
broken down into dry matter for productive use as soil amendments. In 
conclusion, I would like to emphasize that technological potential, and 
particular technologies, are only part of a solution to the problems we 
face. Efficiency is a blind principle that tells us nothing about where 
we ought to be heading. For example, technology develops and interacts 
in an ecology: alternative fuel vehicles serving as part of a car-
sharing program that reduces demand for single occupancy vehicles makes 
perfect sense. Alternative fuel vehicles simply replacing less 
efficient single occupancy vehicles will continue to drive sprawl and 
other land use changes and settlement patterns that undermine 
sustainability. Our role as educators is to ensure that the full 
knowledge we have and develop of our concrete and complex world is 
applied to the judgments and actions we take in the area of energy and 
the environment.
    Again, I would like to express my sincere thanks to Senator Smith 
and the other members and staff of the Environment and Public Works 
Committee for the opportunity to testify.
 Statement of Cass Andary, Director, Regulatory Programs, Alliance of 
                     Automobile Manufacturers, Inc.
    Good Morning, my name is Cass Andary. I am Director of Regulatory 
Programs at the Alliance of Automobile Manufacturers. The Alliance is a 
trade association of 13 automobile manufacturers representing over 90 
percent of U.S. vehicle sales.
    The auto industry in the United States is proud of not only its 
contributions to advanced technology, but also to its contributions to 
the U.S. economy. In a recent report,\1\ researchers associated with 
the University of Michigan concluded that the automotive industry 
produces a higher level of output in the United States than any other 
single industry. Notably, U.S. motor vehicle output represented 3.7 
percent of the United States gross domestic product in 1999. Many of 
the jobs provided by the industry are high skill jobs paying well above 
industry average--the average job in the automotive manufacturing 
sector was compensated at a level 73 percent higher than the average 
U.S. job.
---------------------------------------------------------------------------
    \1\ Contribution of the Automotive Industry to the U.S. Economy in 
1998: The Nation and Its Fifty States. Prepared for the Alliance of 
Automobile Manufacturers, Inc. and the Association of International 
Automobile Manufacturers, Inc. by the Institute of Labor and Industrial 
Relations, University of Michigan, the Office for the Study of 
Automotive Transportation, University of Michigan Transportation 
Research Institute, and the Center for Automotive Research, 
Environmental Research Institute of Michigan.
---------------------------------------------------------------------------
    The motor vehicle industry is one of the most technologically 
advanced industries in the world. Our designers use state-of-the-art 
computer design, our manufacturing facilities are some of the most 
complex and technologically advanced in existence, and our vehicles are 
probably the most complex and advanced consumer product sold on the 
market today.
    The industry has reached levels of emission control and vehicle 
safety today never anticipated in the past using computer controlled 
fuel injection and advanced catalyst systems to control exhaust 
emissions. For safety, manufacturers have installed sophisticated air 
bag supplemental systems, collapsing steering wheels, seat belt 
pretensioners and many other advanced technologies to help save lives.
    However, our quest for even better vehicles never ends. Alliance 
members continue to push new technology to further improve the 
environmental footprint of our vehicles.
    First, let me point out how far we have come in controlling exhaust 
emissions from the traditional gasoline-fueled vehicle. For the new 
Federal emission standards that take effect in the 2004 model year, the 
industry will be meeting standards that represent a 99 percent control 
level for hydrocarbons and nitrogen oxides, the two main precursors to 
ozone or smog. Moreover, cars and light trucks will have to meet the 
same emission standards as part of these new regulations.
    Member companies of the Alliance have invested billions of dollars 
in research and development. These companies are working to bring 
cutting-edge technologies--alternative fuels, hybrid electric, electric 
and fuel cell vehicles--to the marketplace.
    Let me talk a bit about the new types of vehicles that the industry 
is busy working on today. The industry has long been active in 
exploring alternative fuels. Manufacturers make vehicles available that 
run on CNG and LPG, and others that can run on either gasoline or a 
mixture of fuel containing 85 percent ethanol.
    A new technology that has recently appeared on the market is a 
hybrid-electric vehicle. Both Toyota and Honda have a vehicle selling 
today, and Ford, GM and DaimlerChrysler have vehicles ready to 
introduce in the next few years. This technology combines both a 
traditional engine with electric motors and a small battery pack giving 
the vehicle two sources of power for the vehicle. Sophisticated 
computer control logic shuts off the engine when possible, letting the 
vehicle run in electric mode, and then restarts the engine when needed.
    We have also invested a lot of time and money in battery-powered 
electric vehicles (BEVs), mostly due to a regulatory requirement in 
California for these vehicles. The Alliance does not believe that 
battery-electric vehicles can ever become mainstream vehicles that 
would replace today's gasoline-fueled vehicle, but there may be market 
niches where some of the smaller BEVs can be sold.
    The entire industry is working feverishly to develop commercially 
viable vehicles powered by fuel cells. You will recall that fuel cells 
were used in the early U.S. space program. The industry is working hard 
to reduce the cost of the fuel cell while improving its performance so 
that it can replace the traditional gasoline-fueled engine we have 
today. Fuel cells offer the promise of zero emissions, with a vehicle 
that can also meet all other customer needs and expectations. Many 
manufacturers are part of the California Fuel Cell Partnership, along 
with the California Air Resources Board and a number of Federal 
agencies. This partnership is working hard to develop both fuel cell 
vehicles and the necessary fueling infrastructure.
    This industry is committed to continuing to push technology even 
further year by year, constantly improving the product, while 
continuing to meet the transportation needs of the public. We believe 
further that pursuing these goals should lead to consideration of more 
broadly defined programs (i.e., beyond the new vehicle transportation 
sector). All energy users and producers should be integrated in a 
comprehensive national energy strategy to achieve fuel savings with 
economic efficiency.
    In addition, we believe that the costs of more expensive 
technologies are a deterrent to the market. In order to expand the use 
of these advanced technologies, tax credits and incentives for advanced 
technology vehicles [and vehicles which demonstrate significantly 
higher efficiencies] are necessary. Such incentives will speed 
acceptance and promote market forces that will make advanced 
technologies less cost prohibitive.
    Finally, we observe that, as in all industries, both capital and 
human resources are finite, and are most efficiently deployed in 
response to market forces. Commitment schedules for capital spending, 
vehicle model renewals, and powertrain longevity can range from 5-10 
plus years. Over the past 10 years the industry has clearly 
demonstrated that when resources can be shifted from continual 
incremental regulatory compliance pressures, the industry can and will 
undertake major research and development programs aimed at significant 
long-term energy efficiency. Clear examples are the development of 
hybrid electric powertrains, and the continuing investment in fuel cell 
systems. The commitment to market-driven advanced technology 
development is clearly demonstrated by these programs, which have 
little potential to produce sufficient sales volumes to impact CAFE 
within the next 5-10 years.
    Thank you for the opportunity to speak today and I would be happy 
to answer any questions you may have.
                               __________
       Statement of Roy Gat, Ph.D., Advanced Electron Beams, Inc.
    Chairman James M. Jeffords, Senator Bob Smith, and Members of the 
Committee: Good afternoon esteemed Members of the U.S. Senate 
Committee, my name is Roy Gat. I come today to present a technology 
that will finally put an end to the familiar eye irritation and choking 
feeling we experience as clouds of poisonous gas exhausts from the bus 
or diesel truck just ahead of us.
                              introduction
    In Japan and China, powerful electron beams installed in power 
plants are utilized to convert tons of hazardous NO<INF>x</INF> and 
SO<INF>x</INF> emissions per day into useful fertilizers. Reductions of 
over 95 percent SO<INF>x</INF> and 80 percent NO<INF>x</INF> are 
achieved. Advanced Electron Beam Inc (AEB), Wilmington, MA developed a 
much smaller electron beam source. This source enables viable 
destruction of hazardous gases from smaller polluters collectively 
known as area polluters. Area polluters are those pollution sources 
that are too small or numerous to be inventoried individually. These 
polluters include diesel trucks, off road equipment, marine vessels, 
smaller boilers, heaters and turbines. These polluters together account 
for the vast majority of air pollution and have traditionally been the 
toughest challenge in the fight against air pollution. They are used in 
almost all industrial and consumer sectors including power generation, 
heating, transportation, cement, glass, steel, copper, paper 
manufacturing, hospitals, schools and homes. An important advantage of 
electron beam technology is that it simultaneously reduces 
NO<INF>x</INF>, SO<INF>x</INF> and VOC compounds, thereby eliminating 
the precursors of smog and acid rain. If adopted, the positive impact 
of this technology on our environment and quality of life would be 
dramatic and long lasting. I will briefly describe the technology, the 
impact of its adoption on air pollution and the possible government 
role in accelerating its acceptance.
                             the technology
    In the early 1940s, microwave generators were very bulky and 
expensive. They were exclusively used in military radars. In the mid 
1940s, Dr. Spencer of Raytheon developed a magnetron tube that made 
possible a much more compact microwave generator. The results of this 
invention are well known and spectacular. The smaller size and price 
tag enabled the application of microwaves in a broad array of 
industrial and consumer uses from cooking to semiconductor 
manufacturing.
    Electron beams are well known to science to be an energy efficient 
technique to destroy NO<INF>x</INF>, SO<INF>x</INF>, and VOC's 
pollutants. Traditionally, generation of electron beams requires bulky 
and expensive equipment. This equipment is notoriously hard to maintain 
and operate, requiring energy guzzling pumps and technicians highly 
trained in ultrahigh vacuum, and high voltage technologies. Thus far, 
electron beams have been limited to reducing pollution from large power 
plants where the high capital equipment costs of the systems can be 
averaged over very high throughputs.
    In contrast, AEB developed an electron beam tube that is smaller, 
affordable and requires no pumping or maintenance in the field. Tube 
replacement requires about as much expertise as replacing a light bulb. 
In analogy to the invention of the compact microwave generator, AEB's 
electron beam product enables cost effective effluent reduction for 
area polluters.
                          environmental impact
    Using only 1 percent of the polluters energy output to power the 
electron beam results in reduction of 95 percent in SO<INF>x</INF> 
emissions and 80 percent in NO<INF>x</INF> emissions. Concurrent 
reductions in VOC's also occur and vary in amount depending on the 
chemical species. Values of over 90 percent have been measured for TCE.
    For example, the NO<INF>x</INF> and SO<INF>x</INF> emission from a 
diesel truck will be mostly eliminated by an electron beam device. 
There will be approximately 1 percent reduction in the truck gas 
mileage.
    Area sources comprise 65 percent of all NO<INF>x</INF> emission in 
the USA. Broad application of electron beam technology would result in 
a reduction of approximately 12,000,000 tons/yr of NO<INF>x</INF> and 
2,000,000 tons/yr of SO<INF>x</INF>. According to EPA analysis, in the 
case of diesel fuel related pollution alone, this magnitude reduction 
in SO<INF>x</INF> is equivalent to removing 13,000,000 trucks off the 
roads saving 8,000 lives, and preventing 360,000 asthma attacks.
                        regulatory implications
    The Senate can accelerate reduction of harmful pollutants by 
requiring the EPA to review electron beam cost effectiveness 
specifically in the reduction of NO<INF>x</INF>, SO<INF>x</INF> and 
VOCs from area polluters. Electron beam technology has not yet been 
evaluated by the EPA and yet electron beams are a formidable weapon in 
the fight against pollution.
    The costs of ownership of the electron beam technology are limited 
to capital costs and maintenance costs. The maintenance costs are small 
and could be partially offset by sales of fertilizer produced by the 
NO<INF>x</INF> and SO<INF>x</INF> reduction reactions. The government 
can propel the implementation of this technology by providing tax 
credits for the first year of purchase of electron beam systems. The 
credits will help increase initial demand for the systems so that mass 
production of these systems becomes viable faster. This tax credit will 
therefore leverage accelerated pollution control and the resulting 
important health and environmental benefits.
                               __________
    Statement of Filson H. Glanz, Professor Emeritus of Electrical 
                Engineering, University of New Hampshire
    There is so much that we could be doing to relieve our energy 
problems; and we will in the future undoubtedly be much harder pressed 
than we are now. When a billion or so Chinese start driving 
automobiles, the demand for increasingly scarce oil will drive the 
price well beyond today's high prices. Using more oil and coal are 
environmentally destructive and only temporary solutions. We, as a 
Nation, must do all the research we can to improve energy efficiency, 
come up with sustainable energy sources (such as solar, wind, ocean 
wave, bio fuel, etc.) and innovative technologies that use these 
sources. It makes no sense to cut back research funds for these types 
of energy programs as the President's budget calls for. If we had put 
as much into these renewable technologies as we have put into tax 
breaks and subsidies for coal and oil, we would now be benefiting from 
their use.
    There was at the hearing some discussion of short term and long-
term energy needs and the different approaches needed to solve both 
types. This is clearly the case. But all long-term energy needs become 
short-term needs if inappropriate solutions are followed. I well 
remember, as most of you surely do also, the 1974 embargo on oil and 
the problems we faced then. We made some amazing progress toward energy 
efficiency and alternative energy in the years thereafter. 
Unfortunately, about 1980 a new Administration killed the programs 
spawned by this emergency and since the problem was past, all memory 
was lost. But if, for example, we had put in appropriate national 
building regulations at that time, our energy dependency on foreign oil 
would be considerably different.
    Even in New Hampshire a building with some thermal mass and the 
correct solar orientation and fenestration would use less than half the 
energy of a standard equivalent building. This is well documented. And 
the cost is almost the same.
    The large number of new homes and buildings constructed since say 
1980, and the fact that most places in the United States could save 
well more than 50 percent on heating energy, means that we could be 
saving great amounts of energy with the nice consequence that heating 
bills would be lower, the air cleaner and our oil dependency much less. 
Add to this that if CAFE standards had been followed as originally 
intended--our total energy picture would be very rosy! It is my belief 
that the American people and history should hold administrations and 
public officials accountable for NOT planning consistently for future 
energy independence! But at least we have to opportunity right now to 
start preparing for the long term (which will be short term soon 
enough!). Many of the technologies discussed in the hearing do just 
that. But other technologies can also contribute such as passive solar 
heating of space, solar heating of water, day lighting of buildings, 
natural convective cooling, and so forth, all of which are well 
understood and economically beneficial besides being environmentally 
beneficial. But they need exposure to everyday Americans by public 
officials.
    In summary, we cannot afford to ignore the environmental and energy 
problems that we have created by our lack of public resolve. We must 
solve them in a way that leaves our future generations a livable 
country/world and the resources they will need to have a healthy and 
satisfying life.
    Thank you for the opportunity to submit this statement.
                               __________
Statement of Rone Lewis III, Senior Vice President, Ingersoll-Rand (IR) 
             and President of IR's Independent Power Sector
    Thank you for giving me the opportunity to submit for the Senate 
Environment and Public Works hearing record my testimony on the role of 
microturbine technology and distributed power generation in addressing 
America's growing energy crisis.
    First, let me begin by giving you some background information on 
Ingersoll-Rand and its Independent Power Sector. Ingersoll-Rand is an 
$8.8 billion company with more than 50,000 employees operating in over 
100 countries. We serve four major global markets: climate control, 
industrial productivity, infrastructure and security and safety. In the 
area of Industrial Productivity, I am President of IR's Independent 
Power sector, which focuses on identifying, developing and marketing 
alternative-power and energy-management solutions.
    As you may be aware, Chairman Smith and Members of the committee, a 
new type of electrical generator, called a microturbine, is rapidly 
becoming available to fit the electricity and heating needs of typical 
commercial buildings and industrial plants. About the size of a 
commercial refrigerator, microturbines hold great promise in supplying 
America's facilities with reliable and affordable power.
    Microturbines are small combustion turbines that produce anywhere 
from 25 to 500 kilowatts of electric power. They burn a variety of 
fuels such as natural gas or diesel to produce the same kind of 
electricity provided by a utility electrical grid. Because the gas 
turbine engine has relatively few moving parts, it is quite reliable 
and can operate for long periods--typically 8,000 hours or more--with 
little maintenance. Microturbines produce very low emissions as they 
burn fuel. They are designed to easily meet stringent environmental 
regulations, including California's strict emission standards. 
Microturbines are also relatively quiet emitting low noise levels.
    Our PowerWorks brand of microturbines, which has been in 
development for more than 10 years, is coming to market this fall. The 
headquarters for the engineering and manufacturing of the PowerWorks 
microturbine is located in Portsmouth, NH, on the former Pease Air 
Force Base.
    These microturbines, which will provide 70 kilowatts of energy to 
customers, are designed to be placed in or near facilities such as 
hotels, supermarkets, hospitals, laundries, multi-family dwellings, 
schools and greenhouses, to name a few. These are locations that need a 
reliable, cost-effective and efficient energy source for electricity 
and heat.
    A $1.4 million research grant from the U.S. Department of Energy 
contributed to the development of the PowerWorks microturbine, which is 
designed to meet the same high standards found in chillers, boilers and 
furnaces. Our microturbines are manufactured to operate for 
approximately 10 years under typical operating conditions. Through 
their cogeneration capability, the PowerWorks microturbines can also 
fulfill a facility's hot water and other heating requirements.
    PowerWorks connects directly to the electrical distribution system 
of a facility to provide high quality electricity. Our microturbines 
work 24 hours a day, 7 days a week for long periods with low 
maintenance. Designed to help satisfy electric power needs by producing 
electricity at the point of consumption, the PowerWorks microturbine 
also supports peak shaving applications. This means that microturbines 
can enable businesses and consumers to reduce their reliance on the 
power grid, especially during costly peak use hours.
    IR began the field-testing phase of its microturbine development 
program last fall in several kinds of facilities located throughout the 
United States. We plan to introduce our first commercial production 
units in the second half of 2001.
    There is no argument that this country's need for this type of 
energy is increasing at a steady rate. California's energy crisis 
underscores the need for increased energy efficiency, cleaner 
technologies and more reliable production. Deregulation, volatile 
energy pricing and tighter emission regulations have all prompted an 
interest in energy alternatives, such as ``green'' technologies like 
the microturbines. And there is probably no better way to get reliable 
and affordable energy than from your own, onsite generating equipment.
    Distributed energy holds great promise in the United States for 
improving the generation of electricity. The report released recently 
by Vice President Dick Cheney's energy task force revealed that this 
Administration is committed to the use of renewable and alternative 
energy, and specifically that ``microturbines could easily capture a 
significant share of the distributed generation market.''
    Furthermore, the Cheney Report was absolutely accurate in noting 
several challenges to the use of distributed energy. First, there is a 
lack of national, uniform standards governing interconnection of 
distributed energy to the local power grids, which is hampering the 
roll-out of the technology into the local marketplace. The microturbine 
industry needs a consistent, reliable process for grid interconnection 
approval that focuses on practical and cost effective safety 
requirements; a timely approval process that prevents foot dragging on 
distributed power projects; and no punitive charges from the utility 
for either disconnecting from the grid or using the grid as a backup. 
The industry is also interested in support for selling unused power 
back to the power grid.
    Long-standing regulatory policies that support monopoly supplies 
also must be reversed. This will increase competition, and encourage 
the development and environmentally friendly alternative energy 
technologies. The Cheney Report correctly states, ``The tools that form 
the necessary interface between distributed energy systems and the grid 
need to be less expensive, faster, more reliable and more compact.''
    We are pleased that the report recommends that the President direct 
Energy Secretary Abraham to focus R&D efforts on integrating current 
alternative technology programs regarding distributed energy, hydrogen 
and fuel cells. Fuel cell technology is of particular interest to IR 
because several of our industrial products currently utilize diesel 
engines. Fuel cell technology promises a more environmentally sound 
alternative and continued Federal research programs can accelerate the 
development of these programs.
    All developers of microturbine technology would be interested in 
congressional and Administration support for tax credits for companies 
who install or use microturbine technology. Tax credits are essential 
to helping businesses finance their utilization of this technology, 
just as they have with other alternative energy sources, such as solar 
power. In addition, continued investment in our nation's natural gas 
infrastructure will help to ensure that a ready supply of natural gas 
is available.
    We look forward to working with the Senate Environment and Public 
Works Committee, the rest of the Congress, and the Bush Administration 
to develop the necessary regulatory and legislative support that would 
make power from microturbine technology more readily available. We 
believe that once the technical, business and regulatory barriers are 
removed, distributed power generation will be able to fulfill its 
promise to America.
    Thank you.
                               __________
                           Public Service of New Hampshire,
                                                     June 11, 2001.
Hon. Bob Smith,
U.S. Senate,
Washington, DC.
    Dear Senator Smith: Representatives of Public Service of New 
Hampshire recently attended the U.S. Senate Environment and Public 
Works Committee's field hearing which you hosted in Durham, New 
Hampshire on innovative environmental and energy technologies. PSNH 
appreciates the opportunity to attend such an informative and 
interesting hearing in New Hampshire. On behalf of PSNH, I would like 
to submit the following comments for your consideration.
    As you know, PSNH owns and operates three fossil-fuel electric 
generation facilities in New Hampshire. During the last decade, PSNH 
has spent more than $100 million on environmental initiatives and has 
substantially reduced emissions from its fossil-fuel generating 
stations. In a continuing effort to further economically reduce 
emissions, PSNH is paying close attention to the development of several 
innovative environmental technologies, among them Power Span's Electro-
Catalytic Oxidation (ECO).
    Power Span's ECO technology is in a research/development/test mode 
and, if proven to be feasible, has some promise to achieve substantial 
emissions reductions from coal-fired electric generation facilities. 
Power Span's projection is for ECO to be a very cost effective solution 
to the multi-pollutant question. If proven true, ECO would be a 
welcomed new technology in the utility industry. However, neither the 
first pilot project conducted at FirstEnergy's R.E. Burger plant nor 
the second demonstration scheduled to be completed at FirstEnergy's 
Eastlake plant are full scale demonstration projects. Both of these 
trials involve a limited quantity ``slip stream'' and control emissions 
from only a small portion of the total boiler flue gas. PSNH 
understands that testing of new, unproven, innovative technology 
typically is done in stages, however, we believe that the satisfactory 
full scale operation of control technology is important prior to that 
technology being considered ``commercially available'' and a feasible 
technology for the industry at large. PSNH remains interested in seeing 
a full scale testing of the ECO to demonstrate its feasibility before 
it is considered an industry standard.
    PSNH is encouraged that new emission control technologies are being 
explored and is hopeful that full scale test results will match the 
initial results of the ECO trial as reported by Power Span. PSNH is 
also encouraged by the findings of EPA's 1999 Information Collection 
Request which indicate that reductions in mercury emissions are being 
achieved by existing control technologies currently in operation at 
coal-fired electric generating facilities. PSNH believes that 
additional data gathering and analysis of mercury emissions would be 
beneficial prior to the implementation of emissions reduction 
regulations. Last, we feel future regulatory programs should be 
flexible enough to allow utilities to utilize a combination of existing 
technologies, and/or innovative technologies, as well as robust market-
based economic incentive programs to achieve the greatest emissions 
reductions. PSNH is strongly in favor of market-based trading programs 
in that they economically achieve real reductions.
    PSNH also believes that the continued Federal funding of innovative 
emission control technologies and demonstration projects is crucial. 
This funding is especially important considering that, in many 
instances, forward looking environmental regulations are adopted and 
implementation schedules are established based on the promise of 
developing, unproven technologies. A critical success factor lies in 
commercial viability and availability of these technologies to the 
utility industry. PSNH urges that the compliance deadlines established 
under new emissions reductions requirements be at reasonable future 
dates such that developing technologies can be perfected and proven in 
full-scale commercial applications, for the benefit of all.
    Thank you for conducting a field hearing in New Hampshire and 
providing PSNH with the opportunity to comment on this important issue. 
I appreciate your continued interest and efforts relative to energy and 
environmental issues.
            Sincerely,
                                                 Gary Long,
                             President and Chief Operating Officer.
                               __________
 Briefing Papers Submitted by Dr. Theodore C. Loder III, Institute for 
   the Study of Earth, Oceans, and Space, University of New Hampshire
   ``OUTSIDE-THE-BOX'' Technologies, Their Critical Role Concerning 
        Environmental Trends, and the Unnecessary Energy Crisis
                       Background to the Briefing
                               the issues
    Our present methods for solving current environmental problems are 
only partially working, because they attempt to solve the result of a 
problem and not get to the root causes of why a particular problem has 
occurred. Most of our problems stem from energy issues and our 
tremendous dependence upon fossil fuels, especially in the 
transportation and power generation sectors. In addition, increasing 
populations worldwide and the desires of Second and Third World 
countries to obtain what we in the United States take for granted 
spells increasing worldwide environmental problems coupled with 
significantly increased oil/gas prices. In summary, the risks 
associated with our present course are ever-increased environmental 
degradation coupled with a significant long lasting economic downturn, 
recession or depression.
    As a world community, we must realize that we will need the last 
remaining decades of fossil fuels to create and integrate new energy 
sources without losing the momentum of our developing world society. In 
10-20 years from now, we have to be at a point in our global 
development where we are no longer dependant on fossil fuels for our 
energy generation and we want to arrive there by a route that does not 
create global environmental and economic chaos.
             the purpose of this briefing was to show that:
    1. We have growing environmental problems that will have major 
economic impacts.
    2. There are technologies, presently being repressed, that are real 
and could replace the present fossil fuel usage with the appropriate 
investment in research necessary to bring them on line.
    3. There are scientists ready to testify at a Senate hearing on the 
realities of these issues.
    4. The need to move ahead is very urgent because the time necessary 
to implement the use of these technologies may take the better part of 
this decade and neither the environment nor the economics of fossil 
fuels can wait any longer.
    The goal is not to push any specific type of technology that will 
``save the world'', but to convince those attending that there is a 
whole set of new technologies that are waiting in the wings which will 
change the way we live on this planet for the better.
   the briefing presenters and topics covered included the following:
    Dr. Theodore Loder, Convener and overview of the issues and urgency
    Dr. Steven Greer, Implications of the implementation of non-
polluting free-energy devices
    Mr. Thomas Valone, Present energy issues, energy devices and patent 
office issues
    Dr. Paul LaViolette, Physics reassessment and anti-gravity research
    Dr. Scott Chubb, Cold fusion, scientific responsibility
    Dr. Eugene Mallove, Cold fusion, scientific response and patent 
office issues
    Dr. Thomas Bearden, Physics reassessment, the world energy crisis, 
and ``free energy device'' technology
                                 ______
                                 
``Comparative Risk Issues'' Regarding Present and Future Environmental 
             Trends.--Why We Need to be Looking Ahead Now!
                        (By: Dr. Theodore Loder)
                              introduction
    Fundamentally, our present methods for solving current 
environmental problems are only partially working, because for the most 
part they attempt to solve the result of a problem and not get to the 
root causes of why we have a particular problem in the first place. It 
is somewhat akin to mopping the floor to fix a leaky roof. Most of our 
problems stem from energy issues and our tremendous dependence upon 
fossil fuels, especially in the transportation and power generation 
sectors. For example, the acid rain problem, unhealthy urban 
atmospheres, and global warming all arise from this fossil fuel 
dependence. The present MTBE crisis affecting our water supplies is the 
result of a well-intentioned attempt to reduce air pollution in 
gasoline engines. Each of these issues will continue to have a greater 
and greater economic impact on our country through increased cleanup 
and health costs.
Why our present course is inadequate--An example from the automotive 
        sector
    A simple analysis of numbers from the automotive sector tells us 
why we will continue to have problems (both in the United States and 
worldwide) and why small percentage increases in fuel efficiency will 
have little real effect in the long run. Increasing populations 
worldwide and the desires of Second and Third World countries to have 
what we in the United States take for granted spells continuously 
increasing environmental problems. For example, by the late 1990s there 
were about 500 million cars worldwide with an annual production of a 
little less than 40 million. At the present rate of growth, there will 
be about 1 billion vehicles worldwide by the year 2025. Presently there 
is about one car per 12 people on a global basis and about 1 car per 
1.3 people in the United States. Why is this a long-range problem?
    As the result of increased global wealth and desire for automobiles 
worldwide, no matter what we do to improve efficiency, increases in 
carbon dioxide from this source will continue with its attendant global 
warming,\1\ etc. Hybrid automobiles could help, but we must look at a 
second set of numbers from the United States to understand impacts. 
There are over 200 million automobiles in the United States and we 
manufacture approximately 20 million per year. Because of the 
``replacement lag,'' it would take 10-15 years to replace existing 
cars, especially since some production goes toward increasing the pool. 
Furthermore, there is a phase-in period for any new technology, the 
time needed to go from development to manufacturing to sales. This will 
add years to the replacement cycle. Thus, even if we start today, 
implementation of a totally non-polluting technology useful for 
transportation would take the United States circa 15 years to replace 
our present fleet. It could occur faster in Third World countries 
because of the technology leapfrog phenomenon.
---------------------------------------------------------------------------
    \1\ A Rocky Mountain Institute report published on their website at 
http://www.rmi.org/sitepages/pid124.asp) states:
    Depending on which study you read, 1999 was either the fifth or the 
sixth warmest on record globally (1998 was the all-time warmest). Seven 
of the ten warmest years since recordkeeping began were in the 1990s, 
and analysis of tree rings, ice cores, and so on suggests that the 
decade was the warmest of the millennium. A January 2000 National 
Academy of Sciences study concluded that ``the warming trend in global-
surface temperature observations during the past 20 years is 
undoubtedly real and is substantially greater than the average rate of 
warming during the 20th century.''
---------------------------------------------------------------------------
    We have similar problems with power generation in the United 
States. We have dammed most easily dammable rivers and there is even a 
movement to remove some of the dams. Furthermore, it is presently 
nearly impossible to build more nuclear power plants and we are 
starting to shut some of them down. Changing any of this infrastructure 
could take one to two decades as well.
    In a world where our petroleum supplies will become scarcer and 
more expensive within a few decades or less, we need to start our 
planning and acting now.
Where we are heading and the risks of our present course
    Under our present direction we are increasing fossil fuel 
consumption and commensurate carbon dioxide release at an ever 
increasing rate. The risks associated with our present course are both 
environmental and economic. There will be seriously increased 
degradation of our environment including increased loss of plant and 
animal species, increased habitat loss such as rainforests and coral 
reefs, increased human suffering through disease and lowering of life 
quality, increased global warming\1\ causing major problems through 
climate pattern changes and sea level rise with commensurate loss of 
high valued coastal real estate. The trends for all these changes can 
observed today and all have varying degrees of economic impact. 
However, a more direct economic impact, which will be felt by everyone, 
is the ultimate decline of ``cheap oil.''
    Gregg Esterbrook, in a recent article \2\ discusses the world's 
estimated oil reserves. Based on industry estimates, he suggests that 
there are estimated ``proven reserves'' of 1,000 billion barrels of oil 
which only represents a 25-year supply at our present rate of 
consumption with its 2 percent annual increase. He states, ``Whatever 
number is correct, the world has decades of oil ahead. What it may not 
have is decades of cheap oil. Once the production peak comes and 
reserve levels begin to dwindle, the supply/demand equation may shift 
quickly toward higher prices. The debate, then, centers on how soon the 
peak will be reached.'' Estimates are that the peak will be reached by 
2010. At present, the global oil trade depends on OPEC for about 42 
percent of its oil consumption which could hit 50 percent by 2009. If 
OPEC's reserves turn out to be inflated as some in the industry 
believe, then the world oil production peak may occur much sooner with 
a subsequent sharp hike in prices. This is just barely within our 
timeframework for introducing new technologies if we start now.
---------------------------------------------------------------------------
    \2\ Esterbrook, Gregg. Hooray for Expensive Oil! Opportunity cost. 
New Republic (May 15, 2000), p. 21-25.
---------------------------------------------------------------------------
    Finally, Esterbrook states, ``. . . America has two basic choices: 
Begin investing in new energy forms, staying a step ahead of OPEC and 
smoothing the likely transition, or wait till the next crunch hits and 
accept another oil-induced recession.''
    It should be obvious that an essentially permanent hike in oil 
prices will have a major economic impact on our country, a country 
where 98 percent of food is based on fossil fuels and the average food 
travels 1700 miles to the consumer. The slight rise in fuel costs last 
winter and the problems truckers had with fuel costs and homeowners had 
with heating oil costs are just a glimpse at the issues leading to a 
major economic turn down. The ``gas crisis'' in Europe this summer is 
also an indicator that these problems are not limited to the United 
States.
    One can describe our present situation as if the environment and 
the world's population were in a barrel on the river heading toward 
Niagara Falls. We are starting to hear the roar, but have no idea when 
we will get to the edge. With some major rescue efforts we can be 
saved, but there will be a point of no return and no one can tell us 
when that will be.
    In summary, the risks associated with our present course are ever-
increased environmental degradation coupled with a significant long 
lasting economic downturn, recession or depression.
    As the old Chinese proverb states, ``If we do not change direction, 
we will likely end up where we are heading.'' A simple look at the 
numbers story tells us that we must change direction dramatically, with 
vision and conviction.
    As a world community, we must realize that we will need the last 
remaining decades of fossil fuels to create and integrate new energy 
sources without losing the momentum of our developing world society. 
Because the United States is a major user of energy per capita and we 
affect environmental issues by both example and laws, we must lead on 
these issues.
Where do we want to be in 20-30 years from now as a country and a 
        world?
    We want to be at a point in our global development where we are no 
longer dependant on fossil fuels for our energy generation and we want 
to arrive there by a route that does not create global environmental 
and economic chaos.
 How do we get there from here?
    Because of the long development, manufacturing and replacement 
times needed to replace our present infrastructure we need to start 
now. A leading energy intelligence analyst, retired Army Lt. Col. Tom 
Bearden wrote me stating that there will be a ``point of no return'' by 
about 2003-2005, after which there will be world economic collapse 5 
years later when the escalating oil prices have gone through the roof. 
He is suggesting that we must have replacement technologies on line on 
a very short time scale.
    Proposed Step One. Hold a Senate hearing to get the ball rolling. 
This will show us that there is a major problem looming on the near 
horizon and the witnesses we have will testify to the fact that there 
are presently a set of technologies that can help resolve them on a 
relatively short time scale.
    Proposed Step Two. Once the hearing is held then we move to an 
action step. As stated by Lt. Col. Bearden on this subject: In short 
the solution to the energy crisis is solvable, permanently, in a rather 
straightforward fashion. We need a fine scientific team and a set of 
laboratories, working on it in a Manhattan style project, and in 3 
years the systems will be ready to roll of the mass assembly lines. 
This may need a Presidential Decision Directive and a National 
Emergency so the project can utilize whatever is available for quick 
development. He may or may not be overly optimistic at this point.
What if we do not act now?
    Again Lt. Col. Bearden's comments: ``Make no mistake. This is the 
most deadly and certain strategic threat to the United States and the 
rest of the world, in all my experience. If we do not solve this energy 
problem, and deploy it very, very quickly with a massive effort, then 
we will overrun the 2003 ``point of no return'' and, just as an 
airplane does when it overruns the point of no return on the runway, 
this Nation will be heading for a total crash, as surely as the sun 
will rise tomorrow. Yet everywhere one looks, one sees ``business as 
usual,'' ``trust us, we know best''. . . .
                               __________
New Energy Solutions And Implications For The National Security And The 
           Environment: A Brief Overview for the U.S. Senate
                       (By: Dr. Steven M. Greer)
    The ultimate national security issue is intimately linked to the 
pressing environmental crisis facing the world today: The question of 
whether humanity can continue as a technologically advanced 
civilization.
    Fossil fuels and the internal combustion engine are non-sustainable 
both environmentally and economically--and a replacement for both 
already exists. The question is not whether we will transition to a new 
post-fossil fuel economy, but when and how. The environmental, 
economic, geopolitical, national security and military issues related 
to this matter are profound and inextricably linked to one another.
    The disclosure of such new energy technologies will have far-
reaching implications for every aspect of human society and the time 
has come to prepare for such an event. For if such technologies were 
announced today, it would take at least 10-20 years for their 
widespread application to be effected. This is approximately how much 
time we have before global economic chaos begins due to demand far 
exceeding the supply of oil and environmental decay becomes exponential 
and catastrophic.
    We have found that the technologies to replace fossil fuel usage 
already exist and need to be exploited and applied immediately to avert 
a serious global economic, geopolitical and environmental crisis in the 
not-so-distant future.
    In summary, these technologies fall into the following broad 
categories:
    <bullet> Quantum vacuum/zero point field energy access systems and 
related advances in electromagnetic theory and applications
    <bullet> Electrogravitic and magnetogravitic energy and propulsion
    <bullet> Room temperature nuclear effects
    <bullet> Electrochemical and related advances to internal 
combustion systems which achieve near zero emissions and very high 
efficiency
    A number of practical applications using such technologies have 
been developed over the past several decades, but such breakthroughs 
have been either ignored due to their unconventional nature--or have 
been classified and suppressed due to national security, military 
interests and ``special'' interests.
    Let us be clear: the question is not whether such systems exist and 
can be viable replacements for fossil fuels. The question is whether we 
have the courage to allow such a transformation in world society to 
occur.
    Such technologies--especially those which bypass the need to use an 
external fuel source such as oil or coal--would have obvious and 
beneficial effects for humanity. Since these technologies do not 
require an expensive source of fuel but instead use existing quantum 
space energy, a revolution in the world's economic and social order 
would result. These implications include:
    <bullet> The removal of all sources of air pollution related to 
energy generation, including electric power plants, cars, trucks, 
aircraft and manufacturing;
    <bullet> The ability to ``scrub'' to near zero effluent all 
manufacturing processes since the energy per se required for same would 
have no cost related to fuel consumption. This would allow the full 
application of technologies which remove effluent from smokestacks, 
solid waste and waterways since current applications are generally 
restricted by their energy costs and the fact that such energy 
consumption--being fossil fuel based--soon reaches the point of 
diminishing returns environmentally.
    <bullet> The practical achievement of an environmentally near-zero 
impact yet high tech civilization on earth, thus assuring the long-term 
sustainability of human civilization.
    <bullet> Trillions of dollars now spent on electric power 
generation, gas, oil, coal and nuclear power would be freed to be spent 
on more productive and environmentally neutral endeavors by both 
individuals and society as a whole.
    Underdeveloped regions of the earth would be lifted out of poverty 
and into a high technology world in about a generation--but without the 
associated infrastructure costs and environmental impact related to 
traditional energy generation and propulsion. Since these new systems 
generate energy from the ambient quantum energy state, trillion dollar 
infrastructure investments in centralized power generation and 
distribution would be eliminated. Remote villages and towns would have 
the ability to generate energy for manufacturing, electrification, 
water purification, etc. without purchasing fuels or building massive 
transmission lines and central power grids.
    Near total recycling of resources and materials would be possible 
since the energy costs for doing so--now the main obstacle--would be 
brought down to a trivial level.
    <bullet> The vast disparity between rich and poor nations would 
quickly disappear--and with it much of the zero-sum-game mentality 
which is at the root of so much social, political and international 
unrest. In a world of abundant and inexpensive energy, many of the 
pressures, which have led to a cycle of poverty, exploitation, 
resentment and violence would be removed from the social dynamic. While 
ideological, cultural and religious differences would persist, the raw 
economic disparity and struggle would be removed from the equation 
fairly quickly.
    Surface roads--and therefore most road building--will be 
unnecessary as electrogravitic/antigravity energy and propulsion 
systems replace current surface transportation systems.
    <bullet> The world economy would expand dramatically and those 
advanced economies such as in the United States and Europe would 
benefit tremendously as global trade, development and high technology 
energy and propulsion devices are demanded around the world. Such a 
global energy revolution would create an expanding world economy which 
would make the current computer and Internet economy look like a 
rounding error. This really would be the tide which would lift all 
ships.
    <bullet> Long term, society would evolve to a psychology of 
abundance, which would redound to the benefit of humanity as a whole, a 
peaceful civilization and a society focused increasingly on creative 
pursuits rather than destructive and violent endeavors.
    Lest all of this sound like a pipe-dream, keep in mind that such 
technological advances are not only possible, but they already exist. 
What is lacking is the collective will, creativity and courage to see 
that they are applied wisely. And therein lies the problem.
    As an emergency and trauma doctor, I know that everything can be 
used for good or for ill. A knife can butter your bread--or cut your 
throat. Every technology can have beneficial as well as harmful 
applications.
    The latter partially explains the serious national security and 
military concerns with such technologies. For many decades, these 
advances in energy and propulsion technologies have been acquired, 
suppressed and classified by certain interests who have viewed them as 
a threat to our security from both an economic and military 
perspective. In the short term, these concerns have been well-founded: 
Why rock the global economic boat by allowing technologies out which 
would, effectively, terminate the multi-trillion dollar oil, gas, coal, 
internal combustion engine and related transportation sectors of the 
economy?
    And which could also unleash such technologies on an unstable and 
dangerous world where the weapons applications for such technological 
breakthroughs would be a certainty? In the light of this, the status 
quo looks good.
    But only for the short term. In fact, such national security and 
military policies--fed by huge special interests in obvious industries 
and nations--have exacerbated global geopolitical tensions by 
impoverishing much of the world, worsening the zero-sum-game mind set 
of the rich vs. poor nations and brought us to a world energy emergency 
and a pending environmental crisis. And now we have very little time to 
fix the situation. Such thinking must be relegated to the past.
    For what can be a greater threat to the national security than the 
specter of a collapse of our entire civilization from a lack of energy 
and global chaos as every Nation fights for its share of a limited 
resource? Due to the long lead time needed to transform the current 
industrial infrastructure away from fossil fuels, we are facing a 
national security emergency which almost nobody is talking about. This 
is dangerous.
    It has also created a serious constitutional crisis in the United 
States and other countries where non-representative entities and super-
secret projects within compartmented military and corporate areas have 
begun to set national and international policy on this and related 
matters--all outside the arena of public debate, and mostly without 
informed consent from Congress or the President.
    Indeed this crisis is undermining democracy in the United States 
and elsewhere. I have had the unenviable task of personally briefing 
senior political, military, and intelligence officials in the United 
States and Europe on this and related matters. These officials have 
been denied access to information compartmented within certain 
projects, which are, frankly, unacknowledged areas (so-called ``black'' 
projects). Such officials include members of the House and Senate, 
President Clinton's first Director of Central Intelligence, the head of 
the CIA, senior Joint Staff officials and others. Usually, the 
officials have little to no information on such projects and 
technologies--and are told either nothing or that they do not have a 
``need to know'' if they specifically inquire.
    This presents then another problem: these technologies will not be 
suppressed forever. For example, our group is planning a near term 
disclosure of such technologies and we will not be silenced. At the 
time of such a disclosure, will the U.S. Government be prepared? It 
would behoove the U.S. Government and others to be informed and have a 
plan for transitioning our society from fossil fuels to these new 
energy and propulsion systems.
    Indeed, the great danger is ignorance by our leaders of these 
scientific breakthroughs--and ignorance of how to manage their 
disclosure. The advanced countries of the world must be prepared to put 
systems in place to assure the exclusive peaceful use of such energy 
and propulsion advances. Economic and industrial interests should be 
prepared so that those aspects of our economy which will be adversely 
affected (commodities, oil, gas, coal, public utilities, engine 
manufacturing, etc) can be cushioned from sudden reversals and be 
economically ``hedged'' by investing in and supporting the new energy 
infrastructure.
    A creative view of the future--not fear and suppression of such 
technologies--is required. And it is needed immediately. If we wait 10-
20 more years, it will be too late to make the needed changes before 
world oil shortages, exorbitant costs and geopolitical competition for 
resources causes a melt-down in the world's economy and political 
structures.
    All systems tend toward homeostasis. The status quo is comfortable 
and secure. Change is frightening. But in this case, the most dangerous 
course for the national security is inaction. We must be prepared for 
the coming convulsions related to energy shortages, spiraling costs and 
economic disruption. The best preparation would be a replacement for 
oil and related fossil fuels. And we have it. But disclosing these new 
energy systems carries its own set of benefits, risks and challenges. 
The U.S. Government and the Congress must be prepared to wisely manage 
this great challenge.
    Recommendations for Congress:
    <bullet> Thoroughly investigate these new technologies both from 
current civilian sources as well as compartmented projects within 
military, intelligence and corporate contracting areas;
    <bullet> Authorize the declassification and release of information 
held within compartmented projects related to this subject;
    <bullet> Specifically prohibit the seizing or suppression of such 
technologies
    <bullet> Authorize substantial funding for basic research and 
development by civilian scientists and technologists into these areas;
    <bullet> Develop plans for dealing with disclosing such 
technologies and for the transition to a non-fossil fuel economy. These 
plans should include: military and national security planning; 
strategic economic planning and preparation; private sector support and 
cooperation; geopolitical planning, especially as it pertains to OPEC 
countries and regions whose economies are very dependent on oil exports 
and the price of oil; international cooperation and security; among 
others.
    I personally stand ready to assist the Congress in any way possible 
to facilitate our use of these new energy sources. Having dealt with 
this and related sensitive matters for over 10 years, I can recommend a 
number of individuals who can be subpoenaed to provide testimony on 
such technologies, as well as people who have information on 
unacknowledged special access projects within covert government 
operations which are already dealing with these issues.
    If we face these challenges with courage and with wisdom together, 
we can secure for our children a new and sustainable world, free of 
poverty and environmental destruction. We will be up to this challenge, 
because we must be.
                               __________
          The Right Time to Develop Future Energy Technologies
                    (By: Thomas Valone, M.A., P.E.)
  introduction to compelling evidence about the coming climate change
    In 1900, Nikola Tesla, the father of AC electricity, warned against 
using fuel for energy.\1\ Current man-made Greenhouse Forcing of the 
atmosphere has been measured to be 2.4-4.3 W/m<SUP>2</SUP> by the 
Global Warming International Center (GWIC). ``A change of 7.5 to 10 W/
m<SUP>2</SUP> will completely alter seasonal characteristics, e.g. from 
winter to spring. Thus, 2.4-4.3 W/m<SUP>2</SUP> of Greenhouse Forcing 
is quite a significant alteration of energy balance.'' This is a 
measure of the watts (energy) per meter squared (area) that is being 
radiated into the atmosphere from our excessive carbon-based emissions. 
Note carefully that in 1997, the Institute for Policy Studies released 
a report that declared the World Bank was solely responsible for 
DOUBLING the world's output of carbon by its overseas fossil fuel 
investments through the life of the investment.\2\ This simple 
comparison of two different studies suggests that the DOUBLING of our 
Greenhouse Forcing into a range of 4.8-8.6 W/m<SUP>2</SUP> may be 
anticipated in the next couple of decades.
---------------------------------------------------------------------------
    \1\ Tesla, Nikola, ``The Problem of Increasing Human Energy,'' 
Century, June, 1900.
    \2\ ``The World Bank and the G-7: Changing the Earth's Climate for 
Business,'' Ver. 1.1, Aug. 1997, IPS.
---------------------------------------------------------------------------
    The GWIC 1999 News Flash went on to further conclude:

          ``The man-made alteration of energy balance in the General 
        Circulation system determines how chaotic our atmospheric and 
        oceanic systems will be . . . simple thermodynamics predicts an 
        OSCILLATORY NATURE of the change in climate in any one 
        ecological zone due to global warming. Global warming causes 
        `extreme events' and bad weather in the near term. In the long 
        term it may cause the earth to transition to another 
        equilibrium state through many `oscillations in climatic 
        patterns.' The magnitude of these oscillations could easily 
        `exceed' the difference between the end points.''

    From chaos theory, the end points are where we start and where we 
end up. In other words, as the earth climate seeks a new equilibrium 
point, with the forcing function of increased energy input, it may get 
much hotter AND much colder with a vengeance as the climate goes 
haywire for an undetermined amount of time.
    Make no mistake about it, the earth has now surpassed 300 ppb 
(parts per billion) of CO<INF>2</INF> (a potent greenhouse gas) for the 
first time in 400,000 years, according to ice core analysis by Tom 
Wigley from the National Center for Atmospheric Research. He also 
stated on a recent NOVA program that we need to cut fossil fuel use by 
50 percent or more to stabilize CO<INF>2</INF> because of increased 
energy demand that is predicted to be 60 percent more by 2020. Worse 
than that is the projected level of CO<INF>2</INF> by 2050: an 
astounding 600 ppb! At the same time, Oxygen Inventory Depletion (OID) 
is occurring: worldwide levels of oxygen have decreased by 50-70 ppm 
since 1958 when the measurements were first taken.\3\
---------------------------------------------------------------------------
    \3\ Keeling et al., ``Seasonal and interannual variation in 
atmospheric oxygen and implication for the global carbon cycle'', 
Nature, Vol. 358, 8/27/92, p. 354
---------------------------------------------------------------------------
    Need we mention that right now the Arctic ice is melting at a rapid 
rate? In 1999, scientists reported that 46 years of data documenting 
the declining extent of the Arctic Sea ice yield a 98 percent 
probability that it is due to man-made causes.\4\ The average annual 
temperatures in Alaska and Siberia have climbed as much as seven (7) 
degrees F in the past two decades reducing sea ice thickness by about 
40 percent of what it was in 1980.\5\ Why is the loss of this natural 
heat sink important? The Arctic sea ice covers an area the size of the 
United States. Without this natural reflector of solar energy, the same 
area of exposed ocean water will absorb as much as 100 times more solar 
energy than ice. This new energy influx will, of course, simply ADD to 
the already accelerating global warming due to greenhouse gases.
---------------------------------------------------------------------------
    \4\ Vinnikov, Science, Dec. 3, 1999, p. 1934
    \5\ Linden, Eugene, ``The Big Meltdown,'' TIME, Sept. 4, 2000, p. 
53
---------------------------------------------------------------------------
    To summarize, ``experts believe human activities could be ending 
the period of relative climatic stability that has endured over the 
last 10,000 years, and that permitted the rise of agricultural and 
industrial society.''\6\
---------------------------------------------------------------------------
    \6\ Brown, Lester, et al., State of the World, Worldwatch 
Institute, 1999, p. 25, citing U.N. 1997 report
---------------------------------------------------------------------------
                  is global warming harmful to health?
    In a word: YES!
        ``Computer models have predicted that global warming would 
        produce several changes in the highlands: summit glaciers (like 
        North Pole sea ice) would begin to melt, and plants, mosquitoes 
        and mosquito-borne diseases would migrate upward into regions 
        formerly too cold for them. All these predictions are coming 
        true.''\7\
---------------------------------------------------------------------------
    \7\ Epstein, Paul, ``Is Global Warming Harmful to Health?'' 
Scientific American, August 2000, p. 50
---------------------------------------------------------------------------
    Dr. Epstein, Associate Director at the Center for Health and the 
Global Environment at Harvard Medical School, further reports that the 
West Nile virus, spread by mosquitoes, broke out for the first time in 
N. America just last year. Washington residents know that it has 
already spread to Maryland in October, 2000. ``Malaria and dengue fever 
are another two of the mosquito-borne diseases most likely to spread 
dramatically as global temperatures head upward.'' Regarding these 
diseases, it is important to note that NO VACCINE is available and the 
causative parasites are becoming resistant to standard drugs. El Ninos 
are expected to become more common and severe--which means that the 
diseases they produce could become more prevalent as well (such as 
waterborne diseases like cholera). He concludes that, ``Cleaner energy 
sources must be put to use QUICKLY AND BROADLY, both in the energy-
guzzling industrial world and in developing nations, which cannot be 
expected to cut back on their energy use . . . The world's leaders, if 
they are wise, will make it their business to find a way to pay for 
these solutions.''
         how much will it take to correct the climate problem?
    ``The Intergovernmental Panel on Climate Change, established by the 
United Nations, calculates that halting the ongoing rise in atmospheric 
concentrations of greenhouse gases will require a whopping 60 percent 
to 70 percent reduction in emissions.''\8\ They are not the only agency 
arriving at that conclusion. The Worldwatch Institute concurs, stating 
that ``stabilizing atmospheric CO<INF>2</INF> at safe levels will 
require a 60-80 percent cut in carbon emissions from current 
levels.''\9\
---------------------------------------------------------------------------
    \8\ ibid., p. 57
    \9\ Brown, p. 26
---------------------------------------------------------------------------
      can oil production keep up if we ignore the climate change?
    In a word: NO! If we just continue as we do today with the selfish, 
business-as-usual attitude and clamor for more oil, do we stand a 
chance of enjoying a reasonable lifestyle for the next 20 years? Seeing 
that approximately 80 percent of the oil produced today comes from 
fields discovered before 1973, most of which are in decline, we must 
hesitate before coming to an optimistic conclusion. If we realize that 
the TOTAL world production of oil has increased less than 10 percent in 
the past two decades, then we might start to get concerned.\10\ If we 
think about the fact that the U.S. energy demand grows at a rate of 1.1 
percent per year, from 95 to 121 quadrillion Btus (quads) by 2020, we 
must ask where will the EXTRA 27 percent come from? Transportation is 
rated by the U.S. Department of Energy to be the most rapidly growing 
sector. However, as domestic crude oil production is projected to 
DECLINE from 6.3 to 5.3 million barrels per day by 2020, we gas-
guzzling Americans naively believe that we can demand FROM SOMEWHERE a 
30 percent increase from 2.90 million barrels of oil per day to 3.81 
million barrels of oil per day by 2020!\11\
---------------------------------------------------------------------------
    \10\ ibid., p. 25
    \11\ Annual Energy Outlook, DOE Energy Information Administration. 
EIA-X035
---------------------------------------------------------------------------
    Instead, the OPEC nations, where 50 percent of our imported oil 
comes from, have a different story in mind for us. World production of 
oil is expected to peak by 2010 and then begin to decline, which will 
forcibly reduce production.\12\ Knowing this fact, give or take a few 
years, the OPEC nations decided instead to decrease their output of oil 
NOW by only 1.2 percent in 1999 which drove prices up dramatically, 
causing a lot of oil-addicted nations to complain bitterly in protest. 
The protests had no effect on the producers. ``OPEC Blames Taxes for 
High Oil Prices'' read the headlines in the Washington Post (9-29-00, 
p. A22) which went on to say:
---------------------------------------------------------------------------
    \12\ Brown, p. 25

         ``Saudi Arabia is the only OPEC Nation with the capability to 
        boost oil production significantly, a move that would harm the 
---------------------------------------------------------------------------
        finances of other member nations . . .''

    The conclusion is obvious: It is nearly impossible, even with the 
``hard-line approach'' advocated by G.W. Bush, to continually increase 
our imports of and addiction to oil even over the next 10 years while 
OPEC is already beginning THE SQUEEZE. In September 2000, the first 
OPEC summit in 25 years was held. As the United States and European 
Union called on OPEC to increase production, OPEC simply agreed to 
``provide adequate, timely and secure supplies of oil to consumers at 
fair and stable prices.'' Of course that's what any dominant dealer 
with \2/3\ of the market will do! With Iraq selling the United States 
more oil than Kuwait is today, do we go to war over oil again?
 solving the oil consumption and global warming problem simultaneously
    The clear answer to both dilemmas portrayed above is to begin a 
forced weaning process aimed at creating a government-mandated 1 
percent reduction (based on Y2K usage) per year in oil consumption and/
or oil imports every year for the next 20 years, with the second decade 
adding 1 percent to each year's reduction. Phase I amounts to a 
mandatory reduction, on the average, of 200,000 barrels of oil per 
year, for the next 10 years, yielding a 10 percent total reduction by 
2010. Phase II, in 2010, would increase the reduction by 1 percent each 
subsequent year (2 percent, 3 percent, 4 percent, etc.) yielding a 55 
percent + 10 percent = 65 percent total reduction by 2020. At first, a 
gradual reduction in oil imports by a fraction of 1 percent could be 
mandated with that fraction made up by domestic hybrid cars sales that 
have a tax incentive. The last few years of the decade program would 
have reductions greater than 1 percent mandated. This should be called 
the ``The U.S. Energy Independence Initiative'' or something like that. 
As a vital part of this process, a 10-year U.S. Energy Manhattan 
Project with emergency funds allocated to emerging energy developments 
(many of which are already invented) is required for successful 
replacement of current technology with carbon-free, fuel-less energy 
technologies.\13\ A public education process needs to begin immediately 
as well to prepare all industrial, transportation, and housing sectors 
for the transition.
---------------------------------------------------------------------------
    \13\ Valone, Thomas, ``Future Energy Technologies,'' Proceedings of 
the Annual Conference of the World Future Society, 2000.
---------------------------------------------------------------------------
    The reason for an average of 1 percent reduction in oil usage per 
year is that within 10 years, a total of 10 percent (based on Y2K 
usage) reduction will be achieved. By then, fuel-less, carbon-free 
energy generators will be commercially available. That starts Phase II 
where an increasing amount of oil will be taken away from the market 
each year, before the OPEC nations force the issue.
      end the present suppression of emerging energy technologies
    From my experience, the present management of the U.S. Energy 
Department, State Department, and Commerce Department has engaged in an 
outright and successful attempt to prevent viable emerging energy 
technologies from reaching the market and the public. They have 
rescinded legitimate grants that had already been awarded, prevented 
allowed patents from being issued, blocked approved conferences from 
taking place, and distorted accurate news before it is reported. 
Furthermore, certain non-profit organizations, most notably the 
American Physical Society, have abused their non-profit status by 
heavily lobbying government agencies and the media to encourage such 
suppression.
    For example, the Public Affairs Coordinator for the American 
Physical Society, Dr. Robert Park, has further used his position of 
power to unduly influence the government and the media to target 
certain individuals and inventions, even to the extent of defaming 
their character, mine included, and depriving of their livelihood to 
suit his unscrupulous desires for scientific dominance. The Patent 
Office, State Department, and the Commerce Department, have been found 
on numerous occasions to obey his suggestions/demands on a particular 
issue. Examples and a chronology of such abuses have been cataloged. 
Both the U.S. Department of Energy (DOE) and the U.S. Patent Office 
have, for example, made public statements that clearly discriminate 
against cold fusion, a viable new physics discovery celebrating its 
tenth anniversary last year. Their practices of rescinding nuclear 
energy research grants or recalling a patent that already has been 
issued a patent number and posted in the Official Gazette, shows to 
what extent they will go to prevent anything resembling cold fusion 
from gaining recognition. One explanation seems to be stemming from the 
$249 million that the hot fusion research program (Tokamak and laser 
confinement) are already receiving in fiscal year 2000. However, these 
ongoing programs still do not have viable overunity output results even 
after decades of Federal DOE expenditures and will not for at least 
another two decades, according to the U.S. DOE! The suppression 
practices referred to above must stop in order to allow emerging energy 
technologies to reach the market.
                               conclusion
    In the short term, the development of a retrofit carburetor device 
for all cars, that reclaims or transmutes the carbon from the exhaust, 
can drastically reduce the emissions of CO<INF>2</INF> from 
transportation vehicles. (The transportation sector presently 
contributes to 33 percent of the carbon emissions.)\14\ Preliminary 
results from this type of device shows a dramatic improvement in 
mileage as well, making it attractive for consumers.\15\
---------------------------------------------------------------------------
    \14\ U.S. DOE Energy Information Administration, Energy INFOcard, 
1999
    \15\ Future Energy: Proceedings of the First International 
Conference on Future Energy, Integrity Research Institute, 1999, CD-ROM
---------------------------------------------------------------------------
    As the new fuel-less, carbon-free energy sources are brought to 
market, the reduction in oil demands will become easier and more 
acceptable. If the U.S. Government establishes a time-table to meet the 
65 percent reduction in CO<INF>2</INF> emissions by 2020, ostensibly 
targeting the importation of oil, the earth can reverse its beginning 
of climatic oscillations with the present Greenhouse Forcing. I pray 
that our lawmakers will have the wisdom to adopt some of the above-
mentioned measures to ensure our future.
                                 ______
                                 
                       Future Energy Technologies
                     (By: Thomas Valone M.A., P.E.)
                                abstract
    Today 85 percent of our country's energy comes from the combustion 
of dead fossils, a dirty fuel that is forcing the world's atmosphere to 
overheat. However, new 21st century energy sources that produce no 
carbon emissions and do not contribute to global warming are now 
emerging. Beyond the realm of fuel cells and hydrogen is the non-
conventional world of ``future energy.'' Some of the best examples are 
new and exciting generators that release trapped potential energy from 
nature in ways never dreamed of before. Others innovatively apply clean 
fuels in conventional systems that are surprisingly simple and yet very 
efficient. Still others qualify as promising theoretical technologies 
that are a focus of attention for NASA and the USDOE. Most of them have 
one thing in common: they are very scientific but are relatively 
unknown to the general public. This presentation summarizes the latest 
breakthroughs in future energy. With scientific explanations of the 
input energy and output energy, the overunity efficiencies can be 
understood by average audience members. Included in the quantitative 
article are the inventions of Brown, Graneau, Jefimenko, Miley, 
Shoulders, Wallman, and others. The energy revolution is now beginning. 
It is time to understand the clean alternatives to dead, poisonous 
fuel.
    Keywords: future energy, overunity, betavoltaic, biomass, COFE
                              introduction
    In 1998, the U.S. Department of Energy (DOE) issued its 
Comprehensive National Energy Strategy (CNES)\1\ that included as one 
of its five goals, the following aspiration:
---------------------------------------------------------------------------
    \1\ Comprehensive National Energy Strategy, U.S. Dept. of Energy, 
April 1998, DOE/S-0124, (National Energy Policy Plan) available at 
http://www.hr.doe.gov/nesp/cnes.html
---------------------------------------------------------------------------
    Goal IV: Expand future energy choices--pursuing continued progress 
in science and technology to provide future generations with a robust 
portfolio of clean and reasonably priced energy sources.
    Objective 1.--Maintain a strong national knowledge base as the 
foundation for informed energy decisions, new energy systems, and 
enabling technologies of the future.
    Objective 2.--Expand long-term energy options.
    However, the DOE has not engaged in developing, much less 
maintaining a robust knowledge base of future energy choices, nor 
expanded research into new energy systems or long-term energy options, 
mainly due to upper management decisions. In a study performed by 
Integrity Research Institute on the progress of the CNES 2 years later, 
it is surprising that instead the DOE has worked to actively suppress 
enabling technologies of the future. Furthermore, concern for global 
warming and the expected increase in carbon emissions by the American 
society clearly do not enter the present DOE policies. The DOE instead 
recently: (1) endorsed natural gas use for future generations, (2) 
rescinded a Nuclear Energy Research Initiative (NERI) grant awarded to 
a prominent professor for transmuting radioactive waste, and (3) 
reversed an initial offer to host a Conference on Future Energy (COFE). 
Therefore, it is clear by these and many other DOE practices that it is 
up to the private sector to conduct scientific research into new energy 
systems and enabling technologies of the future in order to replace 
carbon-emitting fuel systems.
    As a guideline, it is generally agreed that emerging energy 
technologies that qualify as true future energy must not produce carbon 
emissions nor contribute to global warming if we are to have a future 
planet earth. The reason for this is as Worldwatch Institute notes: 
``Stabilizing atmospheric CO<INF>2</INF> concentrations at safe levels 
will require a 60-80 percent cut in carbon emissions from current 
levels, according to the best estimates of scientists.''\2\
---------------------------------------------------------------------------
    \2\ State of the World 1999, Brown, Flavin, and French, W.W. Norton 
& Co., New York
---------------------------------------------------------------------------
                        future energy overunity
    To understand emerging energy principles, it is helpful to examine 
the operation of a heat pump, which converts environmental free energy 
into useful work. The standard heat pump is a good example of an 
``overunity'' system (energy out > energy in) releasing potential 
energy from the environment where the heat energy output is always in 
the range of 2 up to 7 times the input electrical energy. This so-
called ``coefficient of performance'' represents an overunity 
efficiency, that does not violate any physics laws, if one considers, 
as the consumer does, how much energy must he put in to get the 
predicted energy output. Thus, the concept of ``overunity,'' as also 
the concept of ``free energy'' has evolved from the consumer's point of 
view. What does it cost him to receive his heat, air conditioning, 
cleaning, or propulsion outputs? The closer it gets to ``free,'' the 
more desirable it is for the consumer and, we might add, to Third World 
countries who cannot afford to build the thousands of miles of high 
voltage wires (infrastructure) to support a centralized energy system. 
Locally installed, modular heat and electricity generators will replace 
present utility-based service in the future. Then, large area blackouts 
will be a thing of the past. Energy will be for the most part, a one-
time investment, included in the house, car, or spaceplane of one's 
choice. However, much needs to be done for these systems to supplant 
the established energy businesses that are the nation's major 
polluters. A commitment to a carbon-free energy economy, with financial 
backing, is required for such large changes to take place.
                           cold fog discovery
    Many other systems exist today, in a research, development, or 
theoretical stage, which also convert potential energy into useful 
work. The first example is the ``Cold Fog'' invention of Dr. Peter 
Graneau from Northeastern University that converts chemical bond energy 
into kinetic energy. Intermolecular bond energy in water is an 
available amount of energy estimated at 2.3 kJ/g. When injected with a 
high voltage capacitor discharge of 39.8 Joules, normal rainwater is 
accelerated into a cold fog that loses about 31.2 Joules of low-grade 
heat and a comparable amount (29.2 Joules) in fog kinetic energy 
output. As reported in the Journal of Plasma Physics,\3\ the output 
energy thus exceeds the input energy by about 100 percent creating a 2-
to-1 overunity condition favorable for reduction to a motorized 
conversion system.
---------------------------------------------------------------------------
    \3\Hathaway, Graneau, and Graneau, ``Solar-Energy Liberation from 
Water by Electric Arcs'', J. Plasma Physics, Vol. 60, Part 4, p. 775-
86. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4bbb2a7bbb2a4b2aa93bab6b6b6fdbca1b4">[email&#160;protected]</a>

[GRAPHIC] [TIFF OMITTED] 80649.005


                          betavoltaic battery
    The next technology of importance is the betavoltaic battery 
invention of Dr. Paul Brown (U.S. Pat. 4,835,433). It involves a benign 
nuclear source called tritium (an isotope of hydrogen) that simply 
emits an electron (5.7 keV beta particle) over its half life of 12.5 
years. The useful battery life is thus estimated to be about 25 years. 
It is a cheap, long-life, high energy density battery with a wide range 
of applications. Presently, Lucent Technologies has been contracted to 
produce the tritiated amorphous silicon for use in the semiconductor 
industry and even for watch batteries. The amorphous silicon is placed 
between two electrodes in order to complete the battery construction. 
The batteries have a mean energy density of 24 watts per kilogram and 
are ideal for low power, long-life applications\4\. It is clear that no 
recharging of these batteries is ever needed. The disposal is even 
safer than disposing of smoke detectors.
---------------------------------------------------------------------------
    \4\ Brown, Paul, ``Betavoltaic Batteries'' and ``Effective 
Radioactive Waste Remediation,'' Proceedings of the First International 
Conference on Future Energy, (Proceedings of COFE), p. 19 & 123, 
Integrity Research Institute, 1999, ISBN 0-9641070-3-1 (Alternatively, 
COFE CD-Proceedings on CD-ROM has 20 hours of lectures added in digital 
audio.) Brown's email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ceefee3fbe2cceae5ffffe5e3e2eaf9e9e0ffa2efe3e1">[email&#160;protected]</a>

[GRAPHIC] [TIFF OMITTED] 80649.006


                          nuclear remediation
    It is worthwhile mentioning that Dr. Brown's other endeavor may 
give a boost to the nuclear power industry. He has discovered that low 
energy gamma rays (photons) on the order of 10 MeV, can function as an 
effective agent to transmute nuclear waste into short-lived isotopes, 
acceptable for burial anywhere. The remediation project is spear-headed 
by International Fission Fuels, Inc. which plans to build a pilot plant 
to accept nuclear waste of any type and generate electricity at the 
same time. The Battelle Institute, Brookhaven Labs, and Los Alamos Labs 
have all been involved in the planning and testing stages of this new 
technology. Dr. Brown presented details of this invention at COFE. 
Also, the State Department recently connected him with foreign markets 
that have assisted in proving its worth.

[GRAPHIC] [TIFF OMITTED] 80649.007

                          electrostatic motors
    The next energy breakthrough is Dr. Oleg Jefimenko's electrostatic 
motors. Discovered by Ben Franklin in the 18th century, electrostatic 
motors are an all-American invention. They are based on the physics of 
the fair-weather atmosphere that has an abundance of positive electric 
charges up to an altitude of 20 km. However, the greatest concentration 
is near the ground and diminishes with altitude rapidly. Dr. Jefimenko 
discovered that when sharp-pointed antennas are designed for a 
sufficient length to obtain at least 6000 volts of threshold energy, 
the fair-weather current density available is about a picoampere per 
square meter. Such antennas produce about a microampere of current. 
However, small radioactive source antennas may be used instead that 
have no threshold voltage and therefore no height requirements. Similar 
to a nuclear battery design of Dr. Brown, these antennas have larger 
current potentials depending upon the radioactive source used (alpha or 
beta source) and ionize the air in the vicinity of the antenna. 
Electrostatic motors are lighter than electromagnetic motors for the 
same output power since the motor occupies the entire volume. For 
example, it is expected that a motor one meter on a side will provide a 
power of one megawatt and weigh 500 kg or less. Electrostatic motors 
also require very little metal in their construction and can use mostly 
plastic for example. They can also operate from a variety of sources 
and range of voltages. As Dr. Jefimenko points out, ``It is clear that 
electrostatic motor research still constitutes an essentially 
unexplored area of physics and engineering, and that electrostatic 
motor research must be considered a potentially highly rewarding area 
among the many energy-related research endeavors.''\5\ The atmospheric 
potential of the planet is not less than 200,000 megawatts. He has 
succeeded in constructing demonstration motors that run continuously 
off atmospheric electricity. Jefimenko's largest output motor was an 
electret design that had a 0.1 Hp rating.\6\ Certainly the potential 
for improvement and power upgrade exists with this free energy machine.
---------------------------------------------------------------------------
    \5\ Jefimenko, Oleg, ``Electrostatic Energy Resources, 
Electrostatic Generators, and Electrostatic Motors,'' Proceedings of 
COFE, p. 195
    \6\ Jefimenko, Oleg, Electrostatic Motors, Electret Scientific Co., 
Star City, WV, 1973 (future editions to be published by Integrity 
Research Inst.)

[GRAPHIC] [TIFF OMITTED] 80649.008


                          biomass gasification
    Clean fuels are difficult to find today. One example that satisfies 
a limited definition of ``clean'' is the carbo-hydrogen gas produced 
from biomass. David Wallman has patented the process for producing 
COH<INF>2</INF> from a high voltage discharge through any biomass 
solution (Pat. No. 5,417,817). This gas burns cleanly, producing water 
vapor and only the amount of CO<INF>2</INF> that was originally 
absorbed by the biological mass when it was growing in the ground. 
Contrast this with burning fossil fuels (oil and natural gas) which 
resurrect old buried carbon and add it to the atmosphere from ancient 
cemeteries in the ground.

[GRAPHIC] [TIFF OMITTED] 80649.009


    Instead, biomass gas burning recycles recently absorbed atmospheric 
carbon dioxide. The input energy is typically about a thousand watt-
hours or about 3300 BTU to produce about 250 liters per hour of carbo-
hydrogen (8.5 cubic feet per hour). With a heating value of over 500 
BTU per cubic feet, the COH<INF>2</INF> output energy exceeds 4000 BTU, 
often approaching 5000 BTU in high efficiency designs. Thus, this 
biomass gasification process has an overunity efficiency of about 125 
percent to 150 percent. However, when the entire energetics of the 
system are accounted for, including the ultraviolet light radiation, 
heat loss, etc., estimates of 200 percent to 400 percent are 
reasonable. Again, this process is a largely untapped resource while 
millions of gallons of farm-produced liquid biomass going to waste 
instead. Demonstrations of pilot plant designs are available from 
Wallman's company to replace present dependence on foreign oil (which 
is a fossil fuel). Municipal sewage treatment is a logical application 
for this invention.\7\
---------------------------------------------------------------------------
    \7\ Wallman, David, ``Carbon Arc Gasification of Biomass 
Solutions,'' Proceedings of COFE, p. 30. (1350 Northface Ct., Colorado 
Springs, CO 80919) <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98cfdcb6cff9f4f4f5f9f6d8eff7eaf4fcf6fdecb6f9ececb6f6fdec">[email&#160;protected]</a>

[GRAPHIC] [TIFF OMITTED] 80649.010


                            charge clusters
    An unusual energy source is the clustering of electrons by a 
discharge needle into a high density bundle equaling Avogadro's density 
of a solid\8\. Ken Shoulders has patented a process (Pat. No. 
5,153,901) that produces electron clusters with such high energy 
density, they equal processes exceeding 25,000 degrees Celsius upon 
impact. Yet, he only uses 20 microjoules to produce the effects. The 
clusters travel at a maximum of one tenth of the speed of light and 
penetrate any substance with accuracy and sharp precision. It is 
similar to xenon clustering techniques currently used at megavolt 
energy levels. Low energy nuclear transmutation of the target has also 
been achieved with this process. Using a deuterium loaded palladium 
foil, only the bombardment areas show transmutation into silicon, 
calcium, and magnesium with electron clusters upon analysis with X-
rays. Fox has postulated that the high velocity electron clusters 
achieve results similar to ion accelerators, including penetration of 
the nucleus, with substantially less power. The new physics of like-
charges clustering in bundles under low power conditions opens a wide 
range of applications including spacecraft maneuvering microthrusters. 
The overunity efficiency is 9-to-1.
---------------------------------------------------------------------------
    \8\ Shoulders, Ken and Steve, ``Charge Clusters in Action'', 
Proceedings of COFE, p. 7 (P.O. Box 243, Bodega, CA 94922) email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab1a8a9b9bca99aa9acb4f4b4bfae">[email&#160;protected]</a> and Infinite Energy, ``Charge Clusters in Operation,'' 
Jan-Feb, 1997, p. 62

[GRAPHIC] [TIFF OMITTED] 80649.011

    Figure 7. Charge cluster borehole into lead glass. Hole is about 10 
micron diameter. Penetration is about 1 mm per kV. The lowest speed 
clocked has been 1 cm in 50 nanoseconds. With an estimated 100 billion 
electrons carrying 100,000 positive ions, the kinetic energy exceeds 
180 microjoules. It has been suggested that a Casmir effect pushes them 
together, overcoming Coulomb repulsion of like charges. (photo credit: 
---------------------------------------------------------------------------
Ken Shoulders)

                 thin-film electrolytic cell power unit
    A product with the consumer in mind is Dr. George Miley's invention 
that produces about one watt per cubic centimeter of electrolyte\9\. 
Using a flowing packed-bed type electrolytic cell with 1-molar 
LiSO<INF>4</INF> in light water, small (1-mm diameter) plastic beads 
with a thin (500-1000 angstrom) film of metal (nickel, palladium, or 
titanium) are employed. A special sputtering technique to spray on the 
metal is used. With 2-3 volts of electrical power and only 1-5 
milliamperes of current, the single film experiments produce an excess 
power 10 times the input power! (The input power is at most 0.01 watts 
while one half of a watt of heat is produced.) Observed power densities 
were 1 W/cc and above. It is also apparent that the physics of this 
reaction involve nuclear transmutations as well. As Dr. Miley notes: 
``The key finding from these studies has been the observation of a 
large array of ``new'' elements (i.e. different from the bead coating), 
many with significant deviations from natural isotopic compositions, 
after the run. Great care has been made to insure that these elements 
are distinguished from isotopic impurities by use of a ``clean cell'' 
with high purity components/electrolyte, in addition to the pre- and 
post-run analyses.'' Even low-energy radiation was detected from the 
beads days after each experiment. Application to space power, providing 
a 1-kW cell with only 500 cc of active electrode is predicted. Note 
that this particular invention, with its large overunity energy yield, 
was awarded a NERI grant by the DOE but then promptly withdrawn after 
certain individuals pressured the DOE into a re-evaluation of its grant 
to Professor Miley. The politics that override such grant decisions by 
the DOE Office of NEST are highly questionable.
---------------------------------------------------------------------------
    \9\ Miley, George, ``Emerging Physics for a Breakthrough Thin-Film 
Electrolytic Cell Power Unit'', AIP Conference Proceedings 458, STAIF 
1999, p. 1227-31. Reproduced with permission in Proceedings of COFE, p. 
140. email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c763632373e221b2e322e38753e3f2e">[email&#160;protected]</a>
---------------------------------------------------------------------------
                               conclusion
    Future energy choices are already here. In spite of the DOE lack of 
initiative in long range energy solutions, private inventors in this 
article have pioneered energy discoveries with a range of energy 
production possibilities. With Dr. Graneau's cold fog demonstrating a 
new energy source and a possible propulsion source, developmental 
efforts are ongoing with Hathaway Labs in Toronto to maximize the 
energy transfer to a useful machine for market. Dr. Brown's tritium 
battery is a milestone for long-term energy demand that is in 
production, while his nuclear remediation project is progressing 
rapidly. Dr. Jefimenko's electrostatic motors clearly demonstrate an 
available energy source yet untapped. Wallman's biomass gasification is 
ready to be developed on a large scale. Shoulder's charge clusters 
demonstrate extraordinary energy production on a microscopic scale with 
reasonable upscaling anticipated. Dr. Miley's electrolytic power unit 
also shows an extraordinary energy output, which deserves more research 
and development support. Other inventors that meet the future energy 
criteria include Dr. Deborah Chung, from the State University of N.Y. 
at Buffalo, who has discovered ``negative'' resistance in carbon 
fibers.\10\ Another, James Griggs, the inventor of the hydrosonic pump 
(Pat. No. 5,385,298), represents an overunity ``apparatus for heating 
fluids'' which even exhibits sonoluminescence (now marketed by 
HydroDynamics in Rome, Georgia). Dr. Paulo Correa also qualifies with 
his pulsed abnormal glow discharge (PAGD) energy conversion system.\11\ 
It is our belief that all of these inventions have the qualifications 
to be acceptable to energy futures. Also, theoretically and 
experimentally, there is growing support for a breakthrough in zero 
point energy conversion,\12\ which is the subject of more than one 
patent, the most recent being Dr. Frank Mead's patent No. 5,590,031. 
Furthermore, the extraction of energy and heat from the vacuum has also 
been proposed by Drs. Harold Puthoff and Daniel Cole.\13\ Certainly, if 
only the 2.6 percent disruption in the oil flow from the Mid-East in 
1999 can cause immediate chaos in the gasoline prices in this country, 
we desperately need to cut the umbilical cord strangling us. Therefore, 
a more robust energy development effort is required to help us make the 
transition from dangerous fossil fuels. A more stable, long-term energy 
future is possible with new energy sources like these discussed in this 
article.
---------------------------------------------------------------------------
    \10\ Chung, Deborah, SUNY at Buffalo, 608 Furnas Hall, Buffalo, NY 
14260
    \11\ Correa, Paulo, ``Excess Energy Conversion System Utilizing 
Autogenous Pulsed Abnormal Glow Discharge,'' Proceedings of COFE, p. 
150 (Labofex Laboratory, 42 Rockview Gardens, Concord, Ontario L4K 2J6) 
email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c505d515e585d5f7c5b50535e5d504f594e4a5912525948">[email&#160;protected]</a>
    \12\ Valone, Thomas, ``Understanding Zero Point Energy,'' 
Proceedings of COFE, p. 58
    \13\ Cole and Puthoff, ``Extracting energy and heat from the 
vacuum,'' Physical Review E, vol. 48, No. 2, August 1993.
---------------------------------------------------------------------------
                               __________
 Moving Beyond the First Law and Advanced Field Propulsion Technologies
                    (By: Paul A. LaViolette, Ph.D.)
        1. the repression of nonconventional energy technologies
    According to U.S. patent law, a patent his the right to be issued 
if the technology is new and if it works. There is nothing in the legal 
code that says that the patent necessarily has to conform to theories 
of physics or chemistry as they happen to be defined by certain 
academic science societies. Unfortunately, administrators of the U.S. 
Patent and Trademark Office (PTO) have been illegally blocking the 
issuance of patents on new technologies that challenge current 
scientific thinking. This discrimination is often carried out in 
response to lobbying by Robert Park, who is Director of Public 
Information of the American Physical Society (APS), and by his 
affiliates. The process usually begins with media smear campaign aimed 
at defaming the inventors of nonconventional technologies or at 
embarrassing PTO examiners who hold scientific views they disagree 
with. Then this group of lobbyists email these media attacks to PTO 
administrators, or they may call up PTO officials with whom they have 
developed close associations to voice their dissatisfaction. The PTO 
administrators then respond in a knee jerk fashion to this outside 
pressure to either make sure that certain patents don't issue or to 
reprimand or even fire examiners who take an open minded approach to 
considering such new technologies.
    An example is the BlackLight Power Corp. case. BlackLight's 
inventor Randall Mills has developed a process for producing large 
amounts of energy from normal tap water. This is the kind of technology 
that we need to solve the present energy crisis. The reality of this 
technology has been independently verified by other scientific 
laboratories. Yet, Mills and his company have been repeatedly attacked 
by this APS lobby through Robert Park's news postings on the society 
website, derisive editorials written in mainstream science magazines, 
in lectures at the 1999 APS annual meeting, and even in a book authored 
by Park. Because this technology challenges the currently popular 
theories of physics, this lobby has unjustly branded it as being 
fraudulent. PTO administrators obediently responded to this outside 
pressure by unlawfully withdrawing one of BlackLight's patents after it 
had already been slated to issue in February 2000. One of the PTO 
officials who was involved in taking this action has admitted that they 
did this in response to media attacks leveled against BlackLight. The 
company is now suing the Department of Commerce for this travesty of 
justice.
    Another example concerns a patent awarded in February 2000 on an 
invention capable of sending communications faster than the speed of 
light. Witnesses attested that the invention worked as claimed. Yet 
shortly after the patent had issued, believing that the invention 
violated the theory of special relativity, Park posted a news item on 
the APS website which made fun of the PTO for having issued the patent. 
Arrangements were even made to have one patent website proclaim it to 
be the most ridiculous patent of the year. Papers published in refereed 
physics journals have described laboratory experiments in which waves 
have been made to travel faster than the speed of light. Yet 
disregarding this evidence, the Commissioner decided to side with the 
APS lobbyists. He severely reprimanded the patent examiner who had 
issued the patent and also threatened to fire his supervisor.
    Also there is the case of the firing of two patent examiners, Tom 
Valone and Paul LaViolette. Park and the APS lobby had been ridiculing 
them because they had an interest in nonconventional energy 
technologies and because they were involved in organizing a conference 
that included papers on nonconventional energy technologies. They 
attacked the examiners in postings on the APS website, in magazine 
editorials, and in lectures presented at the 1999 annual APS meeting 
where they admitted to their ongoing efforts to secure the removal of 
anyone at the PTO who sympathized with cold fusion technology. They 
also initiated an email campaign to PTO officials as well as made 
personal contacts with PTO officials. Within a day of this email blitz, 
Paul LaViolette was given notice of termination and proceedings were 
begun against Tom Valone which resulted in his removal 5 months later. 
Both examiners at the time had a commendable record of job performance. 
Both examiners now have Justice Department litigation pending on this 
matter.
    As a result of similar discrimination, government research moneys 
are routinely withheld from companies or individuals trying to develop 
such cutting edge ideas. In the name of preserving an outmoded set of 
theories that they claim their particular view. Government officials 
need to recognize that a working technology should not be suppressed 
just because it lies outside of the current scientific paradigm and 
produces results that refute that paradigm The goal should be to solve 
society's problems, not to reaffirm outmoded theories espoused by 
today's enfranchised physicists and chemists.
        2. the nonconventional energy technology bill of rights
    Nonconventional technologies may be our only hope for solving the 
problems that presently lie ahead of us, but they are currently the 
underdog. We need an affirmative action program to educate government 
agencies and mainstream media to develop a more positive attitude 
toward nonconventional technologies, to treat the researchers of these 
technologies in a fair manner, and to stop engaging in witch hunts. If 
we are going to deal with the problems we face, the scientific 
community needs to make a radical paradigm shift. They have to adopt a 
radically different attitude with respect to what is possible and what 
is not. There is not much time.
          3. the first law of thermodynamics is not inviolable
    The First Law of Thermodynamics states that energy may be neither 
created nor destroyed. But there is evidence that nature routinely 
violates the First Law.
    Energy creation: The discovery that the jovian planets (Jupiter, 
Saturn, Uranus, and Neptune) lie along the same luminosity trend line 
as stars of the lower main sequence (e.g. red dwarfs) throws a monkey 
wrench into theories of how stars generate their energy. Nuclear energy 
cannot explain this correspondence. One very simple solution to this 
problem is that a photon's energy is not constant, that photons inside 
celestial bodies slowly blue shift--increase their energy over time. 
Thus energy is being continuously created in stars throughout the 
universe. This so called ``genic energy'' emerges as a prediction of a 
new physics methodology called subquantum kinetics. Since red dwarfs 
make up most of the stars in our Galaxy, as a rule genic energy may be 
the dominant energy creation mechanism. Nuclear energy becomes 
important only in the much rarer, massive stars such as our Sun. 
Consequently, most of the stars in the universe may be run on ``free 
energy'' in violation of the First Law.
    Although this rate of energy creation is ten orders of magnitude 
smaller than what can be detected in laboratory experiments, it 
nonetheless weakens the arguments of those who maintain that the First 
Law is an inviolable doctrine of nature. If nature violates it, why 
can't we violate it also? Physics needs to make a major shift in 
thinking, shed their linear models which predict that there is no such 
thing as a free lunch, and embrace the newly emerging nonlinear models 
which allow the possibility that matter and energy may be created and 
destroyed.
  4. gravity field propulsion is real: townsend brown's technology of 
                            electrogravitics
    In the mid 1920s, Townsend Brown discovered that electric charge 
and gravitational mass are coupled. He found that when he charged a 
capacitor to a high voltage, it had a tendency to move toward its 
positive pole. This became known as the Biefeld-Brown effect. His 
important findings were opposed by conventional minded physicists of 
his time.
    The Pearl Harbor Demonstration.--Around 1953, Brown conducted a 
demonstration for top brass from the military. He flew a pair of 3 foot 
diameter discs around a 50 foot course tethered to a central pole. 
Energized with 150,000 volts and emitting ions from their leading edge, 
they attained speeds of several hundred miles per hour. The subject was 
thereafter classified.
    Project Winterhaven.--Brown submitted a proposal to the Pentagon 
for the development of a Mach 3 disc shaped electrogravitic fighter 
craft. Drawings of its basic design are shown in one of his patents. 
They are essentially large scale versions of his tethered test discs.
    Aviation Studies International.--They are a think tank that 
produces intelligence studies for the military. In 1956 they issued a 
report entitled ``Electrogravitics Systems'' which called for major 
government funding to develop Townsend Brown's electrogravitics 
technology and make Project Winterhaven a reality. The report stated 
that most of the aerospace was actively researching this antigravity 
technology. It named companies such as: Glenn-Martin, Convair, Sperry-
Rand, Bell, Sikorsky, Douglas, and Hiller. Other companies who entered 
the field included Lockheed and Hughes Aircraft, the latter being 
regarded by some as the world leader in the field. This report was 
initially classified. It was missing from the Library of Congress 
collection. Their staff made a computer search and found that the only 
other known copy was located at Wright Patterson Air Force Base. I 
obtained it from there through interlibrary loan. It is now published 
in the book Electrogravitics Systems, T. Valone (editor).
    Northrop's Wind Tunnel Tests.--In 1968, engineers at the Northrop 
Corp. performed wind tunnel tests in which they charged the leading 
edge of a wing to a high voltage. They were investigating how this 
technique could be used beneficially to soften the sonic boom of 
aircraft. Hence they were performing large scale tests on Brown's 
electrogravitic concept. Brown's R&D company had previously made known 
that sonic boom softening would be a beneficial side effect of this 
electrogravitic propulsion technique. Interestingly, Northrop later 
became the prime contractor for the B-2 bomber.
    The B-2 Bomber.--In 1992, black project scientists disclosed to 
Aviation Week and Space Technology magazine that the B-2 
electrostatically charges its exhaust to a high voltage and also 
charges the leading edge of its wing-like body to the opposite 
polarity. This information led Dr. LaViolette in 1993 to reverse 
engineer the B-2's propulsion system. He proposed that the B-2 is 
essentially a realization of Townsend Brown's patented electrogravitic 
aircraft. The B-2 is capable of taking off under normal jet propulsion. 
But when airborne, its electrogravitic drive may be switched on for 
added thrust. This system can only be turned on under dry conditions. 
If the B-2's dielectric wing were to become wet, the applied high 
voltage charge would short out, which explains why the B-2 is unable to 
fly in the rain. With electrogravitic drive, the B-2 is able to 
drastically cut its fuel consumption, possibly even to zero under high 
speed flight conditions.
    The commercial airline industry could dramatically benefit with 
this technology which would not only substantially increase the miles 
per gallon fuel efficiency of jet airliners, but would also permit 
high-speed flight that would dramatically cut flight time.
    Subquantum Kinetics Predicts Antigravity Effects.--General 
relativity doesn't explain the Biefeld-Brown electrogravitic effect or 
any other antigravity phenomenon since it predicts that masses have 
just one gravitational polarity and should only attract one another. It 
allows the possibility of charge-mass coupling, only at very high 
energies, such as those attainable in particle accelerators far more 
powerful than any thus far built. The subquantum kinetics physics 
methodology, however, offers a much needed answer to the 
insufficiencies of relativity. It predicts that gravitational mass 
should have two polarities (+ and-) and that these mass polarities 
should be correlated with the charge polarity of a particle. According 
to subquantum kinetics, Brown's electrostatic disc should establish a 
gravitational field gradient from front to back which has the effect of 
propelling the disc forward. The movement of the charges may contribute 
an even larger thrust effect. The same would apply to the B-2 bomber.
          5. other advanced aerospace propulsion technologies
    The Searl Electrogravity Disc and Russian Experiments.--This 
device, developed over 40 years ago by the British engineer John Searl, 
consisted of a segmented rotating disc each of whose segments was 
supported by a set of cylindrical permanent magnets rolling within a 
circumferential track. It is alleged to have achieved complete lift 
off. In the past few years two Russian scientists associated with the 
Russian National Academy of Sciences, Roschin and Godin, have built a 
simplified version of the Searl Disc that confirms its anomalous weight 
loss effects. They spun a 1 meter diameter disc at 600 rpm and obtained 
a 35 percent reduction in its weight while at the same time generating 
a 7 kilowatt excess electric power output.
    The Podkletnov Gravity Shield and Project Greenglow.--A research 
team in Finland led by Dr. Podkletnov were experimenting with a 
rotating superconducting disc that was floated on a repelling magnetic 
field generated by a series of electromagnets. In 1996, they reported 
that the disc was able to partially screen the Earth's gravitational 
field, reducing the weight of objects positioned above the disc by 2 
percent. Greater weight reductions are envisioned by stacking several 
discs over one another. Besides propulsion, there are obvious 
applications to tapping the resulting gravity differential for 
mechanical power generation. In the last few years, BAE Systems a 
company formed by the merger of British Aerospace with Marconi 
Electronic Systems, has been researching the Podkletnov gravity shield. 
They are doing this work under Project Greenglow, a project they have 
set up to investigate the feasibility of nonconventional technologies.
    The De Aquino Antigravity Effect.--A Brazilian university 
professor, Fran De Aquino, has produced a 50 percent weight reduction 
in a 2 foot diameter, annealed pure iron toroid weighing 77 pounds. He 
does this by internally energizing the toroid with 10 kilowatts of 60 
cycle electromagnetic radiation. His data predicts complete 
weightlessness of the torroid could be achieved with a 15 kilowatt 
power input.
    Gravito Inertial Lift System.--Aerospace engineer Jim Cox has 
recently improved on the Dean Drive, an inertial propulsion engine that 
was patented in May 1959. He reports tests demonstrating an upward 
thrust equal to 90 percent of the engine's weight. It uses a \1/4\ 
horsepower motor to revolve two counter-rotating rotors, each about 1 
cm in diameter, spinning them at about 600 rpm for a power consumption 
of about 200 watts. The lift is gotten by sinusoidally oscillating the 
rotors up and down and coupling them to the lift platform on their 
upward stroke. He obtains about 45 pounds of lift force per horsepower 
(~55 pounds/kw). He plans by the end of the year to have a freely 
lifting device which would be spun to 1200 rpm with a \1/2\ horsepower 
motor drawing 400 watts. He estimates that using this technology a 200 
horsepower automobile engine would be capable of generating a lift 
force of about 9000 pounds.
    Kineto-baric Field Propulsion.--German scientist Rudolph Zinsser 
discovered that sawtooth electromagnetic waves could be made to push 
distant objects. He produced a radio tube circuit that transmitted 45 
megahertz radio waves having a sharp rise and gradual fall. His 
experiments demonstrated that these waves could exert impulses of up to 
10<SUP>4</SUP> to 10<SUP>5</SUP> dyne seconds, which is equivalent to 
the application of about 1 to 3 ounces of force for a period of 1 
second. He found that this force could be generated with an amazingly 
low input power, the output-force-to-input-power ratio surpassing that 
of conventional propulsion methods by several powers of 10. His 
projections imply a thrust of 1350 pounds force per kilowatt.
    Field Thrust Experiments on Piezoelectrics.--James Woodward, a 
physics professor at Cal State Fullerton, is conducting research that 
indicates that electromagnetic waves can induce lofting forces in 
piezoelectric ceramic media. His ideas are described in a 1994 U.S. 
patent and in a 1990 physics journal article. Woodward has conducted 
experiments that confirm this thrust effect in the audio frequency 
range (~10,000 Hertz), and his calculations suggest that it may be 
substantially increased at higher frequencies, with optimal performance 
being obtained in the microwave range (0.1 to 10 gigahertz). His work 
has gotten some support from DoE.
                               __________
Accountability and Risk in the Information Era: Lessons Drawn From the 
                       ``Cold Fusion'' ``Furor''
            (By: Dr. Scott Chubb, Naval Research Laboratory)
                               background
    Nature does not lie. But it can fool us. Also, we frequently fool 
ourselves. When media attention, the politics of money and prestige, 
the possibility of extraordinary wealth, and the fear of embarrassment 
also become part of the equation, the resulting situation can rapidly 
escalate into a minefield of confusion. For this reason, ``taking 
risks,'' especially about areas involving science and technology, 
always can be dangerous. When opinion becomes part of the process, 
risk-taking can take on an identity of its own.
    An extreme example of this occurred 11 years ago when Stanley Pons 
and Martin Fleischmann (PF) took an ``extraordinary risk'' by 
``implying'' it was possible to ``create a room-temperature hydrogen 
bomb in a test-tube.'' \1\ Almost immediately, their ``suggestion'' 
``for new research'' ``not only `was discredited,' '' but with time, 
scorn and ridicule (even open harassment) routinely became part of the 
lives of individuals who have paid attention to it.\2\ However, despite 
the apparent meltdown, in public opinion, about Cold Fusion (CF), CF 
research has continued. An obvious question is why?
---------------------------------------------------------------------------
    \1\ This quote paraphrases comments from a number of popular 
sources of information (the popular press, newspapers, etc). It 
typifies the kind of imprecise, anecdotal information about Cold Fusion 
that, somewhat surprisingly, is still commonly believed to have been 
attributed to Pons and Fleischmann, and Jones et al. In fact, 
compelling evidence exists that novel forms of nuclear reaction exist, 
without high energy particles; http://www.infinite-energy.com.
    \2\ Charles G.Beaudette, Excess Heat: Why Cold Fusion Research 
Prevailed. (Oak Grove Press, LLC, ME, 2000). (ISBN 09678548-06; 
available through http://www.amazon.com, http://www.infinite-
energy.com; hardcover $36.95; softcover $26.95, distributed by INGRAM 
and Infinite-Energy Press).
---------------------------------------------------------------------------
                               what's new
    Clearly, one might ask one of two questions: 1. ``Are those who 
remained involved fooling nature or themselves?,'' or 2. ``Are those 
who are responsible for harassing those who have remained involved been 
fooled?'' In fact, at the core of both questions are two key issues: 1. 
The degree that individuals (or groups of individuals) can take 
``risks'' and also avoid ``appearing'' to be ``foolish'', or when or 
how (as a result of policy decisions, for example) can the ``perception 
of appearing to be foolish'' be ``augmented'' in a useful way to such a 
degree that a ``useful'' way ``to be foolish'' can occur, or 2. How, 
given the need to satisfy budget constraints and be ``persuasive and 
credible'', do we deal with ideas that are difficult to accept?
    Recently, while serving as guest editor of an Ethics in Science 
journal, titled ``Accountability in Research,'' \3\ I dealt with this 
issue. Specifically, I asked a number of senior individuals on both 
sides of the Cold Fusion debate to deal with the following question: 
regardless of whether or not Cold Fusion (CF) claims have merit, were 
(or are) there lessons that can be learned from the on-going situation? 
Almost universally, the various authors agreed on three general ideas: 
1. ``Normal'' scientific discussion about CF ended at a very early 
stage, 2. The ``breakdown'' of ``Normal'' scientific discussion not 
only has not been widely accepted outside the field, but 3. Although 
the reasons for this ``breakdown'' are not clear, the ``failure'' by 
particular ``individuals'' or ``institutions'' to be held 
``accountable'' for past actions has been largely responsible for this 
problem. Implicit in these assertions is an obvious point. ``Cold 
Fusion'' ``was'' ``and is'' a ``risky'' ``form'' of ``science.'' 
``Discussions about CF'' have ``ceased'' ``to be'' ``normal'' ``for 
precisely this reason.'' But there is a more poignant message: despite 
the fact that research in CF has continued, not only have the initial 
``critics'' largely avoided the subject, even though many of their 
criticisms have been adequately addressed, most scientists are simply 
unaware of this fact. An important reason for this is that many of the 
institutions that are involved either in disseminating information 
about science or in adjudicating science have largely ignored what has 
been going on.
---------------------------------------------------------------------------
    \3\ Scott R. Chubb, ``Introduction to the Special Collection of 
Articles in Accountability in Research Dealing With Cold Fusion'', in 
Accountability in Research, v. 8, 1 and 2. (eds. A.E. Shamoo, and S.R. 
Chubb, Gordon and Breach, Philadelphia, 2000). (http://www.gbhap-
us.com/journals/149/149-top.htm).
---------------------------------------------------------------------------
                                 impact
    There is an important lesson associated with this that applies not 
only in science, but in most forms of human interaction. For 
communication to occur, some form of accountability is necessary. (This 
is especially true when risk is involved.) Institutions and individuals 
must be held accountable for their actions for an obvious reason: the 
need to maintain trust. Specifically, when a particular party or group 
requests that an individual or institution be held accountable for a 
particular action, implicitly, trust occurs. This is because at a very 
basic level, for communication to occur at all, it is necessary that 
the parties mutually trust each other. The process of assigning 
accountability for a particular action involves the identification of a 
particular liability (or responsibility) that can be directly 
associated with a particular action. When the associated liability or 
responsibility is clearly identifiable, the degree of accountability 
can be quantified. Because in situations involving risk, the associated 
liability can be difficult to define, procedures for assigning 
accountability become less tangible.
    In ``normal'' circumstances, ``liability'' and ``responsibility'' 
and ``accountability'' not only can all be identified and related to 
each other but can be quantified either by precedent or through the 
potential for pecuniary damages or rewards (as defined through the 
marketplace, for example). Thus, typically, accountability can be 
measured using flows of information, ideas, money, or technology, 
almost in terms of a marketplace type of scenario. Then ``liability'' 
and ``responsibility'' can be defined in terms of how these processes 
are enhanced or impeded by a particular set of actions. When ``risk'' 
becomes part of the ``scenario'', however, this picture becomes 
altered, significantly.
    For this reason, within the context of ``normal'' science, it is 
relatively easy to identify the terms of accountability. However, when 
the relevant ``science'' ceases to be ``normal,'' because of ``risk,'' 
the terms associated with accountability cease to be as clearly 
defined. In fact, ``risk'' ``as it applies to CF'', in a grander 
context, also applies to ``bold'' or ``new'' initiatives. And many of 
the lessons from the CF controversy involving ``risk'' can be viewed as 
having more-far-reaching lessons associated in policy-decisions 
involving a particular individual or groups of individuals.
    Ironically, in the case of CF, the advent of Information Era 
technologies seems to have eroded the underlying communication problem. 
In particular, at an early stage, considerable confusion occurred as a 
result of the widespread dissemination of incomplete (and incorrect) 
information about the associated experiments, by FAX machines, and 
through the Internet. The resulting ``discourse'' quickly became 
distorted. This situation not only seriously undermined the scientific 
review process but seems to have been at least partly responsible for 
the fact that established scientific journals do not publish 
information about CF.
    In the talk, I will summarize my involvement with CF, as well as 
several important conclusions that I have summarized in my Introduction 
to the special two issue collection of articles from the Ethics in 
Science journal, Accountability in Research, where a number of senior 
individuals involved in the controversy have examined the associated 
breakdown in scientific dialog, about this topic. Important 
implications of the work include the need for greater investment in 
Science in ``formal'' and ``informal'' ``ways''. In particular, it is 
apparent that a ``rush-to-judge'' mentality was present in 1989 that 
clearly was related to funding (or loss of funding). This not only 
included a number of ``obvious `non-scientific' `events', and `reviews' 
'' involving a number of organizations (most notably the American 
Physical Society, the Department of Energy, and the Patent Office)'' 
but other actions, including non-scientific intervention (involving the 
American Physical Society and the Department of Energy) that appear to 
have been prompted by a lack of sufficient funding.
    The effect of this process is simple: after 11 years, not only have 
the relevant scientific issues not been adequately represented, serious 
questions about the adjudication process that is responsible for this 
should be addressed. The Congress, the President, and the Courts are 
the final bodies that ``should be `held' `accountable,' '' with regard 
to these issues. Science cannot be objective when the ``bodies'' ``that 
`hold' `Science' `captive' '' are not willing to ``investigate'' 
``Science.'' It is not only plausible but likely that others, besides 
those involved with the government, will be assigned ``blame'' ``for 
injustices'' associated with ``Cold Fusion.'' However, I believe this 
view is shortsighted. In my opinion, the institutions mirror 
investment. Scientists will only feel free to take risks when they are 
sufficiently protected to do so. In 1945, we felt compelled to 
``protect science.'' In 2000, this seems to be a forgotten message. 
Innovative Energy ideas, ``risky ideas'' (which ``wouldn't be `so 
risky' if scientists had adequate funding'') are left unexplored, as a 
consequence.
                               __________
 The Strange Birth of the Water Fuel Age: the Cold Fusion ``miracle'' 
                             was no Mistake
    Dr. Mallove's briefing paper, which was submitted on request from 
the White House for President Clinton (Feb., 2000) was not available at 
the time of this compilation, but may be obtained from him at: Infinite 
Energy Magazine, P.O. Box 2816, Concord, NH 03302, Phone: 603-228-4516.
                               __________
         The Unnecessary Energy Crisis: How to Solve It Quickly
        (T.E. Bearden, LTC, U.S. Army (Retired) CEO, CTEC Inc.)
                              introduction
                        the world energy crisis
    The world energy crisis is now driving the economies of the world 
nations.
    There is an escalating worldwide demand for electrical power and 
transportation, much of which depends on fossil fuels and particularly 
oil or oil products. The resulting demand for oil is expected to 
increase year by year. Recent sharp rises in some U.S. metropolitan 
areas included gasoline at more than $2.50 per gallon already.
    At the same time, it appears that world availability of oil may 
have peaked in early 2000, if one factors in the suspected Arab 
inflation of reported oil reserves. From now on, it appears that oil 
availability will steadily decline, slowly at first but then at an 
increasing pace.
    Additives to aid clean burning of gasoline are also required in 
several U.S. metropolitan areas, increasing costs and refinery storage 
and handling.
    The increasing disparity between demand and supply--steadily 
increasing demand for electricity using oil products versus decreasing 
world supplies of oil, with other factors such as required fuel 
additives--produces a dramatically increasing cost of oil and oil 
products. Further, newer supplies of oil must be taken by increasingly 
more expensive production means.
    Manipulative means of influencing the price of oil include (i) the 
ability of OPEC to increase or decrease production at will, and (ii) 
the ability of the large oil companies to reduce or increase the 
holding storage of the various oil products, types of fuel, etc. 
Interestingly, several large oil companies are reporting record 
profits.\1\
    At the same time, the burgeoning populaces of the major petroleum 
producers--and their increasing economic needs--press hard for an 
increasing inflation of oil prices in order to fund the economic 
benefits.
    As an example, Saudi moderation of OPEC is vanishing or has already 
vanished. The increasing demands of the expanding Saudi Royal Family 
group and the guaranteed benefits to the expanding populace have 
overtaken and surpassed the present Saudi financial resources unless 
the price of OPEC oil is raised commensurately.\2\
    The Federal Reserve contributes directly to the economic problem in 
the United States, since it interprets the escalating prices of goods 
and services (due to escalating energy prices) as evidence of 
inflation. It will continue to raise interest rates to damp the 
economy, further damping U.S. business, employment, and trade. The Fed 
has already increased interest rates six times in 1 year as of this 
date.
                      international trade factors
    Under NAFTA, GATT,\3\ and other trade agreements, the transfer of 
production and manufacturing to the emerging nations is also increasing 
and trade barriers are lowered. Some 160 emerging nations are 
essentially exempt from environmental pollution controls, under the 
Kyoto Accords. In these nations, electrical power needs and transport 
needs are increasing, and will continue to increase, due to the 
increasing production and movement of goods and the building of 
factories and assembly plants. Very limited pollution controls-if any-
will be applied to the new electrical plants and transport capabilities 
to be built in those exempted nations.
    The transfer of manufacturing and production to many of these 
nations is a transfer to essentially ``slave labor'' nations. Workers 
have few if any benefits, are paid extremely low wages, work long 
hours, and have no unions or bargaining rights. In some of these 
nations, to pay off their debts many parents sell their children into 
bondage for manufacture of goods, with 12 to 14 hour workdays being a 
norm for the children.\4\ In such regions the local politicians can 
usually be ``bought'' very cheaply so that there are also no effective 
government controls. Such means have set up a de facto return to the 
feudalistic capitalism of an earlier era when enormous profits could be 
and were extracted from the backs of impoverished workers, and 
government checks and balances were nil.
    The personal view of this author is that NAFTA, GATT, and Kyoto 
were set in place for this very purpose. As the transfer builds for the 
next 50 years, it involves the extraction of perhaps $2 trillion per 
year, from the backs of these impoverished laborers. It would not 
appear accidental that Kyoto removed the costly pollution control 
measures from this giant economic buildup that would otherwise have 
been required. The result will be increased pollution of the biosphere 
on a grand scale.
    Ironically, the Environmental Community itself was deceived into 
supporting the Kyoto accords and helping achieve them, hoping to put 
controls on biospheric pollution worldwide. In fact, the Kyoto accords 
will have exactly the opposite effect.
                   resulting world economic collapse
    Bluntly, we foresee these factors--and others\5\<SUP>-</SUP>\6\ not 
covered--converging to a catastrophic collapse of the world economy in 
about 8 years. As the collapse of the Western economies nears, one may 
expect catastrophic stress on the 160 developing nations as the 
developed nations are forced to dramatically curtail orders.
                 international strategic threat aspects
    History bears out that desperate nations take desperate actions. 
Prior to the final economic collapse, the stress on nations will have 
increased the intensity and number of their conflicts, to the point 
where the arsenals of weapons of mass destruction (WMD) now possessed 
by some 25 nations, are almost certain to be released. As an example, 
suppose a starving North Korea\7\ launches nuclear weapons upon Japan 
and South Korea, including U.S. forces there, in a spasmodic suicidal 
response. Or suppose a desperate China--whose long-range nuclear 
missiles (some) can reach the United States--attacks Taiwan. In 
addition to immediate responses, the mutual treaties involved in such 
scenarios will quickly draw other nations into the conflict, escalating 
it significantly.
    Strategic nuclear studies have shown for decades that, under such 
extreme stress conditions, once a few nukes are launched, adversaries 
and potential adversaries are then compelled to launch on perception of 
preparations by one's adversary. The real legacy of the MAD concept is 
this side of the MAD coin that is almost never discussed. Without 
effective defense, the only chance a nation has to survive at all is to 
launch immediate full-bore pre-emptive strikes and try to take out its 
perceived foes as rapidly and massively as possible.
    As the studies showed, rapid escalation to full WMD exchange 
occurs. Today, a great percent of the WMD arsenals that will be 
unleashed, are already onsite within the United States itself. \8\ The 
resulting great Armageddon will destroy civilization as we know it, and 
perhaps most of the biosphere, at least for many decades.
    My personal estimate is that, beginning about 2007, on our present 
energy course we will have reached an 80 percent probability of this 
``final destruction of civilization itself'' scenario occurring at any 
time, with the probability slowly increasing as time passes. One may 
argue about the timing, slide the dates a year or two, etc., but the 
basic premise and general timeframe holds. We face not only a world 
economic crisis, but also a world destruction crisis.
    So unless we dramatically and quickly solve the energy crisis--
rapidly replacing a substantial part of the ``electrical power derived 
from oil'' by ``electrical power freely derived from the vacuum''--we 
are going to incur the final ``Great Armageddon'' the nations of the 
world have been fearing for so long. I personally regard this as the 
greatest strategic threat of all times--to the United States, the 
Western World, all the rest of the nations of the world, and 
civilization itself.\9\<SUP>-</SUP>\10\
                 what is required to solve the problem?
    To avoid the impending collapse of the world economy and/or the 
destruction of civilization and the biosphere, we must quickly replace 
much of the ``electrical energy from oil'' heart of the crisis at great 
speed, and simultaneously replace a significant part of the 
``transportation using oil products'' factor also. Such replacement by 
clean, nonpolluting electrical energy from the vacuum will also solve 
much of the present pollution of the biosphere by the products of 
hydrocarbon combustion. Not only does it solve the energy crisis, but 
it also solves much of the environmental pollution problem.
    The technical basis for that solution and a part of the prototype 
technology required, are now at hand. We discuss that solution in this 
paper.
    To finish the task in time, the Government must be galvanized into 
a new Manhattan Project\11\ to rapidly complete the new system hardware 
developments and deploy the technology worldwide at an immense pace.
    Once the technology hardware solutions are ready for mass 
production, even with a massive worldwide deployment effort some 5 
years are required to deploy the new systems sufficiently to contain 
the problem of world economic collapse. This means that, by the end of 
2003, those hardware technology solutions must have been completed, and 
the production replacement power systems must be ready to roll off the 
assembly lines en masse.
    The 2003 date appears to be the critical ``point of no return'' for 
the survival of civilization as we have known it.
    Reaching that point, say, in 2005 or 2006 will not solve the crisis 
in time. The collapse of the world economy as well as the destruction 
of civilization and the biosphere will still almost certainly occur, 
even with the solutions in hand.
    A review of the present scientific and technical energy efforts to 
blunt these strategic threat curves, immediately shows that all the 
efforts (and indeed the conventional scientific thinking) are far too 
little and far too late. Even with a massive effort on all of the 
``wish list'' of conventional projects and directions, the results 
would be insufficient to prevent the coming holocaust.
    As one example, the entire hot fusion effort has a zero probability 
of contributing anything of significance to the energy solution in the 
timeframe necessary. Neither will windmills, more dams, oil from tar 
sands, biofuels, solar cells, fuel cells, methane from the ocean 
bottom, ocean-wave-powered generators, more efficient hydrocarbon 
combustion, flywheel energy storage systems, etc. All of those projects 
are understandable and ``nice'', but they have absolutely zero 
probability of solving the problem and preventing the coming world 
economic collapse and Armageddon.
    Those conventional approaches are all ``in the box'' thinking, 
applied to a completely ``out of the box'' problem unique in world 
history.
    The conventional energy efforts and thinking may be characterized 
as essentially ``business as usual but maybe hurry a little bit.'' They 
divert resources, time, effort, and funding into commendable areas, but 
areas which will not and cannot solve the problem. In that sense, they 
also contribute to the final Armageddon that is hurtling toward us.\12\
    If we continue conventionally and with the received scientific 
view, even with massively increased efforts and a Manhattan Project, we 
almost certainly guarantee the destruction of civilization as we know 
it, and much of the biosphere as well.
    Bluntly, the only viable option is to rapidly develop systems which 
extract energy directly from the vacuum and are therefore self-
powering, like a windmill in the wind.\13\ Fortunately, analogous 
electrical systems--open systems far from thermodynamic equilibrium in 
their exchange with the active vacuum--are permitted by the laws of 
physics, electrodynamics\14\ and thermodynamics.\15\ Such electrical 
systems are also permitted by Maxwell's equations, prior to their 
arbitrary curtailment by Lorentz symmetrical 
regauging<SUP>16, 17, 20</SUP>.
    The good news was that the little mathematical trick by Lorentz 
made the resulting equations much easier to solve (for the selected 
``subset'' of the Maxwell-Heaviside systems retained).
    However, the bad news is that it also just arbitrarily discarded 
all Maxwellian EM systems far from thermodynamic equilibrium (i.e., 
asymmetrical and in disequilibrium) with respect to their vacuum energy 
exchange.
    So the bad news is that Lorentz arbitrarily discarded all the 
permissible electrical power systems analogous to a windmill in a wind, 
and capable of powering themselves and their loads. All our energy 
scientists and engineers continue to blindly develop only Lorentz-
limited electrical power systems.
    The good news is that we now know how to easily initiate continuous 
and powerful ``electromagnetic energy winds'' from the vacuum at will. 
Once initiated, each free EM energy wind flows continuously so long as 
the simple initiator is not deliberately destroyed.
    The bad news is that all our present electrical power systems are 
designed and developed so that they continually kill their ``energy 
winds'' from the vacuum faster than they can collect some of the energy 
from the winds and use it to power their loads.
    But the good news is that we now know how to go about designing and 
developing electrical power systems which (i) initiate copious EM 
energy flow ``winds'' in the vacuum, (ii) do not destroy these winds 
but let them continue to freely flow, and (iii) utilize these freely 
flowing energy winds to power themselves and their loads.
    So we have already solved the first half of the energy crisis 
problem:<SUP>18, 19</SUP> We can produce the necessary ``EM energy wind 
flow'' in any amount required, whenever and wherever we wish, for 
peanuts and with ridiculous ease. We can insure that, once initiated, 
the electromagnetic energy wind flows indefinitely or until we wish to 
shut it off.
    A tiny part of the far frontier of the scientific community is also 
now pushing hard into catching and using this available EM energy from 
the vacuum.\20\ However, they are completely unfunded and working under 
extremely difficult conditions.\21\
    In addition, there are more than a dozen appropriate processes 
already available (some are well-known in the hard literature), which 
can be developed to produce the new types of electrical energy 
systems.\22\
                     what must be done technically
    We have about 2\1/2\ years to develop several different types of 
systems for the several required major applications--and particularly 
the following:
    (1) Self-powering open electrical power systems extracting their 
electrical energy directly from the active vacuum and readily scalable 
in size and output,
    (2) Burner systems\23\ to replace the present ``heater'' elements 
of conventional power plants, increasing the coefficient of performance 
(COP)\24\ of those altered systems to COP>1.0, and perhaps to COP = 
4.0,
    (3) Specialized self-powering engines to replace small combustion 
engines,\25\
    (4) Self-regenerating, battery-powered systems enabling practical 
electric automobiles, based on the Bedini \26\ process,
    (5) Kawai COP>1.0 magnetic motors\27\ with clamped feedback, 
powering themselves and their loads,
    (6) Magnetic Wankel engines\28\ with small self-powering batteries, 
which enable a very practical self-powering automotive engine unit for 
direct replacement in present automobiles,
    (7) Permanent magnet motors such as the Johnson\29\ approach using 
self-initiated exchange force pulses\30\ in nonlinear magnetic 
materials to provide a nonconservative field, hence a self-powering 
unit,
    (8) Iterative retroreflective EM energy flow systems which 
intercept and utilize significant amounts of the enormous Heaviside 
dark energy\31\ which surrounds every electrical circuit but is 
presently ignored,
    (9) Iterative phase conjugate retroreflective systems which 
passively recover and reorder the scattered energy dissipated from the 
load, and reuse the energy again and again,\32\
    (10) Shoulders' charge cluster devices\33\ which yield COP>1.0 by 
actual measurement,
    (11) Self-exciting systems using intensely scattering optically 
active media and iterative asymmetrical self-
regauging<SUP>34, 35, 36, 67</SUP>,
    (12) True negative resistors such as the Kron\37\ and Chung\38\ 
negative resistors, the original point-contact transistor\39\ which can 
be made into a negative resistor, and the Fogal negative resistor 
semiconductor, and
    (13) Overunity transformers using a negative resistor bypass across 
the secondary, reducing the back-coupling from secondary to primary and 
thus lowering the dissipation of energy in the primary.\40\
           what must be done for management and organization
    To meet the critical 2003 ``point of no return'' milestone, the 
work must be accomplished under a declared National Emergency and a 
Presidential Decision Directive.
    The work must be amply funded, with authority--because of the 
extreme emergency--to utilize any available patented processes and 
devices capable of being developed and deployed in time, with 
accounting and compensation of the inventors and owners separately.
    As an example, two of the above mentioned devices--the Kawai engine 
and the magnetic Wankel engine--can be quickly developed and produced 
en masse. However, they have been seized by the Japanese 
Yakuza<SUP>41, 42, 43</SUP> and are being held off the world market. 
The two devices are quite practical and can be developed and 
manufactured with great rapidity. As an example, two models of the 
Kawai engine were tested by Hitachi to exhibit COP = 1.4 and COP = 1.6 
respectively. Use of these two inventions, under U.S. Government 
auspices, will greatly contribute to solving a significant portion of 
the transportation power problem, at low risk for this part of the 
solution. Use of them cannot be obtained by normal civil means, due to 
the involvement of the Yakuza.
    The technical part of the project to solve the energy crisis is 
doable in the required time--but just barely, and only if we move at 
utmost speed.
    Thanks to more than 20 years work on unconventional solutions to 
the problem, much of the required solution is already in hand, and the 
project can go forward at top speed from the outset
    The remaining managing and organizing problem is to marshal the 
necessary great new Manhattan Project as a U.S. Government project 
operating under highest national priority and ample funding. The 
Project must be a separate Agency, operating directly under the 
appropriate Department Secretary and reporting directly to the 
President (through the Secretary) and to a designated Joint Committee 
of the Senate and the House.
    The selection of the Managers and Directors must be done with 
utmost care; else, they themselves will become the problem rather than 
the solution. We strongly stress that here even the most highly 
qualified managerial scientist may have to be disqualified because of 
his or her own personal biases and dogmatic beliefs. Leaders and 
scientists are required who will run with the COP>1.0 ball on a wide 
front.
    The compelling authority to assign individual tasks to the National 
Laboratories and other government agencies is required, but under no 
circumstances can the project be placed under the control of the 
national laboratories themselves. Those laboratories such as Los Alamos 
National Laboratory, Lawrence Livermore National Laboratory, and Oak 
Ridge National Laboratory are far too committed to their entrenched Big 
Science projects and the resulting bias against electrical energy from 
the vacuum.
    Assigning management of the project to them would be setting the 
foxes to minding the hen house, and would guarantee failure. Those 
agencies whose favored approaches are responsible for the present 
energy crisis, cannot be expected to direct an effective solution to it 
that is outside their managerial and scientific ansatz and totally 
against their institutional and professional biases. If they are 
allowed to direct the project, then implacable scientists, who 
adamantly oppose electrical energy from the vacuum from the getgo, will 
hamstring and destroy the project from its inception.
    Not only will they fiddle while Rome burns, but they will help burn 
it.
Enormous EM Energy Flow Is Easily Extracted From the Active Vacuum
    At any point and at any time, one can freely and inexpensively 
extract enormous EM energy flows directly from the active vacuum 
itself.
    There is not now and there never has been a problem in readily 
obtaining as much electromagnetic energy flow from the vacuum as we 
wish. Anywhere. Anytime. For peanuts.
    Every electrical power system and circuit ever built already does 
precisely that<SUP>44-45</SUP>. But almost all the vast EM energy flow 
that the present flawed systems extract from the vacuum is unaccounted 
and simply wasted. It is wasted by the conventional, seriously flawed 
circuits and systems designed and built by our power system scientists 
and engineers in accord with a terribly flawed 136-year-old set of 
electrodynamics concepts and foundations. Specifically, it is wasted 
because Lorentz discarded it a century ago.\45\ Since then, everyone 
has blindly followed Lorentz's lead.
    Our electrical scientists and engineers have not yet even 
discovered how a circuit is powered!
    They have no valid concept of where the electrical energy flowing 
down the power line actually comes from. They do not model the 
interaction that provides it,\46\ in their theoretical models and 
equations. This vast scientific ``conspiracy of ignorance'' is 
completely inexplicable, because the actual source of the EM energy 
powering the external circuits has been known (and rigorously proven) 
in particle physics for nearly half a century! However, it has not yet 
even been added into the fundamental electrical theory used in 
designing and building power systems.
    We have a scientific mindset problem of epic proportions, and 
scientific negligence and electromagnetics dogma of epic proportions. I 
sometimes refer to this as an unwitting ``conspiracy of ignorance'', 
where I use the word ``ignorance'' technically as meaning ``unaware''. 
We certainly do not intend the phrase to be pejorative.
    So we do not have an energy problem per se. We have an unwitting 
conspiracy of scientific ignorance problem.
    Because of its bias, our electrical scientific community also 
strongly resists updating the 136-year-old electrodynamics foundations 
even though much of it is known to be seriously flawed and even 
incorrect<SUP>47, 48</SUP>. Indeed, organized science has always 
fiercely resisted strong innovation. As Max Planck\49\ so eloquently 
put it,

          ``An important scientific innovation rarely makes its way by 
        gradually winning over and converting its opponents: it rarely 
        happens that Saul becomes Paul. What does happen is that its 
        opponents gradually die out, and that the growing generation is 
        familiarized with the ideas from the beginning.''

    Arthur C. Clarke\50\ expressed it succinctly for our more modern 
scientific community, as follows:

          ``If they [quantum fluctuations of vacuum] can be [tapped], 
        the impact upon our civilization will be incalculable. Oil, 
        coal, nuclear, hydropower, would become obsolete--and so would 
        many of our worries about environmental pollution.'' ``Don't 
        sell your oil shares yet--but don't be surprised if the world 
        again witnesses the four stages of response to any new and 
        revolutionary development: 1. It's crazy! 2. It may be 
        possible--so what? 3. I said it was a good idea all along. 4. I 
        thought of it first.''

    With respect to extracting and using EM energy from the vacuum, our 
present scientific community is mostly in Clarke's phase 1. A few 
scientists are in phase 2 but surmise that ``it may perhaps be the 
science of the next century.''
    We do not have a century remaining. We have 2\1/2\ years.
    For nearly half a century (i) the active vacuum, (ii) the vacuum's 
energetic interaction with every dipole, and (iii) the broken symmetry 
of the dipole\51\ in that energetic interaction 55 have been known and 
proven in particle physics. These proven COP>1.0 vacuum energy 
mechanisms have not been incorporated into the electrodynamic theory 
used to design and build electrical power and transportation 
systems.\52\ We are still waiting for the ``old scientific 
opponents''--adamantly opposed to the very notion of electrical energy 
from the vacuum--to ``die off and get out of the way.''
    Hence our universities, the National Science Foundation, the 
National Academy of Science, the National Laboratories, etc. have not 
taken advantage of the enormous EM energy so universally available from 
the active vacuum, and in fact universally and copiously extracted from 
the vacuum by every EM system today--and wasted. Indeed, present 
organized science will not fund and will not tolerate research that 
would violate the presently decreed view of power systems and their 
functioning.
    Hence, our present organized scientific community will strongly 
resist funding of a vigorous program to gather all this proven, known 
physics together and rapidly use it to change and update (modernize) 
the terribly flawed EM theory and the design of electrical power 
systems. Most scientists attempting to do this research have had to 
proceed on their own. They have undergone vicious and continual ad 
hominem attacks, lost research funds and tenure, been unable to get 
their papers published, and in fact risked being destroyed by the 
scientific community itself.\21\
    The bottom line is this: Left to sweet reason, because of the depth 
of its present bias the scientific community is totally incapable of 
reacting to the problem in time to prevent the destruction of 
civilization. If we wish to survive, government will have to directly 
force the scientific community to do the job, over careers and ``dead 
bodies'' (so to speak) if necessary.
    But first the government itself must be motivated to do so.
    Only the environmental community has the clout, financial 
resources, and activists to motivate the government in the extremely 
short time in which it must be accomplished. So it would seem that the 
most urgent task is to educate and wake up the environmental community. 
It has been ``had'', and it has been ``had'' since the beginning.
Understanding What Powers Electrical Circuits
    Let us cut through the scientific errors in how electrical power 
systems are presently viewed: Batteries and generators themselves do 
not power circuits. They never have, and they never will. They 
dissipate their available internal energy\53\ to do one thing and one 
thing only: forcibly separate their own internal charges to form a 
``source dipole.''\54\ Once the dipole has been formed, the dipole 
directly extracts electromagnetic energy from the active vacuum, 
pouring the extracted EM energy out from the terminals of the battery 
or generator.
    Batteries and generators make a dipole, nothing else. All the fuel 
ever burned, the nuclear fuel rods ever consumed, and chemical energy 
ever expended by batteries, did nothing but make dipoles. None of all 
that destructive activity, of itself, ever added a single watt to the 
power line.
    Once made, the dipole then extracts EM energy from the seething 
vacuum, and pours it out down the circuit and through all surrounding 
space around the circuit.\56\ A little bit of that energy flow strikes 
the circuit and enters it by being deflected (diverged) into the 
wires.\57\ That tiny bit of intercepted energy flow that is diverged 
into the circuit, then powers the circuit (its loads and losses).\58\
    All the rest of that huge energy flow around the circuit just roars 
on off into deep space and is wasted.
The Dipole Extracts Enormous Energy from the Vacuum
    The outflow of EM energy extracted from the vacuum by a small 
dipole is enormous. It fills all space surrounding the attached 
external circuit (e.g., surrounding the power lines attached to a power 
plant generator).\56\ In the attached circuits, the electrical charges 
on the surfaces of the wires are struck by the mere edge of the violent 
flow of EM energy passing along those surfaces. The resulting tiny 
``intercepted'' part\57\ of the EM energy flow is deflected into the 
wires, very much like placing one's hand outside a moving automobile 
and diverting some of the wind into the car. The deflected energy that 
enters the wires is the Poynting component of the energy flow. It is 
not the entire EM energy flow by any means, but only a very, very tiny 
component of it.\58\
    Only that tiny bit of the energy flow that is actually diverged 
into the wires is used to power the circuit and the loads. All the rest 
of the enormous energy flow present and available outside the circuit 
is just ignored and wasted.
    A nominal 1-watt generator, e.g., is actually one whose external 
circuit can ``catch'' only one watt of its output. The generator's 
actual total output--in the great flow which fills all space around the 
external circuit and is not intercepted and used--is something on the 
order of 10 trillion watts!
Our Scientists and Engineers Design Dipole-Destroying Systems
    Here is the most inane thing of all. Precisely half of the small 
amount of energy that is actually caught by the circuit is used to 
destroy the dipole! That half of the intercepted energy does not power 
the load, nor does it power losses in the external circuit. Instead, it 
is used to directly scatter the dipole charges and destroy the dipole.
    Our scientists and engineers have given us the ubiquitous closed 
current loop circuit,\59\ which destroys the dipole faster than it 
powers the load. In short, the scientists and engineers design and 
build only those electrical power systems that ``continuously commit 
suicide'' by continuously destroying the source dipole that is 
extracting the vacuum energy and emitting it out along the circuit to 
power everything in the first place.
    So now, we have the real picture.
    Every electrical load ever powered, and every load powered today, 
has been and is powered by electromagnetic energy extracted directly 
from the seething vacuum by the source dipole in the generator or 
battery.
    However, our scientists and engineers design and build electrical 
power systems that only intercept and use a tiny fraction of the vast 
EM energy flow available. They also only design and build systems that 
destroy their source dipole faster than they power their loads.
    If one does not destroy the dipole once it is made, it will 
continue to freely extract copious EM energy flow from the vacuum, 
indefinitely, pouring out a stupendous flow of EM energy.
    As an example, dipoles in the original matter formed in the Big 
Bang at the beginning of the universe have been steadily extracting EM 
energy from the vacuum and pouring it out for about 15 billion years.
    The energy problem is not due to the inability to produce copious 
EM energy flows at will--as much as one wishes, anywhere, anytime. 
Every dipole already does this, including in every EM power system ever 
built.
    The energy problem is due to the complete failure to (i) intercept 
and utilize more of the vast energy flows made available by the common 
dipole, and (ii) doing so without using the present inanely designed 
circuits. These circuits use half their collected energy to destroy the 
dipole that is extracting the energy flow from the vacuum in the first 
place!
    This is part of the ``conspiracy of scientific ignorance'' earlier 
mentioned.
Ignoring the Vacuum as the Source of Electrical Energy in All Circuits
    In their conventional theoretical models, our present electrical 
power system scientists and engineers do not even include the vacuum 
interaction or the dipole's extraction of EM energy from the vacuum. 
They simply ignore--and do not model--what is really powering every 
electrical system they build.
    Consequently, we reiterate that our electrical scientists have 
never even discovered how an EM circuit is powered--although it has 
been discovered and known for nearly 50 years in particle physics.
    All the hydrocarbons ever burned, all the water over all the dams 
ever built, all the nuclear fuel rods ever expended in all the nuclear 
power plants, added not a single watt to the power line.
    Instead, all that expense, effort, and pollution and destruction of 
the biosphere was and is necessary in order to keep adding internal 
energy to the generator--so that it can keep continually rebuilding its 
source dipole that is continually destroyed by the inane circuits that 
the power system scientists and engineers keep designing and building 
for us.
    It takes as much energy input to the generator to restore the 
dipole, as it took the circuit to destroy the dipole. Thus all the 
systems our scientists and engineers design and build, require that we 
continually input more energy to restore the dipole, than the circuit 
dissipates in the load.
    Our technical folks thus happily design and give us systems which 
can and will only exhibit COP<1.0--thus continuing to require that we 
ourselves steadily provide more energy to the system to continually 
rebuild its dipole, than the inane masochistic system uses to power its 
load.
    In short, we pay the power companies (and their scientists and 
engineers) to deliberately engage in a giant wrestling match inside 
their generators and lose.
    That is not the way to run the railroad! One is reminded of one of 
the classic comments by Churchill:

          ``Most men occasionally stumble over the truth, but most pick 
        themselves up and continue on as if nothing had happened.''

    It seems that not very many energy system scientists and engineers 
have ``stumbled over the truth'' as to what really powers their 
systems, and how inanely they are really designing them.
Electrical Energy Required from Hydrocarbon Burning Drives the Problem
    The heart of the present environmental pollution problem is the 
ever-increasing need for electrical energy obtained from burning of 
hydrocarbon fuels and/or nuclear power stations.
    The increasing production of electrical power to fill the rising 
needs, increasingly pollutes the environment including the populace 
itself (lungs, bodies, etc.). Almost every species on earth is 
affected, and as a result every year some species become extinct.
    Environmental pollution includes pollution of the soil, fresh and 
salt water, and the atmosphere by a variety of waste products. Given 
global warming, it also includes excess heat pollution in addition to 
chemical and nuclear residues.
    Under present procedures, the electrical energy problem is 
exacerbated by decreasing available oil supplies, which are believed to 
have peaked this year, with a projected decline from now on.
    But really, the electrical energy problem is due to the scientific 
community's adamant defense and use of electrical power system models 
and theories that are 136 years old\60\ in their very foundations. 
These models and theories are riddled with errors and non sequiturs, 
and seriously flawed.
    The scientific community has not even recognized the problem, much 
less the solution. In fact, it does not even intend to recognize the 
problem, even though the basis for it has been known in particle 
physics for nearly 50 years. As Bunge\61\ put it some decades ago:

          ``. . . it is not usually acknowledged that electrodynamics, 
        both classical and quantal, are in a sad state.''

    The scientific community has done little to correct that 
fundamental problem since Bunge made his wry statement.
    Let us put it very simply: The most modern theory today is modern 
gauge field theory. In that theory, freedom of gauge is assumed from 
the getgo. Applied to electrodynamics, this means--as all 
electrodynamicists have assumed for the last century or longer--that 
the potential energy of an EM system can be freely changed at will. In 
other words, in theory it costs nothing at all to increase the EM 
energy collected in a system; this is merely ``changing the voltage'', 
which does not require power. In other words, we can ``excite'' the 
system with excess energy (actually taken from the vacuum), at will. 
For free. And the best science of the day agrees with that statement.
    It also follows that we can freely change the excitation energy 
again, at will. In short, we can dissipate that excess energy freely 
and at will. Without cost.
    Well, this means that we are free--by the laws of nature, physics, 
thermodynamics, and gauge field theory--to dissipate that free excess 
potential energy in an external load, thus doing ``free work''.
    Since none of the systems our energy scientists and engineers build 
for us are doing that, it follows a priori that the fault lies entirely 
in their own system design and building. It does not lie in any 
prohibition by nature or the laws of physics.
    A priori, then, the present COP<1.0 performance of our electrical 
power systems is a monstrosity and the direct fault of our scientists 
and engineers. We cannot blame the laws of nature or the laws of 
physics.
    The present energy crisis then is due totally to that ``conspiracy 
of ignorance'' we referred to. It is maintained by the scientific 
community today, and it has been maintained by it for more than 100 
years.
    This is the real situation that the environmentalists must become 
aware of, if they are to see the correct path into which their energies 
and efforts should be directed--to solve both the energy crisis and the 
problem of gigantic pollution of the biosphere.
Outside Intervention Must Forcibly Move Energy Science Forward
    Unless outside intervention occurs forcibly, the scientific 
community's lock-up of research funds for ``in the box'' energy 
research may result in the economic collapse of the Western World in 
perhaps as little as 8 years.
    Let us examine the gist of the problem facing us.
    Suppose we launch a crash program to develop, manufacture, deploy, 
and employ the new ``vacuum powered'' systems. Once the new self-
powering systems are developed and ready to roll off the production 
lines en masse, it will require a minimum of 5 years worldwide to 
sufficiently alter the ``electrical energy from oil'' demand curve, so 
that economic collapse can be averted. In turn, this means that the new 
systems must be ready to roll off the manufacturing lines by the end of 
2003. While this is a very tight schedule, it can be done if we move 
rapidly.
    The necessary scientific corrections along the lines indicated in 
this paper can be quickly applied to solve the electrical energy 
problem permanently and economically, given a Manhattan type project 
under a Presidential Decision Directive together with a Presidential 
declaration of a National Energy Emergency.
    In a paper\62\ to be published in Russia in July 2000, this 
researcher has proposed some 15 viable methods for developing new 
``self-powering'' systems powering themselves and their loads with 
energy extracted from the vacuum. Several of these systems can be 
developed very rapidly, and can be easily mass-produced.
    A second paper\63\ will be published in the same proceedings, 
revealing the Bedini method for invoking a negative resistor inside a 
storage battery. The negative resistor freely extracts vacuum energy 
and adds it to both the battery-recharging function and the load 
powering function.
    In Bedini's negative resistor method, the ion current inside the 
battery is decoupled (dephased) from the electron current between the 
outer circuit and the external surfaces of the battery plates. This 
allows the battery to be charged (with increased charging energy) 
simultaneously as the load is powered with increased current and 
voltage.
    At my specific request, both papers were thoroughly reviewed by 
qualified Russian scientists, and the premises passed successfully.
    A third paper\64\ gives the exact giant negentropy mechanism by 
which the dipole extracts such enormous energy from the vacuum. We will 
further explain that mechanism below.
Conventional Approaches: Too Little, Too Late
    It appears that the Environmental Community itself has finally 
realized that the present scientific approaches and research are simply 
too little and too late. Further, the conventional approaches are 
largely ``in the box thinking'' applied to an ``out of the box 
problem.'' We leave it to others such as Loder\65\ to succinctly 
summarize the shortfalls of these present solutions. Loder, e.g., 
particularly and incisively explains how the problem with automobiles 
breaks down.
    In fact, no single COP>1.0 approach will be all sufficing. Several 
solutions, each for a different application, must be developed and 
deployed simultaneously.
    As an example, it is possible to create certain dipolar phenomena 
in plasmas produced in special burners, such that the dipoles extract 
substantial excess EM energy from the vacuum. Output of the excess 
energy produces ordinary excess heat well beyond what the combustion 
process alone will yield. Given a Manhattan type project, the inventor 
of that process (with already working models and rigorous measurements) 
could rapidly be augmented to develop a series of replacement burners 
(heaters). They could be used in existing electrical power plants to 
heat the water to make the steam for the steam turbines turning the 
shafts of the generators. The entire remainder of the power system, 
grid, etc. could be left intact. Some fuel would still be burned, but 
far less would be consumed in order to furnish the same required heat 
output.
    In short, a rather dramatic reduction in power plant hydrocarbon 
combustion could be achieved--in the present electrical power plants 
with minimum modification, and in the necessary timeframe--while 
maintaining or even increasing the electrical energy output of the 
power systems. We believe the inventor would fully participate in a 
government-backed Manhattan type energy program where a National 
Emergency has been declared, given a U.S. Government guarantee that his 
process, equipment, and inventions will not be confiscated.\66\
    Another process capable of quick development and enormous 
application is the development of point contact transistors as true 
negative resistors.\39\
    Two other processes that can be developed for massive production in 
less than 2 years are (i) the Kawai process,\27\ and (ii) the magnetic 
Wankel process.\28\ In addition, the Johnson\29\ process can be 
developed and readied for manufacture in the same timeframe, given a 
full-bore sophisticated laboratory team.
    There are other processes<SUP>67, 62-63</SUP> which can also be 
developed rapidly, to provide major contributions in solving their 
parts of the present ``electrical energy from hydrocarbon combustion'' 
problem.
Giant Negentropy and a Great New Symmetry Principle
    We now summarize some recent technical discoveries by the present 
author that bear directly upon the problem of extracting and using 
copious EM energy flows from the vacuum.
    Any dipole has a scalar potential between its ends, as is well 
known. Extending earlier work by Stoney,\68\ in 1903 Whittaker\69\ 
showed that the scalar potential decomposes into--and identically is--a 
harmonic set of bidirectional longitudinal EM wavepairs. Each wavepair 
is comprised of a longitudinal EM wave (LEMW) and its phase conjugate 
LEMW replica. Hence, the formation of the dipole actually initiates the 
ongoing production of a harmonic set of such biwaves in 4-space.\70\
    We separate the Whittaker waves into two sets: (i) the convergent 
phase conjugate set, in the imaginary plane, and (ii) the divergent 
real wave set, in 3-space. In 4-space, the 4th dimension may be taken 
as -ict. The only variable in -ict is t. Hence the phase conjugate 
waveset in the scalar potential's decomposition is a set of harmonic EM 
waves converging upon the dipole in the time dimension, as a time-
reversed EM energy flow structure inside the structure of time.\71\ Or, 
one can just think of the waveset as converging upon the dipole in the 
imaginary plane\72\--a concept similar to the notion of ``reactive 
power'' in electrical engineering.
    The divergent real EM waveset in the scalar potential's 
decomposition is then a harmonic set of EM waves radiating out from the 
dipole in all directions at the speed of light. As can be seen, there 
is perfect 4-symmetry in the resulting EM energy flows, but there is 
broken 3-symmetry since there is no observable 3-flow EM energy input 
to the dipole.
    Our professors have taught us that output energy flow in 3-space 
from a source or transducer, must be accompanied by an input energy 
flow in 3-space. That is not true. It must be accompanied by an input 
energy flow, period. That input can be an energy flow in the 4th 
dimension, time--or we can consider it as an inflow in the imaginary 
plane. The flow of energy must be conserved, not the dimensions in 
which the flow exists. There is no requirement by nature that the 
inflow of EM energy must be in the same dimension as the outflow of EM 
energy.
    Indeed, nature prefers to do it the other way! Simply untie 
nature's foot from the usually enforced extra condition of 3-space 
energy flow conservation. Then nature joyfully and immediately sets up 
a giant 4-flow conservation, ongoing. Enormous EM energy is inflowing 
from the imaginary plane into the source charge or dipole, and is 
flowing out of the source charge or dipole in 3-space, at the speed of 
light, and in all directions.
    In other words, nature then gladly gives us as much EM energy flow 
as we need, indefinitely--just for paying a tiny little bit initially 
to ``make the little dipole.'' After that, we never have to pay 
anything again, and nature will happily keep on pouring out that 3-flow 
of EM energy for us. This is the giant negentropy mechanism I 
uncovered, performed in the simplest way imaginable: just make an 
ordinary little dipole.
    We may interpret the giant negentropy mechanism in electrical 
engineering terms.\73\ The EM energy flow in the imaginary plane is 
just incoming ``pure reactive power'' in the language of electrical 
engineering. The outgoing EM energy flow in the real plane (3-space) is 
``real power'' in the same language. So the dipole is continuously 
receiving a steady stream of reactive power, transducing it into real 
power, and outputting it as a continuous outflow of real EM power.
    Further, there is perfect 1:1 correlation between the convergent 
waveset in the imaginary plane and the divergent waveset in 3-space. 
This perfect correlation between the two sets of waves and their 
dynamics represents a deterministic re-ordering of a fraction of the 4-
vacuum energy. This re-ordering initiated by the formation of the 
dipole spreads radially outward at the speed of light, continuously.
    This clearly shows that (i) we can initiate reordering of a usable 
fraction of the vacuum's energy at any place, anytime, easily and 
cheaply (we need only to form a simple dipole), and (ii) the process 
continues indefinitely, so long as the dipole exists, without the 
operator inputting a single additional watt of power.
    This is a very great benefit. So long as the dipole exists, this 
re-ordering continues and a copious flow of observable, usable EM 
energy pours from the dipole in all directions at the speed of light.
    This is the full solution to the first half of the energy crisis, 
once and for all.
Ansatz of the Major Players
    To appreciate the difficulty in implementing the solution to the 
energy crisis, one must be aware of the characteristics of the major 
communities whose dynamics and interactions determine the outcome. 
Accordingly, we summarize our personal assessment of the present 
``status'' and ``awareness'' of the various communities involved. We do 
that by attempting to express the overall ``ansatz'' of the specific 
community.
                          scientific community
    For the most part, the organized scientific community varies from 
highly resistant to openly hostile toward any mention of extracting 
copious EM energy from the active vacuum. The ``Big Nuclear'' part of 
the community is particularly adamant in this respect, as witness its 
ferocious onslaught on the fledgling and struggling cold fusion 
researchers-a ferocity of scientific attack seldom seen in the annals 
of science<SUP>74-75</SUP>.
    The scientific community also largely suppresses\76\ or severely 
badgers scientists attempting to advance electrodynamics to a more 
modern model, suitable to the needs of the 21st century and the 
desperate need for cheap, clean, nonpolluting electrical power 
worldwide.\21\ The community still applies classical equilibrium 
thermodynamics to the electrical part of all its electrical power 
systems, even though every EM system is inherently a system far from 
equilibrium with the active vacuum environment, and a different 
thermodynamics applies. Only if the system is specifically so 
designed--e.g., so that during the dissipation of its excitation energy 
it enforces the Lorentz symmetrical regauging condition--will the 
system behave as a classical equilibrium system.
    The thermodynamics of open dissipative systems is well known.\77\ 
Such a system is permitted to (1) self-order, (2) self-oscillate or 
self-rotate, (3) output more energy than the operator inputs (the 
excess energy is freely received from the active environment), (4) 
power itself and its load simultaneously (all the energy is taken from 
the active environment, similar to a windmill's operation), and (5) 
exhibit negentropy.
    Our present electrical power systems do not do these five things, 
even though each is an open system in violent energy exchange with the 
vacuum. A priori, that reveals it is the scientific model and the 
engineering design that are at fault.
    It is not any law of nature or principle of physics that prevents 
self-powering open electrical power systems. Instead, it is the 
scientific community and its prevailing mindset against extracting and 
using EM energy from the vacuum.
                        environmental community
    In the past, the environmental community has been overly naive with 
respect to physics, and particularly with respect to electrical 
physics. Its science advisors have come mostly from the conservative 
``in the box'' scientific community. Hence, the community has failed to 
realize that COP>1.0 electrical power systems are normal and permitted 
by the laws of nature and the laws of physics. They have no inkling 
that Heaviside discovered--in the 1880's!--the enormous unaccounted EM 
energy pouring from the terminals of any battery or generator. They are 
unaware that Poynting considered only the tiny component of the energy 
flow that enters the circuit. They are also unaware that, completely 
unable to explain the astounding enormity of the EM energy flow if the 
nondiverged (nonintercepted) Heaviside component is accounted, 
Lorentz\18\ just arbitrarily used a little procedure to discard that 
troublesome Heaviside ``dark'' (unaccounted) component.
    Lorentz reasoned that, since the huge dark energy flow component 
missed the circuit entirely, it ``had no physical significance.'' This 
is like arguing that none of the wind on the ocean has any physical 
significance, except for that small portion of the wind that strikes 
the sail of one's own sailboat. It ignores the obvious fact that whole 
fleets of additional sailboats can also be powered by that ``physically 
insignificant'' wind component that misses one's own sailboat entirely.
    Nonetheless, electrodynamicists continue to use Lorentz's little 
discard trick, and try to call the feeble Poynting energy flow 
component caught by the circuit the entire EM energy flow connected 
with it. This is like arguing that the component of wind hitting the 
sails of one's own sailboat, is the entire great wind on the ocean.
    As a result, the environmental community has failed to grasp the 
technical reason for the energy crisis and the increasing pollution of 
the biosphere. They have been deceived and manipulated into thinking 
that conventional organized science is giving them the very best 
technical advice possible on electrical power systems. The 
environmentalists have been and are further deceived into believing 
that the conventional scientific community is advocating and performing 
the best possible scientific studies and developments for trying to 
solve the energy crisis.
    Of major importance, the environmental community itself has been 
deceived as to the exact nature of the energy flow in and around a 
circuit, the vastness of the unaccounted energy flow (or even that any 
of the energy flow is deliberately unaccounted), and the fact that this 
present but unaccounted EM energy flow can be intercepted and captured 
for use in powering loads and developing self-powering systems.
    Worst of all, the environmental community has been deceived as to 
what powers every electrical load and EM circuit. They have been 
deceived into believing that burning all those hydrocarbons, using 
those nuclear fuel rods, building those dams and windmills, and putting 
out solar cell arrays are necessary and the best that can be done. In 
short, they have been smoothly diverted from solving the very problem--
the problem of the increasing pollution and destruction of the 
biosphere--they are striving to rectify.
    However, their continued demonstrations in the street demonstrate 
that many environmentalists now suspect that much of the world's 
continued policy of ``the rich get richer and the poor get poorer'' in 
international trade agreements are deliberately planned and 
implemented.\78\ They perceive the implementation to the advantage of a 
favored financial class and the exploitation of the poorer laboring 
classes in disadvantaged nations.
                       electrical power community
    The electrical power community:
    (1) ubiquitously uses equilibrium thermodynamics, believing that 
COP>1.0 is perpetual motion nonsense and against the laws of physics,
    (2) has no notion that the energy flowing down their power lines 
and filling all space around them, is extracted directly from the 
active vacuum by the source dipole in the generator,
    (3) erroneously believes that the hydrocarbons they burn, or the 
water through the hydroturbines at the dam, or the nuclear fuel rods 
they consume, actually add the power to the transmission lines,
    (4) uses half of the tiny component of energy caught by the power 
lines, to destroy the source dipoles in their generators, thus 
requiring ever more shaft input energy via powering a steam turbine, 
hydroturbine, etc.,
    (5) believes that energy can be ``used'' only once, when in fact it 
can be used and re-used repeatedly since it cannot be created or 
destroyed,
    (6) allows only a single pass of the EM energy flow down the power 
lines, so that only one tiny interception of energy occurs from the 
energy flow and the rest (most) of the energy flow is wasted,
    (7) believes that the electrical energy problem translates into 
more hydrocarbon combustion or nuclear fuel rod consumption rather than 
a totally different way of doing business, and
    (8) believes that the theory they apply is correct, when in fact it 
is so seriously flawed as to be inane, and has been inane for a 
century.
    Industries also acquire their own hidden agendas, when serious 
threats to the industries arise. As an example, a potentially serious 
problem arose some decades ago when it became apparent that EM 
radiation from power lines might detrimentally affect people or at 
least some people. To put it gently, a great deal of fuss and fury 
resulted, and a great deal of money was and is spent by the power 
companies (or through organizations and foundations funded by them) in 
EM bioeffects research. Not too surprisingly, just about the entire 
output of this industry-funded research ``finds'' that there is no 
problem with powerline radiation.\79\ Those scientists such as Robert 
Becker<SUP>80-81</SUP> who advocate or show otherwise, usually wind up 
having all their funds cutoff, hounded from their jobs, and--in the 
case of Becker-forced to retire early.
    It is no different in the electrical energy science field.\21\
                       storage battery companies
    Battery companies are primarily of much the same outlook and ansatz 
as are the power companies. They have gone to pulse charging of 
batteries and improved battery chemistry and materials.\82\ They have 
no notion that batteries do not power circuits, but only make source 
dipoles--and it is the source dipole that then extracts EM energy from 
the vacuum and pours it out into the external circuit.
    Consequently, they erroneously believe that chemical energy in the 
battery is expended in order to provide power to the external circuit. 
Instead, it is expended only to continuously remake the source dipole, 
which the closed current loop circuit fiendishly keeps destroying 
faster than the load is powered.
    They also have not investigated deliberately dephasing and 
decoupling the major ion current within the battery and between the 
plates, from the electron current between the outside of the plates and 
the external circuit. Consequently they have no concept of permissible 
Maxwellian COP>1.0 battery-powered systems. Instead, battery companies, 
scientists, and engineers still believe--along with the power companies 
and most electrodynamicists, and the environmental community--that 
applying the Lorentz symmetrical regauging to the Heaviside-Maxwell 
equations retains all the Maxwellian systems. It does not. Instead, it 
arbitrarily discards all Maxwellian systems which are permitted by the 
laws of nature and the laws of physics to produce COP>1.0!
                          university community
    The University community mostly supports the prevailing EM view. It 
also suffers from the rise of common ``greed'' in the universities 
themselves. The professor now must attract external funding (for his 
research, and for his graduate students--and especially for the 
lucrative ``overhead'' part of the funding which goes to the university 
itself). The research funds available for ``bidding'' via submitting 
proposals, are already cut into ``packages'' where the type of research 
to be accomplished in each package is rigorously specified and 
controlled. Research on COP>1.0 systems is strictly excluded. Dramatic 
revision of electrodynamics is excluded.
    Unless the professor successfully bids and obtains packages and 
their accompanying funding, he is essentially ostracized and soon 
discharged or just ``parked'' by the wayside. Also, if he tries to ``go 
out of the box'' in his papers submitted for publication, his peer 
reviewers will annihilate him and his papers will not be published. 
Shortly he will effectively be blacklisted and it will be very 
difficult for him to have his submitted papers honestly reviewed, much 
less published. Again, that means no tenure, no security, and eventual 
release or ``dead-end parking'' by the university.
    When one looks at the ``innovative'' packages so highly touted, 
they either (1) are research focused upon some approved thing such as 
hot fusion--which has spent billions and has yet to produce a single 
watt on the power line, and cannot do so in any reasonable time before 
the collapse of the Western economy--or (2) use clever buzzwords for 
things which are actually ``more of the same'' and ``in the box 
thinking'' with just some new words or twists thrown in for spin 
control.
    Meanwhile, all this makes for a self-policing system, which rewards 
conservatism--conservative publications, conservative research, 
conservative thinking, conservative teaching, etc. In short, it selects 
and approves electrical power system research that is ``too little, too 
late'' to solve the world energy crisis in time, and ruthlessly rejects 
all the rest. It also makes for a self-policing system which roots out 
and destroys (or parks on the sidelines) those professors, graduate 
students, and post-docs who--given a chance to be highly innovative and 
``out of the box'' researchers--might upset the status quo.
    In short, the scientific community is itself the greatest arch foe 
of high innovation, just as Planck indicated. The university generally 
typifies and reflects that overall attitude because its outside 
research funds are controlled and managed by the upper echelons of the 
organized Big Science community and the governmental community.
                    government community--technical
    The technical part of the U.S. Government research community is 
drawn from the universities, private industry, etc. It mostly reflects 
an even more conservative group than the universities. Again, papers 
published and funding are the major requirements, within given and 
largely accepted scientific constraints. Further, the managerial 
government scientists must compete for funding, annual budgets, etc. 
and have their own ``channel'' constraints from on high. At the top 
levels (such as NSF and NAS), cross-fertilization by the aims and 
perceptions of the conservative scientific community leaders is 
achieved.
    Hence the government technical community is largely constrained in 
two fashions: (1) by its own forced competition for funds, facilities, 
positions, programs, etc., and (2) by its strong cross-fertilization 
from the top scientific personnel in NSF, NAC, etc. Individual 
scientists also face the need to publish or perish, and so are further 
constrained by the reviewers etc. of the journals.
    Most managers within the government scientific community are 
striving to scamper up the managerial ladder, much as managers 
elsewhere. One's power and prestige rises as one's position level 
rises--and particularly as the part of the government's research budget 
rises that one controls. There is a fine tightrope to walk. As one 
gains control of more government budget for research, one becomes a 
powerful influence on the large research corporations which will submit 
very complex and extensive proposals for the funds.
    A sort of ``common understanding'' thus arises between industry 
leaders, higher government research leaders and managers, etc. This can 
be so profound that the practical result is almost a sort of 
``collusion by common understanding'' between the government and 
industrial complexes and a fusion into one consortium--essentially the 
``military-industrial complex'' which President Eisenhower warned 
Americans against.
    The result is that the government managers in their Request for 
Quotations (RFQs) use words such as ``out of the box'' and ``highly 
innovative.'' However, they rarely will fund such proposals because 
they simply cannot obtain approval for such budgets and programs from 
``higher up the chain.'' As witnessed by the ultrawideband (UWB) radar 
controversy, the government technical community is even more resistant 
to innovation and change than is the civilian technical community.
    As an example, the early UWB radar pioneers (Harmuth, Barrett, 
etc.) were attacked by entrenched government scientists and government 
scientific organizations with a viciousness rarely seen in the annals 
of government science. The objection raised was that sinusoidal EM 
waves could not do such things--even though the UWB radar used 
nonsinusoidal EM waves. Further, small UWB radar sets were commercially 
available and used to detect voids in concrete structures, the ground, 
etc. The real reasons for the violent attacks were the prestige and 
power of the Stealth community at the time--and because UWB radar had 
the implication of tracking Stealth vehicles readily.
    Interestingly, the arch foes of UWB at the time, today would have 
us believe they are ``staunch experts'' in the UWB field. To understand 
their remarkable metamorphosis, one need only recall Arthur C. Clarke's 
words, quoted earlier.
    In the COP>1.0 EM energy field, we are still rather much at the 
stage where the UWB researchers started. We are still in the ``violent 
attack, personal insults, character assassination, slander, libel, 
etc.'' stage. Sadly, such ad hominem savagery is by scientists who 
themselves have no notion of how electromagnetic circuits are actually 
powered, and who--like ostriches--still have their heads buried in the 
sand back there in the 1880's when Lorentz discarded the enormous 
Heaviside energy flow component.
                   government community--nontechnical
    Here we have a rather mixed situation. The nontechnical person--
e.g., a Senator or a Congressperson--is operating under a distinct 
disadvantage. In taking the stance that much better electrical power 
systems can readily be achieved, he or she is, in fact, opposing almost 
the entire set of university, government technical, university, power 
company, battery company, and organized science communities. Further, 
in most cases his technical advisors are themselves from one or the 
other of those communities, and likely to go back into that community 
or those communities when the Senator or Congressperson leaves office, 
or even before. So the Congress and the nontechnical government 
community at large operate at a great disadvantage.
    As an example, admittedly there are some very misguided unorthodox 
energy system inventors and scientists out there, who in the guise of 
furthering COP>1.0 systems actually contribute to the problem rather 
than to the solution. A few do not even realize that they cannot 
properly measure a ``spiky'' output with an RMS meter! Some are also 
more interested in selling ``dealerships'' and ``stock'' than in 
furthering the science of COP>1.0 systems. Few have submitted their 
purported COP>1 devices to rigorous testing by an independent, 
Government-certified test laboratory.\83\
    This ``noise'' seriously dilutes the unconventional scientific 
community's legitimate efforts in COP>1.0 systems. By playing up such 
``dilution'' and accenting ``the crazies,'' the orthodox scientific 
community often convinces government nontechnical managers and 
personnel that the unorthodox scientific COP>1.0 community is comprised 
only of lunatics, charlatans, stock-scam artists and misguided crank 
inventors.
    Such, of course, is not the case. A goodly number of reputable, 
skilled scientists are seriously struggling with the problems of 
developing COP>1.0 EM power systems and devices. A few are also 
struggling to develop an adequate theory of such systems. Progress is 
slowly being made and has been made, in spite of the harassment.\84\
    The independent assessments that Congress once enjoyed with the OTA 
are no more because the OTA was abolished. Now the committees, 
subcommittees, and individual Congresspersons and Senators are largely 
on their own, with their own staffs and their own technical advisors.
    That said, nonetheless it can be seen by savvy Senators and 
Congresspersons that the U.S. Ship of State is headed for a great 
economic bust, and probably the greatest one of all time.
    The Government Nontechnical community (the Senate and the Congress, 
in particular) is in far better shape than the Government Technical 
community, to appreciate the world implications of the pending economic 
disaster. I am hopeful that both the environmentalists and the 
Government Nontechnical community will rapidly unite in a common goal 
to get this vacuum energy program launched, under a National Emergency 
declaration. If so, then they can solve the energy crisis and the 
pending economic crisis, in fairly short order, and permanently.
                               conclusion
    There is an even more ominous specter looming behind the shadow of 
the coming great economic collapse. When national economies get 
strained to the breaking point--with some of them failing, etc. 
worldwide as the price of oil escalates--the conflicts among nations 
will increase in number and grow in intensity. About a year or so ahead 
of the ``Great Collapse'' of the world economies, the intensity and 
desperation of the resulting national conflicts will have increased to 
the breaking point.
    Some 25 Nations already have weapons of mass destruction (WMD)--
including nuclear warheads; missile, aircraft, boat, and terrorist 
delivery systems; biological warfare weaponry; and other advanced 
weapons<SUP>9-10</SUP>, etc.<SUP>85-86</SUP>.
    Any knowledgeable person knows that hostile terrorist agents are 
already onsite here in the United States,\87\ and some will have 
smuggled in their WMDs. It is not too difficult to surmise that some of 
those missing Russian ``suitcase nukes'' probably wound up right here 
in the United States, hidden in our population centers.\88\ Or that 
some of Saddam Hussein's large stock of anthrax has been spirited into 
the United States as well. As is well known, the threat from weapons of 
mass destruction is now officially recognized as the greatest strategic 
threat facing the United States. It is not a matter of if the WMD 
weapons will be unleashed, but when.
    If one transposes that recognized escalating WMD threat onto the 
escalating economic pressures worldwide, then another factor comes into 
play--the dark side of the Mutual Assured Destruction (MAD) concept. We 
have opted (at least to date) not to defend our populace. The U.S. 
Government has deliberately placed U.S. population centers in a 
defenseless situation so that their destruction is ``assured'' once the 
WMD balloon really goes up.
    The insanity of the MAD concept is revealed when war preparations 
by many nations start to be perceived--as they will be, when the 
conflicts intensify sufficiently and the looming economic collapse 
tightens the cinch on the nations of the world.
    Without any protection of its populace, a defending Nation has to 
fire on perception of nuclear preparations by its adversaries, if that 
Nation is to have even the slightest chance of surviving.
    At about that 2007 date when a nation sees its adversaries 
preparing WMD and nuclear assets for launch or use in ongoing intense 
conflicts, at some point that nation must pre-empt and fire massively, 
or accept its own ``assured destruction.''
    The only question in MAD is whether the assured destruction shall 
be mutual or solitary.
    So one or more nations will fire, immediately moving all the rest 
into the ``fire on perception'' mode. Very rapidly, the situation then 
escalates to the all-out worldwide exchange so long dreaded. This 
massive exchange means the destruction of civilization itself, and 
probably much of the entire biosphere for decades or centuries. Such 
escalation from one or more initial nuclear firings has been shown for 
decades by all the old strategic nuclear studies. It is common 
knowledge to strategic analysts unless one engages in wishful thinking.
    Eerily, this very threat now looms in our not too distant future, 
due in large part to the increasing and unbearable stresses that 
escalating oil prices will elicit.
    So about 7 years or so from now, we will enter the period of the 
threat of the Final Armageddon, unless we do something very, very 
quickly now, to totally and permanently solve the present ``electrical 
energy from oil'' crisis.
    This is really why we must have a National Emergency proclamation, 
and a Manhattan Project. Mass manufacturing, deployment, and employment 
of replacement electrical power systems must begin in earnest in early 
2004.
    In my estimate, the point of no return for developing the self-
powering replacement systems is about the end of 2003. If by early 2004 
we do not have multiple types of vacuum-energy powered systems rolling 
off the assembly lines en masse, then we shall overshoot the point of 
no return. In that case, it matters not whether the systems then become 
available or not. They will then be too late to prevent the great 
Armageddon and the destruction of civilization.
    Personally, the present author regards the increasing energy crisis 
as the greatest strategic threat to the United States in its entire 
history. I will do anything within my power to help prevent what I 
perceive to be the looming economic collapse of the Western world, 
preceded or accompanied by a sudden, explosive, all-out and continuing 
exchange of the WMD arsenals of most of the world.
    We can still meet this early 2004 production deadline. It is 
difficult, but it is definitely a doable at this time.
    We must do it, and we must do it now. Else the technology for 
electrical energy from the vacuum will also be ``too little, too 
late.'' In that case, not only the world economy, but civilization 
itself, will likely be destroyed--not 100 years from now, not 50 years 
from now, but in less than one decade from now.
    In the name of all humanity, let us begin! Else by the time this 
first decade of the new millennium ends, much of humanity may not 
remain to see the second decade.
                          References and Notes
    1. And of course it is said to be accidental that all the 
manipulative measures and profit-taking happen to coincide with the 
large increase in demand in the United States during the summer 
vacation and tourist months.
    2. E.g., see F. Gregory Gause III, ``Saudi Arabia Over a Barrel,'' 
Foreign Affairs, 79(3), May/June 2000, p. 80-94. Quoting, p. 82: 
``Saudi oil policy is now driven primarily by the immediate revenue 
needs of a government struggling to maintain a welfare state designed 
in the 1970s--when money seemed limitless and the population was 
small--for a society with one of the world's fastest-growing 
populations.'' Our comment is that the financial disarray of the Saudis 
is seen by Gause as a need to get Saudi Arabia into the World Trade 
Organization--in other words, into the clutches of globalization. For a 
resounding expose of the WTO, see Lori Wallach and Michelle Sforza, 
Whose Trade Organization? Corporate Globalization and the Erosion of 
Democracy, published by Public Citizen Foundation and available by 
order from the web at http://www.globaltradewatch.org. Wallach and 
Sforza reveal and document the machinations of the World Trade 
Organization as an instrument of globalization and usurpation of 
national rights. The WTO is only one of many organizations prepared by 
the High Cabal (Winston Churchill's term) to establish the return for 
much of the world to a version of the old feudal capitalism where 
national governments posed no checks and balances and workers had no 
rights or benefits.
    3. NAFTA stands for North American Free Trade Agreement, passed by 
Congress in 1993, creating a trade and investment region consisting of 
Canada, the United States, and Mexico. GATT stands for General 
Agreement on Tariffs and Trade (Uruguay Round) in 1994, which created 
the World Trade Organization (WTO). Other such agreements set in place 
to initiate world globalization financial control over nations include 
or have included MAI (Multilateral Agreement on Investment) and OECD 
(Organization for Economic Co-operation and Development) in which many 
of the ``secret'' agreements are prepared and then scurried through 
passage by ``fast track'' means where the Congress allows the President 
to negotiate trade agreements that are then voted on by the Congress 
without amendment. Quoting Moises Naim, ``Lori's War,'' Foreign Policy, 
Vol. 118, Spring 2000, p. 35, ``. . . fast track is the legislative 
legerdemain under which Congress allows the President to negotiate 
trade agreements that are then voted on without amendments. Without it, 
the White House has no guarantee that lawmakers will not seek to change 
the terms of trade agreements reached after lengthy trade talks.'' Our 
comment is that there should be no such guarantee to the White House, 
since the Congress consists of our duly elected representatives--
elected precisely for the purpose of representing the U.S. public 
rather than the Administration. The ``fast track'' ploy is one way of 
bypassing full congressional discussion, examination, etc. so that the 
desired globalization control measures can be ``sneaked through'' 
without a rigorous examination of their provisions. In this way, 
national authority and constitutional provisions can gradually be 
undermined by a continuing series of such sneak actions.
    4. According to the International Labour Organization, some 250 
million boys and girls between the ages of five and 14 are exploited in 
hazardous work conditions. Most of these children live in the 
developing world--although in industrialized countries such as the 
United States, hundreds of thousands of underage boys and girls are at 
work in sweatshops, farm fields, brothels, and on the street. E.g., see 
Sandy Hobbs, Michael Lavalette, and Jim McKechnie, Child Labor, ABC-
CLIO, Inc., 1999. For a poignant visual and verbal tour through the 
problem, see Russell Freedman and Lewis Hine, Kids at Work: Lewis Hine 
and the Crusade Against Child Labor, Houghton Mifflin, Aug. 1994. The 
United Nations also has several publications on the problem and its 
extent.
    5. As one example, the Russian mafia, together with the GRU and KGB 
under its new name, are the dominant factors in Russia, Russian 
business, and the Russian side of relations between the United States 
and Russia. See particularly Stanislov Lunev and Ira Winkler, Through 
the Eyes of the Enemy: Russia's Highest Ranking Military Defector 
Reveals Why Russia Is More Dangerous Than Ever, Regnery, Washington, 
DC, 1998. Quoting p. 12: ``When the Soviet Union collapsed and its 
industries were privatized, there was only one group within Russia with 
the money to buy the new industries, and that was the Russian mafia. 
But the mafia did more than buy the industries--it bought the 
government.'' Quoting p. 13: ``The cold war is not over; the new cold 
war is between the Russian mafia and the United States.'' Quoting p. 
14: ``The Soviet Union did not collapse because of `reform-minded 
leaders' or because of the Reagan Administration's brilliantly 
aggressive strategy (though that strategy played a part). The truth is 
that the Russian mafia caused the collapse. Soviet `reform' was nothing 
more than a criminal revolution.''
    6. As another example, the Japanese Yakuza has penetrated most 
large Japanese corporations, including Japanese banking and to include 
the national Japanese bank. E.g., see Michael Hirsh and Hideko 
Takayama, ``Big Bang or Bust?'', Newsweek, Sept. 1, 1997, p. 44-45. 
Some $300 billion or more were extracted by the Yakuza from the 
Japanese taxpayers in a great land scandal. Japan's banks loaned 
billions to Yakuza-affiliated real-estate speculators, and the Yakuza 
would not repay the funds. The banks were literally too terrified to 
collect on the $300-600 billion in bad debt that ensnared the banking 
system. E.g., when Sumitomo Bank got a little aggressive in collecting 
loans in Nagoya, its branch manager was killed. For a summary of this 
scandal, see Brian Bremner, ``How the Mob burned the Banks: The Yakuza 
is at the Center of the $350 Billion Bad-loan Scandal,'' Business Week, 
Jan. 29, 1996, p. 42-43, 46-47. The Japanese government--i.e., the 
taxpayers--had to absorb this enormous loss.
    The Yakuza have achieved the power and status of a hostile nation, 
operating within United States-Japanese corporate relations, within 
other nations' relations with Japan, and within the oriental 
communities of foreign states. Great influence upon the ability or 
inability of the U.S. Government to continue its deficit financing now 
rests in the hands of the Yakuza. Effectively, the Yakuza can trigger a 
U.S. stock market crash at will, by simply shutting off all further 
Japanese purchase of U.S. Government deficit financing bonds.
    The Yakuza regard themselves as the last Samurai, still follow the 
old Bushido concept, and are intensely hostile to the United States for 
the humiliating defeat of Japan in WW II and for dropping the atomic 
bomb on Japan. At the critical time in the coming economic crisis, 
cessation of Japanese purchase of U.S. Government bonds can and will 
initiate the financial coup de grace which generates the final and 
sudden collapse of the U.S. economy, dragging down other economies with 
it. It appears that the Yakuza tested the response of the U.S. stock 
market to this tactic on two occasions, by simply slowing the rate of 
Japanese purchases of U.S. Government bonds. The immediate drops in the 
stock market on both occasions showed the efficacy of this financial 
weapon, whenever the Yakuza wish to employ it.
    In the United States, the Yakuza constitute an important and 
growing hostile terrorist group, an intense subculture increasing in 
numbers, and a group biding its time prior to engaging in mass 
terrorism strikes. Together with the Aum Shinrikyo, in 1990 the Yakuza 
leased the operational use of clandestine strategic longitudinal EM 
wave interferometer weapons in Russia. They now possess some of the 
most powerful strategic weapons on earth (see notes 9 and 10, below).
    7. The recent historic meetings of North and South Korean leaders, 
with proclamations of cooperation etc., are a healthy sign for the 
better. With the former implacable North Korean dictator now dead, the 
new and younger leader may have less hostile outlook. However, progress 
can be made only very slowly, since the Communist apparatus is still in 
power in the armed forces and the nation. Only as more of the old die-
hard Communist leaders die off, will real progress start to be made in 
materially lessening the threat posed by North Korea. That is a process 
requiring a generation, but at least a start has been made. For our 
thesis, that progress is likely to be sufficiently slow that, while it 
damps the stress curves a little, it has no appreciable effect on the 
overall thesis of the eruption within the decade of a great 
conflagration involving weapons of mass destruction.
    8. Particularly see Lunev and Winkler, ibid., 1998 for the fact 
that Spetznatz assassination and terror teams are already deployed 
onsite in the United States, as are their WMD weapon caches to include 
nuclear weapons. A number of nations of the world have secretly 
deployed nuclear and biological weapons throughout the interior of 
their perceived enemy nations, often using diplomatic pouch privilege 
to bring them directly into the targeted nation. It is called ``dead 
man fusing.'' The notion was an extension of the MAD concept: with 
weapons and teams secreted throughout a targeted nation, then the 
potent threat that, even if one's own nation is destroyed, one can 
still destroy the foe who did it, supposedly acts as a deterrent.
    9. Also involved, there are clandestine weapons of far greater 
power than nuclear weapons, but most of that subject is beyond the 
scope of this presentation. For some time we have informed the U.S. 
Government of these developments, the evidence, the events, etc. An 
example--current at its time of preparation--is T. E. Bearden, 
Energetics: Extensions to Physics and Advanced Technology for Medical 
and Military Applications, CTEC Proprietary, May 1, 1998, 200+ page 
inclosure to CTEC Letter, ``Saving the Lives of mass BW Casualties from 
Terrorist BW Strikes on U.S. Population Centers,'' to Major General 
Thomas H. Neary, Director of Nuclear and Counterproliferation, Office 
of the Deputy Chief of Staff, Air and Space Operations, HQ USAF, May 4, 
1998. Copies of a similar presentation were furnished the DoD, Senator 
Shelby as head of the Senate's Intelligence subcommittee, and 
Congressman Weldon as head of the House's Intelligence subcommittee 
efforts, as well as other U.S. Government agencies and high ranking 
officials.
    10. The earlier clandestine asymmetrical strategic weapons were 
developed by the former USSR under rigid KGB and GRU control. The first 
of these weapons were longitudinal EM wave interferometers; see Lunev 
and Winkler, ibid. 1998, p. 30: ``Other instruments of destruction the 
Russians have had success with are seismic weapons. Spitac and other 
small towns in the Transcaucasus Mountains were almost destroyed during 
a seismic weapons test that set off an earthquake. This would have 
obvious applications on America's west coast and other areas of the 
world prone to earthquakes.''
    These are also the weapons obliquely referred to by Defense 
Secretary Cohen in this statement: ``Others [terrorists] are engaging 
even in an eco-type of terrorism whereby they can alter the climate, 
set off earthquakes, volcanoes remotely through the use of 
electromagnetic waves . . . So there are plenty of ingenious minds out 
there that are at work finding ways in which they can wreak terror upon 
other nations . . . It's real, and that's the reason why we have to 
intensify our [counterterrorism] efforts.'' Secretary of Defense 
William Cohen at an April 1997 counterterrorism conference sponsored by 
former Senator Sam Nunn. Quoted from DoD News Briefing, Secretary of 
Defense William S. Cohen, Q&A at the Conference on Terrorism, Weapons 
of Mass Destruction, and U.S. Strategy, University of Georgia, Athens, 
Apr. 28, 1997. The present author has been briefing these weapons to 
DoD and other government agencies for many years. Most major weapons 
laboratories in various nations--including China--have now discovered 
longitudinal EM waves and either have such weapons or are furiously 
developing them. As an example of a test by a giant strategic 
longitudinal EM wave interferometer, see Daniel A. Walker, Charles S. 
McCreery, and Fermin J. Oliveira, ``Kaitoku Seamount and the Mystery 
Cloud of 9 April 1984,'' Science, Vol. 227, Feb. 8, 1985, p. 607-611; 
Daniel L. McKenna and Daniel Walker, ``Mystery Cloud: Additional 
Observations,'' Science, Vol. 234, Oct. 24, 1986, p. 412-413. This was 
a test in two modes: (a) in a cold explosion mode above the surface of 
the sea, creating a sudden low pressure zone above the water and 
accounting for the suction of water from the ocean to form the cloud, 
and (b) formation of a glowing spherical shell of light in the top of 
the cloud, and expanding that shell to some 400 miles diameter. The 
cold explosion can destroy a naval task force at sea or an armored 
element on the ground, as an example, or take out the personnel in 
fixed installations and fortified positions. The intense shell of EM 
energy duds the electronics of any vehicle (aircraft, missile, 
satellite) passing through it, by inducing an extremely sharp pulse of 
electromagnetic energy arising inside the electronics, from local 
spacetime itself. Hundreds of tests of these weapons have been 
observed.
    The great advantage of using longitudinal EM waves is that they 
readily pass right through intervening mass such as the ocean or the 
earth, with little attenuation. Hence an underwater nuclear submarine 
can be destroyed deep beneath the ocean--as witnessed by precisely that 
test of the first deployed Russian LW weapon to kill the U.S.S. 
Thresher in April 1963 off the East Coast of the United States. The 
totally anomalous jamming signatures on the Thresher's surface 
companion, the U.S.S. Skylark, positively reveal the nature of the 
weapon employed. Kill of the Arrow DC-8 in Gander, Newfoundland was by 
one of these weapons, with abundant decisive signatures. The present 
author published a photograph of the strike of the weapon 2 weeks 
earlier, offset from a night shuttle launch in Cape Canaveral, Florida. 
This was the same weapon, being used for crew training, which destroyed 
the Arrow some 2 week later. The TWA-800 crash off the East Coast of 
the United States was also such a shoot-down, as have been numerous 
others over the years, documented by the present author At least seven 
nations now possess such longitudinal EM wave interferometer weapons. 
Others are working furiously to develop them. Also, even more powerful 
weapons of novel kind have been developed and deployed by three 
nations--neither of which is the United States.
    11. Proceeding conventionally, it will be 50 years before the 
organized scientific community will permit these emerging solutions to 
actually be developed and produced. This is senseless; as the Manhattan 
Project in WW II showed, a newly emerging technology can go to 
production in 4 years. Given only that neutron fission of the proper 
uranium isotope produced more neutrons than were input, the Manhattan 
Project developed operational atomic bombs of two major types in 4 
years. An appreciable number of other ``waiting areas for such 
development'' exists in science in the literature. However, they are 
not usually pushed forward into development for decades due to the 
continuing resistance of the scientific community to all innovations 
which threaten the favored projects (such as hot fusion) and favored 
theories. Any ``scientist in the trenches'' is well aware that the 
progress of science is by means of a continuing massive cat and dog 
fight, not at all by sweet scientific reason and logic.
    12. A perhaps excessive harsh characterization of these ``in the 
box'' efforts is that they represent ``psychological displacement 
activities'' for the scientific community, the government 
decisionmakers, and perhaps even a part of the environmental community. 
At best these programs represent ``Look at all the good things we are 
doing!''. They must further be assessed with the view that ``Look at 
what they will not do, and what the results of expending all our 
efforts on them will be: catastrophic economic collapse in a decade or 
less.''
    13. We strongly point out that Maxwell's equations are purely 
hydrodynamic equations. There is thus a 100 percent correspondence to 
hydrodynamics and electromagnetic power systems. Anything that can be 
done mechanically, or hydrodynamically with fluid flow, can be done 
with electromagnetic field energy flow, a priori. It is thus a serious 
fault of the scientific community in proclaiming that electrical power 
systems with COP>1.0 are prohibited, because closed systems cannot 
exhibit COP>1.0. All such arguments are evanescent, since all they 
state is that an open EM system far from thermodynamic equilibrium with 
the active vacuum is what is required. But the classical 
electrodynamics (136 years old) used to design and build electrical 
power systems, does not even model the energy exchange between active 
vacuum and the system. To put it mildly, this is a completely 
inexplicable aberration of the scientific mindset, and it has been such 
for over a century.
    14. Open EM systems far from thermodynamic equilibrium with their 
electrically active vacuum environment are indeed permitted by the 
Maxwell-Heaviside equations, prior to the arbitrary symmetrical 
regauging of the equations to yield simpler equations more 
mathematically amenable (done by Lorenz in 1867 and later by H.A. 
Lorentz). The Lorentz condition requires that the system be symmetrical 
in its discharge of its free excitation energy. The present closed 
current loop circuit ubiquitously used in power systems is designed 
specifically such that the system itself enforces the Lorentz 
symmetrical discharge of its excitation energy. Thus one-half of the 
energy is discharged in the external losses and load, while one-half is 
discharged to destroy the source dipole actually extracting the EM 
energy from the active vacuum. Such design guarantees a system which 
destroys its intake of free electrical energy from the vacuum faster 
than it can use part of that energy to power the load. I.e., it 
guarantees suicidal systems which can only exhibit COP<1.0. Every 
electrical system ever built has been and is powered by electrical 
energy extracted directly from the seething vacuum, as we explain in 
the present paper.
    15. Such open systems far from thermodynamic equilibrium in the 
active vacuum exchange, rigorously are permitted to exhibit COP>1.0 and 
power themselves and their loads simultaneously. By building only that 
subset of Maxwellian systems that forces Lorentz symmetrical regauging 
during discharge of the system's excitation energy, our scientists and 
engineers have in fact simply discarded all those Maxwellian systems 
not in equilibrium with the vacuum during their excitation discharge. 
In short, they simply do not build any such systems, or even design 
such. The scientific and engineering communities themselves have 
directly produced and maintained the present horrible energy crisis and 
pollution of the biosphere.
    16. Ludvig Valentin Lorenz, ``On the identity of the vibrations of 
light with electrical currents,'' Philosophical Magazine, Vol. 34, 
1867, p. 287-301. In this paper Lorenz gave essentially what today is 
called the ``Lorentz symmetrical regauging''. Not much attention was 
paid to the earlier Lorenz work. Later, H.A. Lorentz introduced the 
symmetrical regauging of the Maxwell-Heaviside equations, in its 
present modern form. Lorentz's influence was so great that symmetrical 
regauging--which reduced the theory to a subset and discarded all 
Maxwell-Heaviside systems of COP>1.0 and capable of powering themselves 
and a load simultaneously--was adopted and utilized. It is still 
utilized ubiquitously; e.g., see
    17. Lorentz symmetrical regauging is still utilized ubiquitously, 
so that no self-powering systems are designed and developed by our 
energy scientists and engineers. E.g., see J. D. Jackson, Classical 
Electrodynamics, Second Edition, Wiley, New York, 1975, p. 219-221; 
811-812. In symmetrically regauging the Heaviside-Maxwell equations, 
electrodynamicists assume that the potential energy of a system can be 
freely changed at will (i.e., that the system can be asymmetrically 
regauged at will). They do it twice in succession, but carefully select 
two such ``paired simultaneous asymmetrical regaugings'' such that the 
two new free force fields that emerge are equal and opposite and there 
is thus no net force which can be used to dissipate the free excess 
system energy from regauging and perform work in a load. In short, they 
retain only those Maxwellian systems that foolishly oppose and strangle 
their own ability to freely discharge and use the free energy they 
first acquire (from the vacuum, by the first asymmetrical regauging). 
Thereby the energy scientists arbitrarily discard all those Maxwellian 
systems which net asymmetrically regauge by changing their own 
potential energy and also producing a net non-zero force that can be 
used to discharge the excess free energy in a load without reservation. 
Net asymmetrically regauged systems are open dissipative EM systems, 
freely receiving energy from their active external environment and thus 
permitted to dissipate the excess regauging energy in loads because 
they do not strangle that latter ability. Hence the performance of the 
arbitrarily-excluded Maxwellian systems is not confined to classical 
thermodynamics, but is described by the thermodynamics of an open 
dissipative system. Such systems can (i) self-organize, (ii) self-
oscillate, (iii) output more energy than the operator himself inputs 
(the excess is freely received from the external active environment) 
(iv) ``power'' its own losses and an external load simultaneously (all 
the energy to operate the system and the load is received freely from 
the external active environment), and (v) exhibit negentropy.
    18. We can now show that enormous EM energy flow can be easily and 
cheaply initiated from the active vacuum, anywhere, at any time. The 
basis for this was in fact discovered by Heaviside in the 1880's. 
Lorentz knew of this huge energy flow component but discarded it 
arbitrarily, apparently to avoid being attacked and accused of being a 
perpetual motion advocate. See H.A. Lorentz, Vorlesungen uber 
Theoretische Physik an der Universitat Leiden, Vol. V, Die Maxwellsche 
Theorie (1900-1902), Akademische Verlagsgesellschaft M.B.H., Leipzig, 
1931, ``Die Energie im elektromagnetischen Feld,'' p. 179-186. Figure 
25 on p. 185 shows the Lorentz concept of integrating the Poynting 
vector around a closed cylindrical surface surrounding a volumetric 
element. This is the procedure which arbitrarily selects only a small 
component of the energy flow associated with a circuit--specifically, 
the small Poynting component striking the surface charges and being 
diverged into the circuit to power it--and then treats that tiny 
component as the ``entire'' Poynting energy flow.
    19. The mathematical ``trick'' used by Lorentz to get rid of this 
easily and universally evoked giant negentropy, is still employed by 
electrical scientists and engineers without realizing what is actually 
being discarded. For a full explanation, see T.E. Bearden, ``Giant 
Negentropy from the Common Dipole,'' Proc. IC-2000, St. Petersburg, 
Russia, July 2000 (in press). A series of excellent papers by the Alpha 
Foundation's Institute for Advanced Study (AIAS) have also been 
published, approved for publication, or submitted for consideration, in 
leading journals. An example is M.W. Evans, T.E. Bearden et al., 
``Classical Electrodynamics without the Lorentz Condition: Extracting 
Energy from the Vacuum,'' Physica Scripta, Vol. 61, 2000, p. 513-517. A 
most formidable new AIAS paper, ``Electromagnetic Energy from Curved 
Spacetime,'' has been submitted to Optik and is in the referee process. 
Two related paper giving a very solid basis for vacuum energy are M.W. 
Evans et al., ``The Most General Form of Electrodynamics,'' and 
``Energy Inherent in the Pure Gauge Vacuum,'' both submitted to Physica 
Scripta and in the referee process. The theoretical basis for 
extracting copious EM energy from the vacuum is now unequivocal and 
either has been published or is rapidly being published in leading 
journals.
    20. For example, see Myron W. Evans et al., AIAS group paper by 15 
authors, ``Classical Electrodynamics Without the Lorentz Condition: 
Extracting Energy from the Vacuum,'' 2000, ibid.; ``Runaway Solutions 
of the Lehnert Equations: The Possibility of Extracting Energy from the 
Vacuum,'' Optik, 2000 (in press);--''Vacuum Energy Flow and Poynting 
Theorem from Topology and Gauge Theory,'' submitted to Physica 
Scripta;--``Energy Inherent in the Pure Gauge Vacuum,'' submitted to 
Physica Scripta;--``The Most General Form of Electrodynamics,'' 
submitted to Physica Scripta; ``The Aharonov-Bohm Effect as the Basis 
of Electromagnetic Energy Inherent in the Vacuum,'' submitted to 
Optik;--``Electromagnetic Energy from Curved Spacetime,'' submitted to 
Optik.
    21. As an example: The most critical scientist in the Western 
world, working on the ``energy from the vacuum'' approach, is Dr. Myron 
Evans, Founder and Director of the Alpha Foundation's Institute for 
Advanced Study (AIAS). Dr. Evans was hounded from his professorial 
position, has had his life threatened, has been without salary for 
several years, and fled to the United States for his very life. He has 
some 600 papers in the hard literature, and is presently producing--in 
accord with Dr. Mendel Sachs' epochal union of general relativity and 
electrodynamics--the world's first engineerable unified field theory, 
and an advanced electrodynamics fully capable of dealing with and 
modeling EM energy from the vacuum. Yet, Dr. Evans lives in the United 
States (where he recently became a naturalized citizen) at the poverty 
level. He can afford only one meal a day, has no automobile, no air 
conditioning, and continues epochal work under a medical condition that 
would stop any ordinary person less scientifically dedicated. He 
continues to be vilified and viciously attacked by elements of the 
scientific community, even though other elements are of much assistance 
in publishing and reviewing his papers, etc. It is a remarkable 
commentary upon the sad state of our scientific community that such a 
scientist and such epochal work, of tremendous importance to both the 
United States and all humanity, must continue in such circumstances. 
Meanwhile, the scientific community spends billions on vast projects of 
little significance in general, and of no significance at all in 
avoiding the coming world economic collapse and the destruction of 
civilization. If this paper should fall into sympathetic hands which 
can obtain funding for Dr. Evans, then this author most fervently urges 
that such be accomplished at all speed. The fate of most of the 
civilized world may well hinge upon such a simple thing, and upon such 
an insignificant expenditure.
    22. These are listed in M.W. Evans et al., ``Classical 
Electrodynamics Without the Lorentz Condition: Extracting Energy from 
the Vacuum,'' 2000, ibid.
    23. This system exists in small working prototype already, but I am 
under a nondisclosure agreement and cannot reveal the details of the 
process or the identity and location of the inventor. The system is 
capable of being rapidly scaled up to meet the 2003 critical milestone 
of ``ready for mass production''. One can expect up to a COP = 4 from 
this process.
    24. In an electrical power system, Coefficient of Performance (COP) 
may be taken as the average energy dissipated in the load divided by 
the average energy furnished to the system by the operator. Or, it may 
be taken as the average power dissipated in the load divided by the 
average power dissipated in the input process. COP can be taken across 
any component, several components, or the entire system. The COP of a 
normal generator itself may be 0.9, for example, while when the entire 
system including the heater, etc. is taken into account, the system COP 
may be only 0.3. For COP>1.0, excess energy must be furnished to the 
system by the external environment, while only part of the energy (or 
none of it) is input by the operator.
    25. The Kawai process, Johnson process, and the magnetic Wankel 
engine are ideal for this purpose.
    26. T.E. Bearden, ``Bedini's Method For Forming Negative Resistors 
In Batteries,'' Proceedings of the IC-2000, St. Petersburg, Russia, 
July 2000 (in press).
    27. Teruo Kawai, ``Motive Power Generating Device,'' U.S. Patent 
No. 5,436,518. Jul. 25, 1995. Applying the Kawai process to a magnetic 
motor essentially doubles the motor's efficiency. If one starts with 
high efficiency magnetic motors of, say, COP = 0.7 or 0.8, then the new 
COPs will be 1.4 and 1.6. Two Kawai-modified high efficiency Hitachi 
motors were in fact independently tested by Hitachi and yielded COP 1.4 
and 1.6 respectively.
    28. See T.E. Bearden, ``The Master Principle of EM Overunity and 
the Japanese Overunity Engines,'' Infinite Energy, 1 (5&6), Nov. 1995--
Feb. 1996, p. 38-55; ``The Master Principle of Overunity and the 
Japanese Overunity Engines: A New Pearl Harbor?'', The Virtual Times, 
Internet Node www.hsv.com, Jan. 1996. The principle of the magnetic 
Wankel engine is self-evident from the drawings alone.
    29. Johnson, Howard R., ``Permanent Magnet Motor.'' U.S. Patent No. 
4,151,431, Apr. 24, 1979; ``Magnetic Force Generating Method and 
Apparatus,'' U.S. Patent No. 4,877,983, Oct. 31, 1989; ``Magnetic 
Propulsion System,'' U.S. Patent No. 5,402,021, Mar. 28, 1995.
    30. In magnetic materials, the presence of two electrons near each 
other and having parallel spins results in the presence of a very 
strong force tending to flip the spin so that they are antiparallel. 
The forces between the electrons due to spin geometry are exchange 
forces of quantum mechanical nature. In complex assemblies of different 
magnetic materials comprising a single stator or rotor magnet, the 
shapes and structures can be produced so that, as the rotor moves by 
the attracting stator and enters the usual back mmf zone, the powerful 
spin force is suddenly unleashed by the geometry, relative field 
strengths, and movement. This triggers the release of a violent pulse 
of magnetic field that greatly overrides the back mmf and strongly 
repels the rotor on out of this ``gate'' region where the exchange 
force is triggered. Exchange force pulses may momentarily be 1,000 
times as strong as the magnetic field H, or in some cases even 
stronger. Evoking these responses automatically by the materials 
themselves, at controlled times and directions, produces the open 
system freely adding rotary energy from its vacuum exchanges inside the 
nonlinear materials. Johnson has been able to achieve this effect 
consistently, opening the way for a legitimate self-powering permanent 
magnet motor. We accent that the electrons involved are in direct 
energy exchange with the vacuum, and the exchange force energy comes 
from the violently broken symmetry in that vacuum exchange. Multivalued 
magnetic potentials and hence nonconservative magnetic fields arise 
naturally in magnetic theory anyway. However, conventional scientists 
exert enormous effort to eliminate such effects or minimize them--when 
in fact what is needed is to deliberately evoke and use them to produce 
systems with COP>1.0.
    31. Surrounding every dipolar EM circuit there exists a vast flow 
of nondiverged EM energy which misses the circuit entirely and is not 
presently accounted (thus ``dark'') in electrical power systems and 
circuit theory. Heaviside discovered it, Poynting never realized it, 
and Lorentz discarded it. He discarded it because (a) he reasoned it 
was physically insignificant since it did nothing in the circuit, and 
(b) no one had the foggiest notion where such an enormous flow of EM 
energy-pouring from the terminals of every battery and generator--could 
possibly be coming from. The trick Lorentz used to arbitrarily discard 
it is still used by electrodynamicists ubiquitously. For a full 
background, see T.E. Bearden, ``Giant Negentropy from the Common 
Dipole,'' Proc. IC-2000 (ibid.); ``On Extracting Electromagnetic Energy 
from the Vacuum,'' Proceedings of the IC-2000, St. Petersburg, Russia, 
July 2000 (in press); ``Dark Matter or Dark Energy?'', Journal of New 
Energy, 2000 (in press).
    32. Energy cannot be created or destroyed, but only changed in 
form. Changing the form of energy is called ``work''. When one joule of 
collected energy is ``dissipated'' to perform one joule of work, one 
still has one joule of energy remaining after that joule of work has 
been done. The energy is now just in a different form. Scattering of 
energy in a resistor, e.g., is perhaps the simplest way of performing 
work, and known as ``joule heating''. However, for a thought 
experiment: If the resistor is surrounded by a phase conjugate 
reflective mirror surface, much of the scattered energy will be 
precisely returned back to the resistor as re-ordered energy. It can 
indeed be ``reused'' by again being scattered in the resistor to do 
work. There is no conservation of work law in physics or 
thermodynamics! If there is no re-ordering at all, then one can get 
only one joule of work from one joule of energy changed in form. The 
remaining joule of energy in different form (as in heat) is just 
``wasted'' from the system. But if we deliberately use re-ordering 
(such as simple passive retroreflection), we can reuse the same joule 
of energy to do joule after joule of work, changing the form of the 
energy in each interaction. Eerily, most of our scientists and 
engineers are aware that energy can be changed in form indefinitely 
without loss, but will then argue that energy cannot be recycled and 
reused. The scientific prejudice against ``COP>1.0'' processes and 
systems is so deep that many scientists are incapable of dealing with 
the real law of conservation of energy--which is simply that you can 
never get rid of any energy at all, but can only change its form. Every 
joule of energy in the universe, e.g., was present not long after the 
Big Bang. Since then, most of those joules of energy have each been 
doing joule after joule of work, for some 15 billion years.
    33. Kenneth R. Shoulders, ``Energy Conversion Using High Charge 
Density,'' U.S. Patent No. 5,018,180, May 21, 1991. See also Shoulders' 
patents 5,054,046 (1991); 5,054,047 (1991); 5,123,039 (1992), and 
5,148,461 (1992). See also Ken Shoulders and Steve Shoulders, 
``Observations on the Role of Charge Clusters in Nuclear Cluster 
Reactions,'' Journal of New Energy, 1(3), Fall 1996, p. 111-121.
    34. For a summary of this rapidly developing field, see Diederik 
Wiersma and Ad Lagendijk, ``Laser Action in Very White Paint,'' Physics 
World, Jan. 1997, p. 33-37.
    35. For the early discovery, see V.S. Letokhov, ``Generation of 
light by a scattering medium with negative resonance absorption,'' Zh. 
Eksp. Teor. Fiz., Vol. 53, 1967, p. 1442; Soviet Physics JETP, Vol. 26, 
1968, p. 835-839; ``Laser Maxwell's Demon,'' Contemp. Phys., 36(4), 
1995, p. 235-243. For initiating experiments although with external 
excitation of the medium, see N.M. Lawandy et al., ``Laser action in 
strongly scattering media,'' Nature, 368(6470), Mar. 31, 1994, p. 436-
438. See also D.S. Wiersma, M.P. van Albada, and A. Lagendijk, Nature, 
Vol. 373, 1995, p. 103.
    36. For new effects, see D.S. Wiersma and Ad. Lagendijk, ``Light 
diffusion with gain and random lasers,'' Phys. Rev. E, 54(4), 1996, p. 
4256-4265; D.S. Wiersma, Meint. P. van Albada, Bart A. van Tiggelen, 
and Ad Lagendijk, ``Experimental Evidence for Recurring Multiple 
Scattering Events of Light in Disordered Media,'' Phys. Rev. Lett., 
74(21), 1995, p. 4193-4196; D.S. Wiersma, M.P. Van Albada, and A. 
Lagendijk, Phys. Rev. Lett., Vol. 75, 1995, p. 1739; D.S. Wiersma et 
al., Nature, Vol. 390, 1997, p. 671-673; F. Sheffold et al., Nature, 
Vol. 398, 1999, p. 206; J. Gomez Rivas et al., Europhys. Lett., 48(1), 
1999, p. 22-28; Gijs van Soest, Makoto Tomita, and Ad Lagendijk, 
``Amplifying volume in scattering media,'' Opt. Lett., 24(5), 1999, p. 
306-308; A. Kirchner, K. Busch and C. M. Soukoulis, Phys. Rev. B, Vol. 
57, 1998, p. 277.
    37. A true negative resistor appears to have been developed by the 
renowned Gabriel Kron, who was never permitted to reveal its 
construction or specifically reveal its development. For an oblique 
statement of his negative resistor success, see Gabriel Kron, 
``Numerical solution of ordinary and partial differential equations by 
means of equivalent circuits,'' J. Appl. Phys., Vol. 16, Mar. 1945a, p. 
173. Quoting: ``When only positive and negative real numbers exist, it 
is customary to replace a positive resistance by an inductance and a 
negative resistance by a capacitor (since none or only a few negative 
resistances exist on practical network analyzers).'' Apparently Kron 
was required to insert the words ``none or'' in that statement. See 
also Gabriel Kron, ``Electric circuit models of the Schrdinger 
equation,'' Phys. Rev. 67(1-2), Jan. 1 and 15, 1945, p. 39. We quote: 
``Although negative resistances are available for use with a network 
analyzer, . . .''. Here the introductory clause states in rather 
certain terms that negative resistors were available for use on the 
network analyzer, and Kron slipped this one through the censors. It may 
be of interest that Kron was a mentor of Floyd Sweet, who was his 
protege. Sweet worked for the same company, but not on the Network 
Analyzer project. However, he almost certainly knew the secret of 
Kron's ``open path'' discovery and his negative resistor. The present 
author worked for several years with Sweet, who produced a solid state 
device (the magnetic Vacuum Triode Amplifier) with no moving parts 
which produced 500 watts of output power for some 33 microwatts of 
input power. See Floyd Sweet and T.E. Bearden, ``Utilizing Scalar 
Electromagnetics to Tap Vacuum Energy,'' Proc. 26th Intersoc. Energy 
Conversion Engineering Conf. (IECEC 1991), Boston, Massachusetts, p. 
370-375.
    38. Shoukai Wang and D.D.L. Chung, ``Apparent negative electrical 
resistance in carbon fiber composites,'' Composites, Part B, Vol. 30, 
1999, p. 579-590. Negative electrical resistance was observed, 
quantified, and controlled through composite engineering by Chung and 
her team. Electrons were caused to flow backward against the voltage, 
with backflow across a composite interface. The team was able to 
control the manufacturing process to produce either positive or 
negative resistance as desired. The University at Buffalo filed a 
patent application. It first placed a solicitation to industry for 
developments, and offered a technical package to interested companies 
signing nondisclosure, then suddenly withdrew the offer. It appears to 
this author that a ``fix'' may be in place on the development.
    39. It is common knowledge that the point-contact transistor could 
be manufactured to produce a true negative resistor where the output 
current moved against the voltage. E.g., see William B. Burford III and 
H. Grey Verner. Semiconductor Junctions and Devices: Theory to 
Practice, McGraw-Hill, New York, 1965. Chapter 18: Point-Contact 
Devices. Quoting from p. 281: ``First, the theory underlying their 
function is imperfectly understood even after almost a century . . . , 
and second, they involve active metal-semiconductor contacts of a 
highly specialized nature. . . . The manufacturing process is 
deceptively simple, but since much of it involves the empirical know-
how of the fabricator, the true variables are almost impossible to 
isolate or study. . . . although the very nature of these units limits 
them to small power capabilities, the concept of small-signal behavior, 
in the sense of the term when applied to junction devices, is 
meaningless, since there is no region of operation wherein equilibrium 
or theoretical performance is observed. Point-contact devices may 
therefore be described as sharply nonlinear under all operating 
conditions.'' We point out that the power limitation can be overcome by 
arrays of multiple point contacts placed closely together.
    40. It is the back coupling of the magnetic field from the 
secondary to the primary windings that forces the dissipation of equal 
energy in the primary of the transformer as is dissipated in the 
secondary. If part of the return current in the secondary circuit 
bypasses the secondary of the transformer, the back field coupling to 
the primary is reduced accordingly. Using a negative resistor as the 
bypass, the bypass of the current is ``for free'' (powered by the 
vacuum and a negentropic process). Hence the result is a transformer/
bypass system with COP>1.0. In that case, such a system can have a 
positive clamped feedback from the output of the secondary circuit, 
into the primary to power it, while still having energy remaining to 
power a load. No laws of physics or thermodynamics are violated, once 
one understands how an EM circuit is actually powered. E.g., see 
Bearden, ``On Extracting EM Energy from the Vacuum, 2000, (ibid.).
    41. The Kawai process was seized in the personal presence of the 
present author and his CTEC, Inc. Board of Directors. We had reached a 
full agreement with Kawai to manufacture and sell his units worldwide, 
at great speed. Control of his company, his invention, and Kawai 
himself was taken over in our presence the next morning, and the 
Japanese contingent was in fear and trembling.
    42. The magnetic Wankel engine was developed and actually placed in 
a Mazda automobile. The back mmf of the rotary permanent magnet motor 
is confined to a very small angle of the rotation. As the rotor enters 
that region, a sudden cutoff of a small trickle current in a coil 
generates a momentary large Lenz law effect which overrides the back 
mmf and produces a forward mmf in that region. The result is that one 
furnishes a small bit of energy to convert the engine to a rotary 
permanent magnet motor with no back mmf, but with a nonconservative net 
magnetic field. For details, see T.E. Bearden, ``The Master Principle 
of EM Overunity and the Japanese Overunity Engines,'' Infinite Energy, 
1(5&6), Nov. 1995--Feb. 1996, p. 38-55; ``The Master Principle of 
Overunity and the Japanese Overunity Engines: A New Pearl Harbor?'', 
The Virtual Times, Internet Node www.hsv.com, Jan. 1996.
    43. For a history and present status of Japanese organized crime, 
see Adam Johnston, ``Yakuza: Past and Present,'' Committee for a Safe 
Society, Organized Crime Page: Japan (available on the Internet). 
Michael Hirsh and Hideko Takayama, ``Big Bang or Bust?'' Newsweek, 
Sept. 1, 1997, p. 44-45.
    44. As a ball-park figure for illustration, a nominal electrical 
circuit or power system actually extracts from the vacuum and pours out 
into space some 10 trillion times as much energy flow as the poorly 
designed ``single pass'' circuits intercept and utilize.
    45. However, the orthodox scientists do not know it, because they 
follow blindly the method introduced by Lorentz a century ago. Lorentz 
arbitrarily discarded all that astounding energy flow that pours from 
the source dipole and misses the circuit, and retained only the tiny, 
tiny bit of it that strikes the circuit and enters it to power it. 
Nothing at all has been done since then to capture more of that huge 
available energy and use it. As a result of the ubiquitous Lorentz 
procedure, most electrical power system scientists and engineers are no 
longer aware that the huge unaccounted energy flow not striking the 
circuit even exists.
    46. The active vacuum interacts profusely with every electrodynamic 
system, but this is not modeled at all by the scientists and engineers 
designing and building electrical power systems. They unwittingly 
design every system to enforce Lorentz symmetrical regauging during 
excitation energy discharge, which in effect forces equilibrium in the 
vacuum-system energy exchange during that dissipation. Hence, classical 
equilibrium thermodynamics rigorously applies during use of the 
collected energy. Such systems are limited to COP<1.0 a priori.
    47. In Nobelist Feynman's words: ``We . . . wish to emphasize . . . 
the following points: (1) the electromagnetic theory predicts the 
existence of an electromagnetic mass, but it also falls on its face in 
doing so, because it does not produce a consistent theory--and the same 
is true with the quantum modifications; (2) there is experimental 
evidence for the existence of electromagnetic mass, and (3) all these 
masses are roughly the same as the mass of an electron. So we come back 
again to the original idea of Lorentz--maybe all the mass of an 
electron is purely electromagnetic, maybe the whole 0.511 Mev is due to 
electrodynamics. Is it or isn't it? We haven't got a theory, so we 
cannot say. Richard P. Feynman, Robert B. Leighton, and Matthew Sands, 
Lectures on Physics, Vol. 2, 1964, p. 28-12. Also: ``We do not know how 
to make a consistent theory--including the quantum mechanics--which 
does not produce an infinity for the self-energy of an electron, or any 
point charge. And at the same time, there is no satisfactory theory 
that describes a non-point charge. It's an unsolved problem.'' Ibid., 
Vol. 2, 1964, p. 28-10. In fact, ``energy'' itself is actually a very 
nebulous and inexact concept. Again quoting: ``It is important to 
realize that in physics today, we have no knowledge of what energy 
is.'' Ibid., Vol. 1, 1964, p. 4-2.
    48. E.g., a very recent AIAS paper, M.W. Evans et al., ``The Most 
General Form of Electrodynamics,'' submitted to Physica Scripta, 
rigorously shows just how wrong the present limited EM theory is. ``. . 
. there can be no electro-magnetic field [as such] in the vacuum. In 
other words, there can be no electromagnetic field propagating in a 
source-free region as in the Maxwell-Heaviside theory, which is written 
in flat space-time using ordinary derivatives instead of covariant 
derivatives.'' The reason is quite simple: spacetime is active and 
curved. The great John Wheeler and Nobelist Feynman, e.g., realized 
that EM force fields cannot exist in space. They pointed out that only 
the potential for such fields existed in space, should some charges be 
made available so that the fields could be developed on them. See 
Richard P. Feynman, Robert B. Leighton and Matthew Sands, The Feynman 
Lectures on Physics, Addison-Wesley, New York, Vol. I, 1963, p. 2-4.
    49. Max Planck, as quoted in G. Holton, Thematic Origins of 
Scientific Thought, Harvard University Press, Cambridge, MA, 1973.
    50. Arthur C. Clarke, in ``Space Drive: A Fantasy That Could Become 
Reality'' NSS . . . AD ASTRA, Nov/Dec 1994, p. 38.
    51. E.g., quoting Nobelist Lee: ``. . .the discoveries made in 1957 
established not only right-left asymmetry, but also the asymmetry 
between the positive and negative signs of electric charge. . . . 
``Since non-observables imply symmetry, these discoveries of asymmetry 
must imply observables.'' T.D. Lee, Particle Physics and Introduction 
to Field Theory, Harwood, New York, 1981, p. 184.] On p. 383, Lee 
points out that the microstructure of the scalar vacuum field (i.e., of 
vacuum charge) is not utilized. Particularly see Lee's own attempt to 
indicate the possibility of using vacuum engineering, in his ``Chapter 
25: Outlook: Possibility of Vacuum Engineering,'' p. 824-828. 
Unfortunately Lee was unaware of Whittaker's profound 1903 
decomposition of the scalar potential, as between the ends of a dipole, 
which gives a much more practical and easily evoked method for re-
ordering some of the vacuum's energy, extracting copious EM energy 
flows from it, and setting the stage for self-powering electrical power 
systems worldwide.
    52. The present author has taken the necessary first major step, by 
using Whittaker decomposition of the scalar potential between the poles 
of a dipole to reveal a simple, direct, cheap method for extracting and 
sustaining enormous EM energy flows from the dipole's asymmetry in its 
energetic exchange with the active vacuum.
    53. The internal energy available to a generator is the shaft 
energy we input to it. In large power plants this is usually by a steam 
turbine, and heat (from a nuclear reactor, burning hydrocarbons, etc.) 
is used merely to heat the water in the boiler to make steam to run the 
steam turbine. Every bit of all that is just so the generator will have 
some internal energy made available with which it can then forcibly 
make the dipole. That is all that generators (and batteries) do: Use 
their available internal energy to continually make the source dipole--
which our engineers design the circuit to keep destroying faster than 
the load is powered.
    54. By ``dipole'' we mean the positive charges are forced to one 
side, and the negative charges forced to the other. This internal 
``source dipole'' formed by the generator or battery is electrically 
connected to the terminals.
    55. This has been known in particle physics for nearly 50 years. It 
stems from the discovery of broken symmetry by C.S. Wu et al. in 1957. 
A dipole is known to be a broken symmetry in its violent energy 
exchange with the active vacuum. Rigorously this means that some of the 
``disordered'' EM energy received by the dipole from the vacuum, is re-
ordered and re-radiated as usable, observable EM energy. Conventional 
electrodynamics and power system engineering do not model the vacuum's 
interaction, much less the broken symmetry of the generator or battery 
dipole in that continuous energy exchange.
    56. A pictorial illustration of the enormity of the energy flow 
through the surrounding space, and missing the external circuit 
entirely, is given by John D. Kraus, Electromagnetics, Fourth Edn., 
McGraw-Hill, New York, 1992--a standard university text. Figure 12-60, 
a and b, p. 578 shows a good drawing of the huge energy flow filling 
all space around the conductors, with almost all of that energy flow 
not intercepted by the circuit at all, and thus not diverged into the 
circuit to power it, but just ``wasted'' by passing it on out into 
space.
    57. That is, the interception of the little ``boundary layer'' or 
``sheath'' of the flow, right on the surface of the wires.
    58. Poynting never considered anything but this small little 
``intercepted'' component of the energy flow that actually entered the 
circuit. E.g., see J.H. Poynting, ``On the connexion between electric 
current and the electric and magnetic inductions in the surrounding 
field,'' Proc. Roy. Soc. Lond., Vol. 38, 1985, p. 168.
    59. In technical terms, the closed current loop circuit forces the 
Lorentz symmetrical regauging condition during the discharge of the 
excitation energy collected by the circuit. By definition, half the 
energy is thus used to oppose the system function (i.e., to destroy the 
source dipole) while the other half of the excitation energy is used to 
power the external losses and the load. With half the collected energy 
used to destroy the free extraction of energy from the vacuum, and less 
than half used to power the load, these ubiquitous circuits destroy 
their source of free vacuum energy faster than they power their loads. 
Hence, we ourselves have to steadily input shaft energy to the 
generators so that they can continue to reform the dipole. In the 
vernacular, that is not the way to run the railroad!
    60. Maxwell's seminal paper was published in 1864, as a purely 
material fluid flow (hydrodynamic) theory. At the time, the electron 
and the atom had not been discovered, hence the reaction of two 
opposite charges (positive nuclei, negative Drude electrons) in the 
wire was not modeled but only one was modeled, etc. Maxwell omitted 
half the EM wave in the vacuum and half the energy, resulting in the 
omission of the EM cause and generatrix of Newton's third law reaction 
from electrodynamics. This omission is present in electrodynamics, 
where the third law reaction appears as a mystical effect without a 
known cause. The cause and mechanism is the omitted reaction of the 
observed effect back upon the non-observed cause. General relativity, 
e.g., does include this reaction mechanism from the effect back upon 
the cause. However, electrodynamicists still omit half the 
electromagnetics, half the wave, and half the energy as is easily 
shown. E.g., it is demonstrated in every EM signal reception in a 
simple wire antenna, when the resulting perturbations of both the 
positive nuclei and the Drude electrons are correctly attributed to 
their interactions with the incoming EM fields (waves) from the vacuum.
    61. Mario Bunge, Foundations of Physics, Springer-Verlag, New York, 
1967, p. 176.
    62. T.E. Bearden, ``On Extracting Electromagnetic Energy from the 
Vacuum,'' Proc. IC-2000, St. Petersburg, Russia, July 2000 (in press).
    63. T.E. Bearden, ``Bedini's Method For Forming Negative Resistors 
In Batteries,'' Proc. IC-2000, St. Petersburg, Russia, July 2000 (in 
press).
    64. T.E. Bearden, ``Giant Negentropy from the Common Dipole,'' 
Proc. IC-2000, St. Petersburg, Russia, July 2000 (in press).
    65. E.g., a good short summary is given by Dr. Theodore Loder, 
Institute for the Study of Earth, Oceans, and Space (EOS), University 
of New Hampshire, Durham, NH in his short paper, ``'Comparative Risk 
Issues' Regarding Present and Future Environmental Trends: Why We Need 
to be Looking Ahead Now!'', prepared for the Senate Committee on the 
Environment and Public Works, June 1, 2000. Certainly Dr. Loder and EOS 
can fully expound on the details of the biospheric pollution from the 
various contributing factors and processes.
    66. One need only regard the vehement attacks by the scientific 
community (and much of the government including national laboratories) 
upon cold fusion researchers, to understand why many inventors and 
scientists in the COP>1.0 open dissipative energy field are openly 
distrustful of the government and government scientists. Further, the 
U.S. Patent Office is known to be under rather explicit instructions 
not to issue patents on COP>1.0 electrical processes and systems.
    67. E.g., the well-known Bohren experiment produces 18 times as 
much energy output as the operator must input. The excess energy is 
extracted directly from the vacuum. There has been no program, to my 
knowledge, seeking to exploit this well-proven COP>1.0 mechanism that 
has been in the hard science literature for some time. See Craig F. 
Bohren, ``How can a particle absorb more than the light incident on 
it?'' Am. J. Phys., 51(4), Apr. 1983, p. 323-327. Under nonlinear 
conditions, a particle can absorb more energy than is in the light 
incident on it. Metallic particles at ultraviolet frequencies are one 
class of such particles and insulating particles at infrared 
frequencies are another. For independent validation of the Bohren 
phenomenon, see H. Paul and R. Fischer, Comment on ``How can a particle 
absorb more than the light incident on it?','' Am. J. Phys., 51(4), 
Apr. 1983, p. 327.
    68. G. Johnstone Stoney, ``Microscopic Vision,'' Phil. Mag. Vol. 
42, Oct. 1896, p. 332; , ``On the Generality of a New Theorem,'' Phil. 
Mag., Vol. 43, 1897, p. 139-142; ``Discussion of a New Theorem in Wave 
Propagation,'' Phil. Mag., Vol. 43, 1897, p. 273-280; ``On a Supposed 
Proof of a Theorem in Wave-motion,'' Phil. Mag., Vol. 43, 1897, p. 368-
373.
    69. E. T. Whittaker, ``On the Partial Differential Equations of 
Mathematical Physics,'' Math. Ann., Vol. 57, 1903, p. 333-355.
    70. Evans in a private communication has pointed out that 
Whittaker's method depends upon the Lorentz gauge being assumed. If the 
latter is not used, the Whittaker method is inadequate, because the 
scalar potential becomes even more richly structured. My restudy of the 
problem with this in mind concluded that, for the negentropic vacuum-
reordering mechanism involving only the dipole and the charge as a 
composite dipole, it appears that the Whittaker method can be applied 
without problem, at least to generate the minimum negentropic process 
itself. However, this still leaves open the possibility of additional 
structuring. The actual negentropic reordering of the vacuum energy 
(and the structure of the outpouring of the EM energy 3-flow from the 
charge or dipole) may permissibly be much richer than given by the 
simple Whittaker structure alone. In other words, the Whittaker 
structure used in this paper should be regarded as the simplest 
structuring of the negentropic process that can be produced, and hence 
as a lower boundary condition on the process.
    71. Time-like currents and flows do appear in the vacuum energy, if 
extended electrodynamic theory is utilized. E.g., in the received view 
the Gupta-Bleuler method removes time-like photons and longitudinal 
photons. For disproof of the Gupta-Bleuler method, proof of the 
independent existence of such photons, and a short description of their 
characteristics, see Myron W. Evans et al., AIAS group paper, ``On 
Whittaker's F and G Fluxes, Part III: The Existence of Physical 
Longitudinal and Time-Like Photons,'' J. New Energy, 4(3), Winter 1999, 
p. 68-71; ``On Whittaker's Analysis of the Electromagnetic Entity, Part 
IV: Longitudinal Magnetic Flux and Time-Like Potential without Vector 
Potential and without Electric and Magnetic Fields,'' ibid., p. 72-75. 
To see how such entities produce ordinary EM fields and energy in 
vacuo, see Myron W. Evans et al., AIAS group paper, ``On Whittaker's 
Representation of the Electromagnetic Entity in Vacuo, Part V: The 
Production of Transverse Fields and Energy by Scalar Interferometry,'' 
ibid., p. 76-78. See also Myron W. Evans et al., AIAS group paper, 
``Representation of the Vacuum Electromagnetic Field in Terms of 
Longitudinal and Time-like Potentials: Canonical Quantization,'' ibid., 
p. 82-88.
    72. For a short treatise on the complex Poynting vector, see D.S. 
Jones, The Theory of Electromagnetism, Pergamon Press, Oxford, 1964, p. 
57-58. In a sense our present use is similar to the complex Poynting 
energy flow vector, but in our usage the absolute value of the 
imaginary energy flow is equal to the absolute value of the real energy 
flow, and there is a transformation process in between. This usage is 
possible because the imaginary flow is into a transducer, which takes 
care of transforming the received imaginary EM energy into the output 
real EM energy. We stress that the word ``imaginary'' is not at all 
synonymous with fictitious, but merely refers to what ``dimension'' or 
state the EM energy exists in.
    73. Unfortunately, electrical engineers use the term ``power'' to 
also mean the rate of energy flow, when rigorously the term ``power'' 
means the rate at which work is done. We accent that we fully 
understand the difference, but are using the terminology common to the 
profession.
    74. Nobelist Prigogine experienced something very similar when he 
proposed his open dissipative systems, where the system operations did 
not lead to the conventional increasing disorder. To say that he was 
subjected to the Inquisition is not an exaggeration. Other scientists 
have repeatedly been subjected to intense scientific attack and 
suppression--including Mayer (conservation of energy), Einstein 
(relativity), Wegener (drifting continental plates), Ovshinsky 
(amorphous semiconductors), to name just a few of the hundreds who have 
been attacked in similar fashion. Science does not proceed by sweet 
reason, but by a vicious dogfight with no holds barred. It delights in 
``wolf pack'' attacks upon the scientist with a new idea or discovery.
    75. And the scientific community is certainly not prepared for the 
notion of using time as energy, freely and anywhere. In a sense, one 
can ``burn time as fuel''. Consider this: In physics, the choice of 
fundamental units in one's physics model is completely arbitrary. E.g., 
one can make a quite legitimate physics model having only a single 
fundamental unit (such is already done in certain areas of physics). 
E.g., suppose we make the ``joule'' (energy) the only fundamental unit. 
It follows then that everything else--including the second and 
therefore time--is a function of energy. One can utilize the second as 
c<SUP>2</SUP> joules of energy. Hence, the flow of time would have the 
same energy density as mass. After Einstein, the atom bomb, and the 
nuclear reactor, of course, we are all comfortable with the fact that 
mass is just spatial energy compressed by the factor c<SUP>2</SUP>. So 
we really should not be too uncomfortable at the notion that time 
itself is energy compressed by the factor c<SUP>2</SUP>. In this case, 
if every second of the passage of time, we were to convert one 
microsecond into ordinary EM spatial energy, we would produce some 9 
<greek-e>10<SUP>10</SUP> joules of EM energy. Since that is done each 
second, this would give us the equivalent of the output of 90 1000-
megawatt power plants. If only 1.11 percent efficient, the conversion 
process would yield the equivalent of one 1000-megawatt power plant.
    In fact, it is in theory possible to do such a conversion, and we 
have previously indicated the various mechanisms involved. There are 
also some rough experimental results that are at least consistent with 
the thesis. The interested reader is referred to T.E. Bearden, ``EM 
Corrections Enabling a Practical Unified Field Theory with Emphasis on 
Time-Charging Interactions of Longitudinal EM Waves,'' J. New Energy, 
3(2/3), 1998, p. 12-28. See also the author's similar paper with the 
same title, in Explore, 8(6), 1998, p. 7-16. We believe that the real 
energy technology for the second half of this century is based on use 
of time for fuel. The fundamental reactions and principles also enable 
a totally new form of high energy physics reactions, where very low 
spatial energy photons are the carriers (their time components carry 
canonical time-energy, so that the highest energy photons of all, given 
time-energy conversion, are low frequency photons. These new reactions 
(given in the references cited) are indeed consistent with the 
startling nuclear transformation reactions met at low (spatial) photon 
energies in hundreds of successful cold fusion experiments worldwide.
    76. A classic example is given by Paul Nahin in his Oliver 
Heaviside: Sage in Solitude, IEEE Press, New York, 1988, p. 225. 
Quoting: ``J.J. Waterston's paper on the kinetic theory of gases, in 
1845, was rejected by the Royal Society of London. One of the referees 
declared it to be 'nothing but nonsense, unfit even for reading before 
the Society.' . . . ``Waterston's dusty manuscript was finally exhumed 
from its archival tomb 40 years later, because of the efforts of Lord 
Rayleigh . . .'' Our comment is that the same scientific attitude and 
resistance to innovative change prevails today. As the French say, 
``Plus ca change, plus c'est la meame chose!''
    77. E.g., see G. Nicolas and I. Prigogine, Exploring Complexity, 
Piper, Munich, 1987 (an English version is Exploring Complexity: An 
Introduction, Freeman, New York, 1989); Ilya Prigogine, From Being to 
Becoming: Time and Complexity in the Physical Sciences, W.H. Freeman 
and Company, San Francisco, 1980. In 1977, Prigogine received the Nobel 
Prize in chemistry for his contributions to nonequilibrium 
thermodynamics, especially the theory of dissipative structures.
    78. E.g., see, Moises Naim, ``Lori's War,'' Foreign Policy, Vol. 
118, Spring 2000, p. 28-55. See particularly Lori Wallach and Michelle 
Sforza, Whose Trade Organization? Corporate Globalization and the 
Erosion of Democracy, published by Public Citizen Foundation and 
available by order from http://www.globaltradewatch.org. Perusal of the 
leading environmental activist web sites now shows a significant and 
rising awareness that globalization is merely the surface facade of an 
older, imperial, feudalistic capitalism where checks and balances 
established by national states are being slowly and methodically 
bypassed.
    79. The interested reader is referred to Andrew A. Marino, 
Powerline Electromagnetic Fields and Human Health, at http://
www.ortho.lsumc.edu/Faculty/Marino/Marino.html. Particularly see 
``Chapter 5, Blue-Ribbon Committees and Powerline EMF Health Hazards,'' 
and ``Chapter 6: Power-Industry Science and Powerline EMF Health 
Hazards.'' Biophysicist Marino is one of the leaders in the field and 
has been personally involved in many skirmishes with powerline-
dominated studies and findings. As an example, quoting from Chapter 6: 
``Neither scientists nor the public can rely on power-industry research 
or analysis to help decide whether powerline electromagnetic fields 
affect human health because power-industry research and analysis are 
radically misleading.'' There are many other reports in the literature, 
which also show effects of EM nonionizing radiation on cells, including 
detrimental effects.
    80. Becker studied not just the immune system--which ``heals'' 
nothing at all, not even its own damaged cells--but also the cellular 
regenerative system. He and others found, e.g., that tiny trickle 
currents and potentials--either steady or pulsed--placed across 
otherwise intractable bone fractures, would result in a rather 
astounding set of cellular changes which led to healing of the fracture 
by deposit of new bone. Eerily, Becker showed that the red blood cells 
coming into the area and under the EM influence, would shuck their 
hemoglobin and grow cellular nuclei (i.e., dedifferentiate back to an 
earlier cellular state). Then these cells would redifferentiate into 
the type of cells that made cartilage. Then those cells would 
differentiate into the type of cells that make bone, and be deposited 
in the fracture to ``grow bone'' and heal the fracture. Incredibly, 
this is the only true ``healing'' modality in all Western medical 
science--which is otherwise built upon the theory of intervention 
rather than healing. After the intervention (which may be quite 
necessary!), the body's cellular regenerative system--or what is left 
of it after damage by such interventions as chemotherapy, etc.--is left 
entirely upon its own to restore the damage (heal the damaged cells and 
tissues). Becker was twice nominated for a Nobel Prize. However, 
because he also testified in court against power companies, giving 
testimony as an expert witness that EM radiation from power lines could 
indeed induce harmful conditions in some exposed people, he was 
suppressed and eventually forced to retire.
    81. See Robert O. Becker and Andrew A. Marino, Electromagnetism and 
Life, State University of New York Press, Albany, 1982. This reference 
gives a nice summary of EM bioeffects from the orthodox view, current 
as of the publication date. For Becker's work with the cellular 
regenerative system, see particularly R.O. Becker, ``The neural 
semiconduction control system and its interaction with applied 
electrical current and magnetic fields,'' Proc. XI Internat. Congr. 
Radiol., Vol. 105, 1966, p. 1753-1759, Excerpta Medica Foundation, 
Amsterdam. See Becker, ``The direct current field: A primitive control 
and communication system related to growth processes,'' Proc. XVI 
Internat. Congr. Zool., Washington, DC, Vol. 3, 1963, p. 179-183.
    82. For an overview of the ansatz of present battery technology, 
see David Linden, Editor in Chief, Handbook of Batteries, Second 
Edition, McGraw Hill, New York, 1995; Colin A. Vincent and Bruno 
Scrosati, Modern Batteries: An Introduction to Electrochemical Power 
Sources, Second Edition, Wiley, New York, 1997. For a process to make a 
battery include a negative resistor and exhibit COP>1.0, see Bearden, 
``Bedini's Method For Forming Negative Resistors In Batteries,'' Proc. 
IC-2000, St. Petersburg, Russia (in press).
    83. Such laboratories are private and professional testing 
companies, where the U.S. Government has certified their expertise and 
qualifications, their testing to NIST, IEEE, and U.S. Government 
standards, their use of calibrated instruments, and the experience and 
ability of their professional test engineers and scientists. Such labs 
are routinely and widely used by aerospace firms. A Test Certificate 
from such a lab is acceptable by the courts, the U.S. Patent and 
Trademark Office, the U.S. Government (which requires it on many 
contracts), and by the U.S. scientific community. A goodly number of 
these laboratories are available throughout the United States
    84. A few struggling publications in the ``new energy'' field are 
crucial to continued progress. The major ones are Journal of New Energy 
(Dr. Hal Fox, publisher), Infinite Energy (Dr. Eugene Mallove, 
publisher), and Explore (Chrystyne Jackson, publisher). Independent 
sustaining funding for these publications is urgently needed. We also 
highly commend the Department of Energy's Transportation group for 
maintaining a DOE website carrying the advanced electrodynamics papers 
of the Alpha Foundation's Institute for Advanced Study (AIAS). Funding 
for the AIAS is also urgently needed, to continue this absolutely 
essential theoretical work that is placing a solid physics foundation 
under the program of extracting and using EM energy from the vacuum.
    85. Some recommended publications of interest are: Joshua 
Lederberg, Editor, Biological Weapons: Limiting the Threat, MIT Press, 
Cambridge, MA, 1999, with a foreword by Defense Secretary William S. 
Cohen; Richard A. Falkenrath, Robert D. Newman, and Bradley A. Thayer, 
America's Achilles Heel: Nuclear, Biological, and Chemical Terrorism 
and Covert Attack, MIT Press, 1998; Wendy Barnaby, The Plague Makers: 
The Secret World of Biological Warfare, Vision Paperbacks, Satin 
Publications Ltd., London, 1999 (a most readable and educational book 
for the nonspecialist), U.S. Congress, Office of Technology Assessment, 
Proliferation of Weapons of Mass Destruction: Assessing the Risks, 
Government Printing Office, Washington, DC, 1993 (a major study on WMD 
and the risks to the United States, including to the U.S. civilian 
population); Global Proliferation of Weapons of Mass Destruction, Part 
I, Senate Hearing 104-422, Hearings Before the Permanent Subcommittee 
on Investigations of the Committee on Governmental Affairs, U.S. 
Senate, Oct. 31 and Nov. 1, 1995.
    86. Unfortunately, the extant unclassified references on 
longitudinal EM and more advanced EM weapons seem to be the 
publications by the present author, e.g., T.E. Bearden, ``Mind Control 
and EM Wave Polarization Transductions, Part I'', Explore, 9(2), 1999, 
p. 59; Part II, Explore, 9(3), 1999, p. 61; Part III, Explore, 9(4,5), 
1999, p. 100-108;--''EM Corrections Enabling a Practical Unified Field 
Theory with Emphasis on Time-Charging Interactions of Longitudinal EM 
Waves,'' Journal of New Energy, 3(2/3), 1998, p. 12-28;--Energetics of 
Free Energy Systems and Vacuum Engine Therapies, Tara Publishing, 
Internet node www.tarapublishing.com/books, July 1997;--Gravitobiology: 
A New Biophysics, Tesla Book Co., P.O. Box 121873, Chula Vista, CA 
91912, 1991;--Fer-de-Lance, Tesla Book Co., 1986;--AIDS: Biological 
Warfare, Tesla Book Co., 1988;--Soviet Weather Engineering Over North 
America, 1-hour videotape, 1985;--Energetics: Extensions to Physics and 
Advanced Technology for Medical and Military Applications, CTEC 
Proprietary, May 1, 1998, 200+ page inclosure to CTEC Letter, ``Saving 
the Lives of mass BW Casualties from Terrorist BW Strikes on U.S. 
Population Centers,'' to Major General Thomas H. Neary, Director of 
Nuclear and Counterproliferation, Office of the Deputy Chief of Staff, 
Air and Space Operations, HQ USAF, May. 4, 1998;--''Overview and 
Background of KGB Energetics Weapons Threat to the United States,'' 
updated Jan. 3, 1999, furnished to selected Senators and 
Congresspersons.
    87. As an example, for decades Castro ran guerrilla and agent 
training camps in Southern Mexico. Many of the graduates of those 
camps--trained terrorists all--have been infiltrated across the U.S. 
border and into the United States, to bide their time and wait for 
instructions. Some estimates are that several thousand such Castro 
agents alone are already onsite and positioned for sabotage, poisoning 
of water supplies, destruction of transmission line towers, destruction 
of key bridges, etc. Several other nations hostile to the United States 
are also known to have agent teams already onsite within the United 
States. The new form of warfare/terrorism is to introduce the 
``troops'' into the adversary's nation and populace in advance, as well 
as weapons caches, etc. So such preparations have definitely been 
accomplished within the United States, and undoubtedly some are still 
in progress and ongoing.
    88. E.g., see Stanislov Lunev and Ira Winkler, 1998, ibid. p. 22: 
``Though most Americans don't realize it, America is already penetrated 
by Russian military intelligence to the extent that arms caches lie in 
wait for use by Russian special forces--or Spetznatz.''
    Page 26: ``It is surprisingly easy to smuggle nuclear weapons into 
the United States. A commonly used method is for a Russian airplane to 
fly across the ocean on a typical reconnaissance flight. The planes 
will be tracked by U.S. radar, but that's not a problem. When there are 
no other aircraft in visual range, the Russian airplane will launch a 
small, high-tech, stealth transport missile that can slip undetected 
into remote areas of the country. The missiles are retrieved by GRU 
operatives.
    Another way to get a weapon into the country is to have an 
``oceanographic research'' submarine deliver the device--accompanied by 
GRU specialists--to a remote section of coastline.
    Nuclear devices can also be slipped across the Mexican or Canadian 
borders. It is easy to get a bomb to Cuba and from there transport it 
to Mexico. Usually the devices are carried by a Russian intelligence 
officer or a trusted agent.''
  

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
